<html>
<title> - POLICY AND STRATEGY IN THE ASIA PACIFIC</title>
<body><pre>[Senate Hearing 115-422]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-422
 
                POLICY AND STRATEGY IN THE ASIA	PACIFIC

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         


         


       Available via the World Wide Web: http://www.Govinfo.gov/     
       
       
                     _______________

            U.S. GOVERNMENT PUBLISHING OFFICE         
                   
34-036 PDF            WASHINGTON : 2019          
 
 
 
 
       
       

                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman          JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                 BILL NELSON, Florida
ROGER F. WICKER, Mississippi              CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                     JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                      KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota                 RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                          JOE DONNELLY, Indiana
THOM TILLIS, North Carolina               MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                      TIM KAINE, Virginia
DAVID PERDUE, Georgia                     ANGUS S. KING, JR., Maine
TED CRUZ, Texas                           MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina            ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                       GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama              
                        
                                     
             Christian D. Brose, Staff Director
             Elizabeth L. King, Minority Staff Director
             

                                  (ii)

  


                         C O N T E N T S

                         ________________

                             April 25, 2017

                                                                   Page

Policy and Strategy in the Asia-Pacific..........................     1

Cha, Victor D., Ph.D., Senior Adviser and Korea Chair, Center for     3
  Strategic and International Studies.
Friedberg, Aaron L., Ph.D., Professor of Politics and                13
  International Affairs, Princeton University.
Magsamen, Kelly E., Former Principal Deputy Assistant Secretary      20
  of Defense for Asian and Pacific Security Affairs, Office of 
  the Secretary of Defense.
Tellis, Ashley J., Ph.D., Senior Fellow, Carnegie Endowment for      27
  International Peace.

                                 (iii)


                POLICY AND STRATEGY IN THE ASIA-PACIFIC

                              ----------                              


                        TUESDAY, APRIL 25, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Ernst, Tillis, Sullivan, Perdue, Cruz, Graham, 
Sasse, Strange, Reed, Nelson, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Heinrich, Warren, 
and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets this morning to receive testimony on United 
States policy and strategy in the Asia-Pacific region.
    I am pleased to welcome today our panel of expert 
witnesses, all with deep knowledge and experience in the 
region: Victor Cha, who is the senior adviser and Korea Chair 
at the Center for Strategic and International Studies; Aaron 
Friedberg, who is professor of politics and international 
affairs at Princeton University; Kelly Magsamen, former 
Principal Deputy Assistant Secretary of Defense for Asian and 
Pacific Security Affairs; and Ashley Tellis, senior fellow and 
Tata Chair for Strategic Affairs at the Carnegie Endowment For 
International Peace, an old friend of the committee.
    America's interests in the Asia-Pacific region are deep and 
enduring. That is why, for the past 70 years, we have worked 
with our allies and partners to uphold a rules-based order 
based on principles of free peoples and free markets, open seas 
and open skies, the rule of law, and the peaceful resolution of 
disputes.
    These ideas have produced unprecedented peace and 
prosperity in the Asia-Pacific. But now, the challenges to this 
rules-based order are mounting, as they threaten not just the 
nations of the Asia-Pacific region, but the United States as 
well.
    The most immediate challenge is the situation on the Korean 
Peninsula. Kim Jong-un's regime has thrown its full weight 
behind its quest for nuclear weapons and the means to deliver 
them. Unfortunately, the regime is making real progress. A 
North Korean missile with a nuclear payload capable of striking 
an American city is no longer a distant hypothetical, but an 
imminent danger--one that poses a real and rising risk of 
conflict.
    I look forward hearing from our witnesses today about 
United States policy options on the Korean Peninsula. For 
years, the United States has looked to China, North Korea's 
long-term patron and sole strategic ally, to bring the regime 
to the negotiating table and achieve progress toward a 
denuclearized Korean Peninsula. We have done so for the simple 
reason that China is the only country with the influence to 
curb the North Korea's destabilizing behavior. But China has 
repeatedly refused to exercise that influence.
    Instead, China has chosen to bully South Korea for 
exercising its sovereign right to defend itself from the 
escalating North Korean threat.
    In response to the alliance decision to deploy the THAAD 
[Terminal High Altitude Area Defense] missile defense system to 
the Korean Peninsula, China has waged a campaign of economic 
retaliation against South Korea, which has inflicted real 
damage.
    The twisted reality is that China is doing all of this to 
stop the deployment of a defensive system, which is only 
necessary because of China has aided and abetted North Korea 
for decades.
    I welcome the Trump administration's outreach to China on 
the issue of North Korea. But as these discussions continue, 
the United States should be clear that while we earnestly seek 
China's cooperation on North Korea, we do not seek such 
cooperation at the expense of our vital interests. We must not 
and will not bargain over our alliances with Japan and South 
Korea, nor over fundamental principles such as freedom of the 
seas.
    As its behavior towards South Korea indicates over the last 
several years, China has acted less and less like a responsible 
stakeholder of the rules-based order in the region and more 
like a bully. Its rapid military modernization, provocations in 
the East China Sea, and continued militarization activities in 
the South China Sea signal an increasingly assertive pattern of 
behavior.
    Despite United States efforts to rebalance to the Asia-
Pacific, United States policy has failed to adapt to the scale 
and velocity of China's challenge to the rules-based order. 
That failure has called into question the credibility of 
America's security commitments in the region.
    The new administration has an important opportunity to 
chart a different and better course. For example, I believe 
there is strong merit for an Asia-Pacific Stability Initiative, 
which is similar to the European Deterrence Initiative pursued 
over the last few years.
    This initiative would enhance Pacific Command's credible 
combat power through targeted funding to realign U.S. military 
force posture in the region, improve operationally relevant 
infrastructure, fund additional exercises, pre-position 
equipment and munitions, and build capacity with our allies and 
partners. These are important steps that should be taken as 
part of a new, comprehensive strategy in the Asia-Pacific that 
incorporates all elements of national power.
    I hope our witnesses will describe their ideas about what 
an APSI [Asia-Pacific Stability Initiative] should fund and how 
they would articulate an interagency strategy for the Asia-
Pacific.
    I thank all of the witnesses for being here today, and I 
look forward to your testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman, for calling this 
very important hearing. Thank you to all the witnesses for 
agreeing to testify this morning.
    This hearing could not come at a more critical time as the 
North Korea regime has engaged in an aggressive schedule of 
tests for its nuclear and missile programs.
    I look forward to hearing from our witnesses on whether 
they believe China can and will exert sufficient pressure on 
the regime to denuclearize the peninsula. If not, what are the 
alternatives? Is a military strike something we should 
consider, given the uncertainty regarding the possible scope 
and nature of retaliation from the regime?
    I would also like to hear whether there are feasible 
military options on the table and how we should coordinate 
those options with our allies in the region. We have also heard 
concern from our allies and partners in the region that the 
administration has not yet articulated a comprehensive Asia-
Pacific strategy.
    For example, what is administration's maritime strategy to 
deal with excessive unlawful maritime claims? How will it 
balance our military presence with economic engagement to 
counter the narrative that China is the economic partner of 
choice? Most important, how will it balance cooperation and 
competition with China, especially given the importance of 
China's cooperation on issues ranging from North Korea to 
terrorism?
    Mr. Chairman, again, thank you for holding this important 
hearing. I look forward to hearing the testimony of the 
witnesses on all of these issues and more. Thank you.
    Chairman McCain. Before I call on the witnesses, we have a 
housekeeping item. I would like to--what is that?
    All right, we just lost one, so we will wait.
    Dr. Cha, welcome.

  STATEMENT OF VICTOR D. CHA, Ph.D., SENIOR ADVISER AND KOREA 
     CHAIR, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Cha. Thank you, Chairman McCain, Ranking Member Reed, 
and distinguished members of the committee.
    There used to be a time when North Korea and their actions 
were considered isolated acts by a lonely dictator who was 
harmless and just looking for some attention with really bad 
hair. I do not think people think that way anymore.
    Between 1994 and 2008, North Korea did 16 ballistic missile 
tests and one nuclear test. Since January of 2009, they have 
done 71 missile tests, including 4 nuclear tests. The leader in 
North Korea has made no effort to have dialogue with any other 
country in the region, not just the United States, but that 
includes China, South Korea, Russia--absolutely no interest in 
talking.
    All of this translates to one of the most challenging 
strategic environments for the United States and its allies, 
and a very dark strategic cloud that is starting to dominate 
the skyline with regard to East Asia.
    Having said that, I think there is a silver lining to every 
dark cloud. In this case, I think there are four that could 
help to inform an Asia-Pacific Security Initiative, as the 
chairman mentioned.
    First, the North Korean threat provides opportunity for a 
closer coordination of policy between the next government in 
South Korea, which will be elected May 9th, and Washington. A 
new South Korean Government cannot afford ideological 
indulgences in a renewed engagement or sunshine policy.
    It would be unwise, for example, for a new South Korea 
President on May 10th, presumably in the aftermath of more 
North Korean provocations and possibly a sixth nuclear test, to 
declare that he or she is reopening the Kaesong Industrial 
complex. This would only serve to further marginalize South 
Korea's strategic position, as the new government would lose 
step with the United States, Japan, and even China.
    The United States is not averse to inter-Korean engagement. 
However, for it to be effective, such engagement must be used 
strategically and coordinated with an overall United States-ROK 
[Republic of Korea] strategy for negotiations and 
denuclearization.
    The second silver lining has to do with trilateral 
coordination. The United States should welcome an early meeting 
with the United States President and South Korea and Japan, 
presumably before President Trump's scheduled trip to the 
region in the fall. The goal of alliance coordination should be 
a collective security statement among the three allies, the 
United States, Japan, Korea, that an attack on one constitutes 
an attack against all.
    The third silver lining relates to China. Beijing is 
unlikely to let off on the economic pressure on South Korea 
over the THAAD defense system for I think at least another one 
or two financial quarters. This will hurt South Korean 
businesses and tourism even more, but it should also spark 
serious strategic thinking in the United States and South Korea 
about reducing the ROK's economic dependence on China.
    Given the energy revolution in the United States and the 
removal of export restrictions, the two allies should think 
seriously about new bilateral energy partnerships that could 
reduce South Korean energy dependence on China in the Middle 
East.
    Washington and Seoul's policy-planning offices can work 
together to map out a South Korean strategy for engaging India 
as well as ASEAN [Association of Southeast Asian Nations] 
countries. These new engagements should not be a temporary 
measure but should be a serious effort at creating new markets 
for U.S. allies, products, production chains, and investment.
    The Chinese have proven with their coercion over the THAAD 
issue that South Korea's future welfare cannot be left in 
Chinese hands.
    Finally, the United States should encourage the new 
government in South Korea to take a stronger stand in 
supporting public goods off the Korean Peninsula in neighboring 
waters. In particular, as part of a new engagement strategy 
with ASEAN, the United States, with the support of South Korea, 
could show stronger will to discourage further militarization 
of the South China Sea. This would win partners among ASEAN 
countries and be a distinctly positive platform for the United 
States and its allies in the region.
    Thank you very much.
    [The prepared statement of Dr. Cha follows:]

                Prepared Statement by Victor Cha, Ph.D.
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the committee, it is a distinct honor to appear before this committee 
to discuss policy and strategy in the Asia-Pacific.
                       more provocations to come
    The failed missile launch by North Korea on April 16 promises more 
provocations in the coming weeks targeted on South Korean elections. To 
study the relationship between North Korean provocations and the May 9 
presidential election, CSIS created a new database of events 
incorporating both presidential and national assembly elections from 
the Republic of Korea (ROK) over the last six decades. \1\ The event 
set was cross-tabulated with CSIS Beyond Parallel's original dataset on 
North Korean provocations. \2\ Based on this cross-comparison, the 
correlation between North Korean provocations and South Korean 
elections was calculated in terms of a ``provocation window.'' The 
provocation window is defined as the number of days or weeks between a 
North Korean provocation and an ROK election event (either before or 
after it occurred).
---------------------------------------------------------------------------
    \1\ ``ROK Elections and DPRK Provocations,'' CSIS Beyond Parallel 
Databases, April 20, 2017, http://beyondparallel.csis.org/database-rok-
elections-and-dprk-provocations/
    \2\ ``North Korean Provocations and US-ROK Military Exercises,'' 
CSIS Beyond Parallel Databases, April 3, 2017, http://
beyondparallel.csis.org/north-korean-provocations-us-rok-military-
exercises/
---------------------------------------------------------------------------
    This new study is one of the first to examine the relationship 
between ROK elections and North Korean provocations with these key 
findings \3\:
---------------------------------------------------------------------------
    \3\ Victor Cha, ``DPRK Provocations Possible Around South Korean 
Elections,'' CSIS Beyond Parallel, April 18, 2017, http://
beyondparallel.csis.org/rok-elections-and-dprk-provocations/
---------------------------------------------------------------------------
    First, the provocation window between South Korean elections and 
North Korean provocations has become more narrow over time. A previous 
Beyond Parallel study also found that North Korean kinetic 
provocations, including missile and nuclear tests, have clustered 
increasingly closer to United States elections, with the window under 
Kim Jong-un to be 24 days (about 3\1/2\ weeks). \4\
---------------------------------------------------------------------------
    \4\ Victor Cha, ``DPRK Provocations Likely Around U.S. Presidential 
Election,'' CSIS Beyond Parallel, October 7, 2016, http://
beyondparallel.csis.org/dprk-provocations-likely-around-u-s-
presidential-election/
---------------------------------------------------------------------------
    Second, under Kim Jong-un, the average window for a North Korean 
provocation bracketed around all ROK elections is 6.5 days (about 1 
week). The average for presidential elections is 15 days or about two 
weeks.
    Third, this represents a significant change from previous periods: 
Under the leadership of both Kim Il-sung and Kim Jong-il, the window 
was an average of about 10 and 11 weeks respectively.
    Fourth, there has been a transformation in the types of kinetic 
provocations that North Korea has carried out over the last 20 years. 
The provocations are now overwhelmingly comprised of missile and 
nuclear tests rather than other types of conventional kinetic military 
actions. \5\
---------------------------------------------------------------------------
    \5\ ``North Korea Missile Launches: 1984-Present,'' CSIS Missile 
Defense Project, April 20, 2017, https://missilethreat.csis.org/north-
korea-missile-launches-1984-present/
---------------------------------------------------------------------------
    Fifth, this pattern suggests a provocation as early as two weeks 
before the South Korean elections on May 9th. The start of the 
provocation window falls on Military Foundation Day (April 25), a 
holiday in North Korea, and 10 days after the 105th anniversary of Kim 
Il-sung's birthday on April 15th (KST).
    The implications for the United States are clear. The United States 
must coordinate policies immediately and intensively with the new South 
Korean Government that comes into office on May 10. Unlike past 
governments, this one will have no transition period to speak of. 
Moreover, if our study is correct, the North Korean provocations that 
will accompany this election will make it difficult for the new 
government to seek immediate engagement with the North (if this were 
its true inclinations). Instead, engagement must be carefully timed and 
coordinated with the overall policy situation if: 1) engagement is to 
be effective; and 2) if South Korea is to avoid marginalizing itself 
further after its six-month impeachment crisis.
                           a strategic shift?
    South Korea's next president will have to contend with the most 
challenging strategic and foreign policy environment in the nation's 
history.
    The most obvious challenge is the nuclear and missile threat posed 
by North Korea, which is likely only to get worse with a new 
administration in Seoul. Indeed, our CSIS research has compiled a 
correlational database of North Korean provocations and South Korean 
elections. We have found that under Kim Jong-un, the North carries out 
provocations within an average ``provocation window'' of seven days of 
South Korean elections (that is, plus or minus seven days around the 
South Korean election date). By comparison, under Kim Jong-il, the 
average provocation window was eleven weeks. So whoever is elected on 
May 9, it will probably be in the context of more North Korean 
belligerence.
    The next administration will face this North Korean threat, 
moreover, in the context of a relationship with the United States that 
has decayed over the previous six months. The Trump administration has 
sent a steady stream of high-level officials to South Korea, including 
Secretary of Defense James Mattis, Secretary of State Rex Tillerson, 
and most recently Vice President Mike Pence last week, in order to 
signal the continued strength of the United States-ROK alliance in a 
period of political turmoil in the South. However, the fact is that 
turmoil has hindered any forward progress in the alliance's ability to 
deter the North Korean threat because current United States 
interlocutors in Seoul will no longer be in position in a few more 
weeks. Then the Trump administration will need to become acquainted 
with a whole new team of people with whom they have not discussed 
strategy or policy regarding the current crisis.
    This stasis in United States-ROK relations is compounded by the 
downturn in ROK relations with Japan. The erection of a new statue in 
Busan led to the recalling of the Japanese ambassador in early January 
and claims in the Abe government that South Korea was violating the 
spirit of the just-inked comfort women pact.
    If the burgeoning North Korea threat, the stalled United States-ROK 
alliance, and the crippled ROK-Japan relationship was not enough, the 
next South Korean president will face all of these challenges at the 
same time that China is stepping on the nation's neck with 
unprecedented economic pressure over the deployment of THAAD (Terminal 
High Altitude Area Defense) in South Korea, and with no signs of 
letting up.
                          four silver linings
    All of this translates to the most challenging strategic 
environment for any South Korean president in history. Moreover, he or 
she will face this without a proper period of planning and transition, 
instead taking office the day after the election. So how does the 
United States-ROK alliance circumnavigate all of these concerns? There 
are four ``silver linings'' in this apparent dark strategic cloud.
    First, the North Korean threat provides opportunities for closer 
coordination of policy between the next (progressive) South Korean 
president and Washington. In short, a new government in Seoul cannot 
afford ideological indulgences in a renewed sunshine policy. It would 
be unwise, for example, for a new South Korean president on May 10--
presumably in the aftermath of more North Korean provocations and 
possibly a sixth nuclear test--to declare that he or she is reopening 
the Kaesong Industrial Complex and the Mount Kumgang tourism sites. 
This would only serve to further marginalize South Korea's strategic 
position as the new government would lose step with the United States, 
Japan, and even China. The United States is not averse to inter-Korean 
engagement. However, for it to be effective, such engagement must be 
used strategically and coordinated with an overall United States-ROK 
strategy for negotiations and denuclearization.
    The second silver lining relates to trilateral coordination. The 
United States should welcome an early meeting with the United States 
president, ideally before President Trump's scheduled trip to the 
region in the fall. Washington and Seoul might also consider a 
trilateral summit with the Japanese prime minister to shore up 
relations either in Washington, DC or a trilateral round of golf at the 
weekend White House, Mar-A-Lago. The goal of alliance consolidation 
should be a collective security statement among the three allies that 
an attack on one is an attack against all.
    The third silver lining relates to China. Beijing is unlikely to 
let off on the economic pressure on South Korea over THAAD for another 
one or two financial quarters. This will hurt South Korean businesses 
and tourism even more, but it should also spark serious strategic 
thinking in the United States and South Korea about reducing ROK's 
economic dependence on China. Given the energy revolution in the United 
States and the removal of export restrictions, the two allies should 
think seriously about new bilateral energy partnerships that reduce 
South Korean energy dependence on China and the Middle East. Washington 
and Seoul's policy planning offices can work together to map out a 
South Korea ``pivot'' strategy for engaging India, as well as ASEAN 
(Association of Southeast Asian Nations) countries. These new 
engagements should not be a temporary measure, but should be a serious 
effort at creating new markets for South Korean products, production 
chains, and investment. The Chinese have proven with their coercion 
over the THAAD issue that South Korea's future welfare cannot be left 
in Chinese hands.
    Finally, the United States can encourage a new South Korean 
Government to take a stronger stand in supporting public goods off the 
Korean peninsula in neighboring waters. In particular, as part of a new 
engagement ``pivot'' with ASEAN, Seoul could show stronger will to 
discourage further militarization of the South China Sea. This would 
win partners among ASEAN countries and be a distinctly different policy 
from the previous administration in South Korea.

    Chairman McCain. Thank you.
    Dr. Friedberg, before we go to you, we do have a quorum now 
present.
    I ask the committee consider a list of 5,550 pending 
military nominations.
    All these nominations have been before the committee the 
required length of time.
    Is there a motion in favor of reporting these 5,550 
military nominations to the Senate?
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    All in favor, say aye.
    The motion carries.
    [The list of nominations considered and approved by the 
committee follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
which are Proposed for the Committee's Consideration on April 25, 2017.
     1.  In the Navy there are 11 appointments to the grade of rear 
admiral (list begins with Richard A. Brown) (Reference No. 106)

     2.  In the Navy there are 2 appointments to the grade of rear 
admiral (lower half) (list begins with Kevin M. Jones) (Reference No. 
110)

     3.  In the Marine Corps Reserve there are 2 appointments to the 
grade of major general (list begins with David G. Bellon) (Reference 
No. 112)

     4.  In the Marine Corps there are 8 appointments to the grade of 
major general (list begins with Edward D. Banta) (Reference No. 113)

     5.  Col. Michael S. Martin, USMCR to be brigadier general 
(Reference No. 114)

     6.  In the Marine Corps there are 10 appointments to the grade of 
brigadier general (list begins with James H. Adams III) (Reference No. 
115)

     7.  MG Bryan P. Fenton, USA to be lieutenant general and Deputy 
Commander, US Pacific Command (Reference No. 120)

     8.  MG Darrell K. Williams, USA to be lieutenant general and 
Director, Defense Logistics Agency (Reference No. 121)

     9.  RADM David H. Lewis, USN to be vice admiral and Director, 
Defense Contract Management Agency (Reference No. 122)

    10.  RADM Mathias W. Winter, USN to be vice admiral and Director, 
Joint Strike Fighter Program (Reference No. 124)

    11.  RADM(lh) Steven L. Parode, USN to be rear admiral (Reference 
No. 125)

    12.  RADM(lh) John P. Polowczyk, USN to be rear admiral (Reference 
No. 126)

    13.  In the Navy there are 2 appointments to the grade of rear 
admiral (list begins with Jon A. Hill) (Reference No. 127)

    14.  In the Air Force there is 1 appointment to the grade of major 
(Raymond C. Jones III) (Reference No. 128)

    15.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (Christopher E. Austin) (Reference No. 129)

    16.  In the Air Force Reserve there are 4 appointments to the grade 
of colonel (list begins with Robert D. Houghteling) (Reference No. 130)

    17.  In the Air Force Reserve there are 9 appointments to the grade 
of colonel (list begins with Lisa Ann Banyasz) (Reference No. 131)

    18.  In the Air Force Reserve there are 5 appointments to the grade 
of colonel (list begins with Lori J. Betters) (Reference No. 132)

    19.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (James A. Crider) (Reference No. 133)

    20.  In the Air Force Reserve there are 15 appointments to the 
grade of colonel (list begins with Jose E. Barrera) (Reference No. 134)

    21.  In the Air Force Reserve there are 12 appointments to the 
grade of colonel (list begins with Kristin L. Ader) (Reference No. 135)

    22.  In the Air Force Reserve there are 4 appointments to the grade 
of colonel (list begins with Gregg Michael Caggianelli) (Reference No. 
136)

    23.  In the Air Force Reserve there are 136 appointments to the 
grade of colonel (list begins with Patrick W. Albrecht) (Reference No. 
137)

    24.  In the Air Force there is 1 appointment to the grade of major 
(Stephen N. Luker) (Reference No. 138)

    25.  In the Air Force there are 55 appointments to the grade of 
major (list begins with Tyler J. Banachowski) (Reference No. 139)

    26.  In the Air Force there are 244 appointments to the grade of 
major (list begins with Joni A. Abbott) (Reference No. 140)

    27.  In the Air Force there are 30 appointments to the grade of 
lieutenant colonel (list begins with Michael J. Alfaro) (Reference No. 
141)

    28.  In the Air Force there are 129 appointments to the grade of 
lieutenant colonel (list begins with Jessica L. Abbott) (Reference No. 
142)

    29.  In the Air Force there are 13 appointments to the grade of 
colonel (list begins with Corey R. Anderson) (Reference No. 143)

    30.  In the Air Force there are 63 appointments to the grade of 
colonel (list begins with Edward R. Anderson III) (Reference No. 144)

    31.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Scott C. Apling) (Reference No. 145)

    32.  In the Army there is 1 appointment to the grade of colonel 
(Patricia L. George) (Reference No. 146)

    33.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Adam J. Points) (Reference No. 148)

    34.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Larry G. Workman) (Reference No. 149)

    35.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Robert J. Dunlap) (Reference No. 150)

    36.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Wayne O. Dehaney) (Reference No. 151)

    37.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Johnathan T. Parchem) (Reference No. 152)

    38.  In the Army there are 883 appointments to the grade of major 
(list begins with Jacob P. Absalon) (Reference No. 153)

    39.  In the Army there are 545 appointments to the grade of major 
(list begins with Mark P. Adams) (Reference No. 154)

    40.  In the Army there are 483 appointments to the grade of major 
(list begins with Amir A. Abuakeel) (Reference No. 155)

    41.  In the Army there are 85 appointments to the grade of major 
(list begins with Vanessa R. Asmus) (Reference No. 156)

    42.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (list begins with Michael C. Flynn) (Reference No. 157)

    43.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Steve L. Martinelli) (Reference No. 158)

    44.  In the Army there are 127 appointments to the grade of major 
(list begins with Kenneth Ahorrio) (Reference No. 161)

    45.  In the Army there are 210 appointments to the grade of major 
(list begins with Tolulope O. Adeyemi) (Reference No. 162)

    46.  In the Army there are 77 appointments to the grade of major 
(list begins with Paul J.E. Auchincloss) (Reference No. 163)

    47.  In the Army there are 26 appointments to the grade of major 
(list begins with Rachel A. Acciacca) (Reference No. 164)

    48.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Christopher J. Brown) (Reference No. 165)

    49.  In the Army there are 2 appointments to the grade of major 
(list begins with Daniel B. King) (Reference No. 166)

    50.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Aaron B. Mayer) (Reference No. 167)

    51.  In the Navy there is 1 appointment to the grade of commander 
(John J. Kitt) (Reference No. 169)

    52.  In the Air Force there are 438 appointments to the grade of 
colonel (list begins with Patrick M. Albritton) (Reference No. 174)

    53.  In the Army there is 1 appointment to the grade of major (John 
J. Bottorff) (Reference No. 175)

    54.  In the Army there is 1 appointment to the grade of major 
(Eugene L. Thomas III) (Reference No. 176)

    55.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (John T. Bleigh) (Reference No. 177)

    56.  In the Army there is 1 appointment to the grade of colonel 
(Jeffrey D. Buck) (Reference No. 178)

    57.  In the Army there is 1 appointment to the grade of major 
(Michael W. Preczewski) (Reference No. 179)

    58.  In the Army there are 2 appointments to the grade of 
lieutenant colonel (list begins with Candy Boparai) (Reference No. 180)

    59.  In the Army there are 2 appointments to the grade of major 
(list begins with Charles J. Haselby) (Reference No. 181)

    60.  In the Army there is 1 appointment to the grade of major 
(Alexander M. Willard) (Reference No. 182)

    61.  In the Army there is 1 appointment to the grade of major 
(Christopher K. Berthold) (Reference No. 183)

    62.  In the Army there is 1 appointment to the grade of major 
(Preston H. Leonard) (Reference No. 184)

    63.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Nicole E. Ussery) (Reference No. 185)

    64.  In the Army there is 1 appointment to the grade of colonel 
(Michael D. Baker) (Reference No. 186)

    65.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Bridget V. Kmetz) (Reference No. 187)

    66.  In the Army there are 2 appointments to the grade of major 
(list begins with Vedner Bellot) (Reference No. 188)

    67.  In the Army there are 2 appointments to the grade of colonel 
(list begins with Angela L. Funaro) (Reference No. 189)

    68.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Brian R. Harki) (Reference No. 190)

    69.  In the Army Reserve there are 8 appointments to the grade of 
colonel (list begins with Jonathan L. Bouriaque) (Reference No. 191)

    70.  In the Army Reserve there are 6 appointments to the grade of 
colonel (list begins with Timothy L. Baer) (Reference No. 192)

    71.  In the Army there is 1 appointment to the grade of colonel 
(James V. Crawford) (Reference No. 193)

    72.  In the Army there is 1 appointment to the grade of major 
(Mohammed S. Aziz) (Reference No. 194)

    73.  In the Army there is 1 appointment to the grade of major (Seth 
C. Lydem) (Reference No. 195)

    74.  In the Army there is 1 appointment to the grade of colonel 
(Christopher C. Ostby) (Reference No. 196)

    75.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Calvin E. Fish) (Reference No. 197)

    76.  In the Army there is 1 appointment to the grade of major 
(Aaron E. Lane) (Reference No. 198)

    77.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Damien Boffardi) (Reference No. 199)

    78.  In the Army there is 1 appointment to the grade of colonel 
(Randy D. Dorsey) (Reference No. 200)

    79.  In the Army there are 2 appointments to the grade of major 
(list begins with Benjamin R. Smith) (Reference No. 201)

    80.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Mark W. Hopkins) (Reference No. 202)

    81.  In the Army there are 7 appointments to the grade of colonel 
(list begins with Thomas R. Matelski) (Reference No. 203)

    82.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Mark B. Howell) (Reference No. 204)

    83.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Julio ColonGonzalez) (Reference No. 205)

    84.  In the Army there are 3 appointments to the grade of 
lieutenant colonel (list begins with Jason N. Bullock) (Reference No. 
206)

    85.  In the Navy there are 51 appointments to the grade of 
lieutenant commander (list begins with Jorge R. Balares, Jr.) 
(Reference No. 208)

    86.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Mary E. Linnell) (Reference No. 209)

    87.  In the Navy there are 15 appointments to the grade of 
lieutenant commander (list begins with Spencer M. Burk) (Reference No. 
210)

    88.  In the Navy there are 5 appointments to the grade of 
lieutenant commander (list begins with Kirk J. Hippensteel) (Reference 
No. 211)

    89.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Evita M. Salles) (Reference No. 213)
    90.  In the Navy Reserve there is 1 appointment to the grade of 
captain (John P.H. Rue) (Reference No. 215)

    91.  In the Marine Corps there are 17 appointments to the grade of 
major (list begins with Daniel E. Alger, Jr.) (Reference No. 216)

    92.  In the Marine Corps there are 712 appointments to the grade of 
major (list begins with Anis A. Abuzeid) (Reference No. 217)

    93.  In the Marine Corps there are 2 appointments to the grade of 
lieutenant colonel (list begins with Daniel W. Annunziata) (Reference 
No. 218)

    94.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (James R. Reusse) (Reference No. 219)

    95.  In the Marine Corps there are 320 appointments to the grade of 
lieutenant colonel (list begins with Jose M. Acevedo) (Reference No. 
220)

    96.  In the Marine Corps there are 4 appointments to the grade of 
colonel (list begins with Henry Centeno, Jr.) (Reference No. 221)

    97.  In the Marine Corps there is 1 appointment to the grade of 
major (Richard J. O'Brien) (Reference No. 222)

    98.  In the Marine Corps there are 7 appointments to the grade of 
major (list begins with Michael J. Allen) (Reference No. 223)

    99.  In the Marine Corps there are 5 appointments to the grade of 
major (list begins with Jeremy T. Flannery) (Reference No. 224)

    100.  In the Marine Corps there is 1 appointment to the grade of 
major (Joseph W. Hockett) (Reference No. 225)

    101.  In the Marine Corps there are 3 appointments to the grade of 
major (list begins with Francisco D. Amaya) (Reference No. 226)

    102.  In the Marine Corps there are 8 appointments to the grade of 
major (list begins with Michael M. Dodd) (Reference No. 227)

    103.  In the Marine Corps there is 1 appointment to the grade of 
major (David S. Gersen) (Reference No. 228)

    104.  In the Marine Corps there is 1 appointment to the grade of 
major (John W. Glinsky) (Reference No. 229)

    105.  In the Marine Corps there is 1 appointment to the grade of 
major (Keith A. Stevenson) (Reference No. 230)

    106.  In the Marine Corps there are 5 appointments to the grade of 
major (list begins with Quentin R. Carritt) (Reference No. 231)

    107.  In the Marine Corps there are 6 appointments to the grade of 
lieutenant colonel (list begins with Anthony P. Green) (Reference No. 
232)

    108.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Stuart M. Barker) (Reference No. 234)

    109.  In the Marine Corps there are 4 appointments to the grade of 
lieutenant colonel (list begins with Richard Canedo) (Reference No. 
236)

    110.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (John E. Simpson III) (Reference No. 237)

    111.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Sean T. Hays) (Reference No. 238)

    112.  In the Marine Corps there are 2 appointments to the grade of 
lieutenant colonel (list begins with Luke A. Crouson) (Reference No. 
239)

    113.  In the Marine Corps there are 2 appointments to the grade of 
lieutenant colonel (list begins with Arlington A. Finch, Jr.) 
(Reference No. 240)

    114.  In the Marine Corps there are 95 appointments to the grade of 
colonel (list begins with Stephen J. Acosta) (Reference No. 241)

    115.  In the Marine Corps there are 7 appointments to the grade of 
lieutenant colonel (list begins with Joshua P. Bahr) (Reference No. 
242)

    116.  In the Marine Corps there are 3 appointments to the grade of 
major (list begins with John T. Brown, Jr.) (Reference No. 243)

    117.  In the Marine Corps there are 4 appointments to the grade of 
major (list begins with Eli J. Bressler) (Reference No. 244)

    118.  In the Marine Corps there are 6 appointments to the grade of 
major (list begins with Chadwick W. Ardis) (Reference No. 245)

    119.  In the Marine Corps there is 1 appointment to the grade of 
major (Duane A. Gumbs) (Reference No. 246)

    120.  In the Air Force there are 5 appointments to the grade of 
major (list begins with Neil R. Copeland) (Reference No. 250)

    121.  In the Air Force there is 1 appointment to the grade of 
colonel (Robert P. McCoy) (Reference No. 251)

    122.  In the Air Force there is 1 appointment to the grade of 
colonel (Allen R. Henderson, Jr.) (Reference No. 252)

    123.  In the Air Force there is 1 appointment to the grade of 
lieutenant colonel (George L. Burnett) (Reference No. 253)

    124.  In the Air Force there is 1 appointment to the grade of 
lieutenant colonel (Dion R. Dixon) (Reference No. 254)

    125.  In the Air Force there is 1 appointment to the grade of major 
(Rebecca A. Lipe) (Reference No. 255)

    126.  In the Air Force there is 1 appointment to the grade of major 
(Michael N. Tesfay) (Reference No. 256)

    127.  In the Air Force there is 1 appointment to the grade of major 
(Megan G. K. Steele) (Reference No. 257)

    128.  In the Air Force there are 141 appointments to the grade of 
major (list begins with Ryan W. Abner) (Reference No. 258)

    129.  In the Air Force there are 76 appointments to the grade of 
major (list begins with Allen Seth Abrams) (Reference No. 259)

    130.  In the Air Force there are 18 appointments to the grade of 
lieutenant colonel (list begins with Chad A. Bellamy) (Reference No. 
260)

    131.  In the Air Force there are 51 appointments to the grade of 
lieutenant colonel (list begins with Aimee L. Alviar) (Reference No. 
261)

    132.  In the Air Force there are 40 appointments to the grade of 
lieutenant colonel (list begins with Willie J. Babor) (Reference No. 
262)

    133.  In the Air Force there are 6 appointments to the grade of 
colonel (list begins with Hector L. Coloncolon) (Reference No. 263)

    134.  In the Air Force there are 33 appointments to the grade of 
colonel (list begins with Beth M. Baykan) (Reference No. 264)

    135.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (Martin J. Hamilton) (Reference No. 265)

    136.  In the Air Force there are 14 appointments to the grade of 
colonel (list begins with Michael A. Blackburn) (Reference No. 266)

    137.  In the Army there is 1 appointment to the grade of colonel 
(Jennifer A. McAfee) (Reference No. 267)

    138.  In the Army there is 1 appointment to the grade of major 
(Nina R. Copeland) (Reference No. 268)

    139.  In the Army there is 1 appointment to the grade of major 
(Calvin E. Townsend) (Reference No. 269)

    140.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Scott A. McDonald) (Reference No. 270)

    141.  In the Army there is 1 appointment to the grade of major 
(Thomas P. Lukins) (Reference No. 271)

    142.  In the Army there is 1 appointment to the grade of colonel 
(Scott M. McFarland) (Reference No. 272)

    143.  In the Army there is 1 appointment to the grade of colonel 
(Jeffrey A. Miller) (Reference No. 273)

    144.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Joseph M. Kilonzo) (Reference No. 274)

    145.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Brandi A. Schuyler) (Reference No. 275)

    146.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (David J. Kaczmarek) (Reference No. 276)

    147.  In the Army there is 1 appointment to the grade of major 
(Jonathan A. Johnson) (Reference No. 277)

    148.  In the Army Reserve there are 22 appointments to the grade of 
colonel (list begins with James A. Benson) (Reference No. 278)

    149.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Crystal J. Smith) (Reference No. 279)

    150.  In the Army there is 1 appointment to the grade of major 
(Dana B. Love) (Reference No. 280)

    151.  In the Army there is 1 appointment to the grade of colonel 
(Douglas A. McKewan) (Reference No. 281)

    152.  In the Army Reserve there is 1 appointment to the grade of 
colonel (David M. Wallace) (Reference No. 282)

    153.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Lisa M. Patton) (Reference No. 283)

    154.  In the Navy there are 30 appointments to the grade of 
lieutenant commander (Michael W. Ameche) (Reference No. 284)

    155.  In the Navy there are 3 appointments to the grade of 
lieutenant commander (list begins with Rachel E. Carter) (Reference No. 
285)

    156.  In the Navy there are 7 appointments to the grade of 
lieutenant commander (list begins with Mauer Biscotti III) (Reference 
No. 286)

    157.  In the Navy there is 1 appointment to the grade of commander 
(Donald V. Wilson) (Reference No. 287)

    158.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Michael A. Winslow) (Reference No. 288)

    159.  In the Navy there are 5 appointments to the grade of 
commander and below (list begins with Horacio G. Tan) (Reference No. 
289)

    160.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Natalie C.O. Gilliver) (Reference No. 290)

    161.  In the Navy there is 1 appointment to the grade of commander 
(John F. Sharpe) (Reference No. 291)

    162.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Reann S. Mommsen) (Reference No. 292)

    163.  In the Army there is 1 appointment to the grade of colonel 
(Basil J. Catanzaro) (Reference No. 293)

_______________________________________________________________________
                                                                    
TOTAL: 5,550

    Dr. Friedberg, welcome.

 STATEMENT OF AARON L. FRIEDBERG, Ph.D., PROFESSOR OF POLITICS 
        AND INTERNATIONAL AFFAIRS, PRINCETON UNIVERSITY

    Dr. Friedberg. Senator McCain, Senator Reed, thank you very 
much, members of the committee. I appreciate very much the 
opportunity to express my views on these important subjects.
    In the time available, I would like to try to make three 
main points.
    First, as Senator McCain I think has already indicated, I 
do not think the United States currently has a coherent, 
integrated national strategy for the Asia-Pacific region, and, 
in particular, it lacks a strategy for dealing with an 
increasingly powerful and assertive China. What we have instead 
are the remnants of a strategy first put in place over 2 
decades ago, some aspirational goals and a set of policies and 
programs intended to achieve them that are now in varying 
states of disrepair, and which are, in any event, largely 
disconnected from one another.
    Second, China does have such a strategy, not only for the 
Asia-Pacific but for the continental domain along its land 
frontiers. The goal of Beijing's strategy, as has become 
increasingly clear in the last few years, is to create a 
regional Eurasian order that is very different from the one we 
have been trying to build since the end of the Cold War.
    Third, just because Beijing has a strategy does not mean it 
will succeed. China has many weaknesses and liabilities. We and 
our allies have many strengths. But I do think we have reached 
the point where it is essential that we reexamine our goals, 
review our strategy, and adjust our policies accordingly.
    The start of a new administration would naturally be the 
time to attempt such a review. It simply becomes more difficult 
as time goes on and more issues accumulate.
    Let me try to expand on each of those points.
    When the Cold War ended, the United States set out to 
expand the geographic scope of the Western liberal economic and 
institutional order by integrating the pieces of the former 
Soviet Union and the former Soviet empire, and by accelerating 
the integration of China, a process that had begun a few years 
before. As regards to China, the United States pursued a two-
pronged strategy, on the one hand seeking to engage China 
across all domains, economic in particular, but diplomatic and 
others, and at the same time, working with our allies and 
partners in maintaining our own forces in the region to 
preserve a balance of power that was favorable to our interests 
and to the security of our allies.
    The goals of that policy were to preserve stability, to 
deter the possibility of aggression while waiting for 
engagement to work its magic. The United States hoped, in 
effect, to tame and ultimately to transform China, to encourage 
its leaders to see their interests as lying in the preservation 
of that order and to set in motion processes that would lead, 
eventually, to the economic and political liberalization of 
that country.
    As in European, so also in Asia, our ultimate aim was to 
build a region whole and free, an open, liberal region in an 
open and liberal world.
    Since the turn of the century, it has become increasingly 
apparent that this approach has not worked, at least not yet. 
Engagement has not achieved its intended results. China is 
obviously far stronger, far richer, but it is more repressive 
domestically than at any time since the Cultural Revolution. It 
continues to rely heavily on mercantilist economic policies and 
impose costs on other countries, including ours. Its external 
behavior has become increasingly assertive, even aggressive, 
most notably, but not entirely, in the maritime domain.
    Meanwhile, engagement not working, balancing has become 
more difficult for us and for our allies because of the growth 
of China's military capabilities.
    So, second, what accounts for this recent shift in Chinese 
behavior? The short answer to that question is that Beijing's 
increased assertiveness is driven by a mix of optimism and even 
arrogance, on the one hand, and also deep insecurity.
    For roughly the first 15 years or so after the end of the 
Cold War, China's rulers followed the wisdom of Deng Xiaoping, 
who advised in 1991 that China should hide its capabilities and 
bide its time, avoid confrontation, build up all the elements 
of its national power, and advance cautiously toward, 
eventually, achieving a position reestablishing China as a 
preponderant power in the region.
    Things began to change in 2008 with the onset of the 
financial crisis, and these changes have accelerated and become 
institutionalized since 2013 with the accession of Xi Jinping 
to top positions in the party and the state.
    Basically, the financial crisis caused Chinese strategists 
to conclude that the United States was declining more rapidly 
than had been expected and that China was, therefore, able to 
rise more quickly than had been hoped. It was time, then, for 
China to step up to become clearer in defining its core 
interests and more assertive in pursuing them.
    At the same time, however, the crisis also deepened the 
Chinese leadership's underlying concerns about their prospects 
for sustaining economic growth and preserving social stability.
    So China is behaving more assertively both because its 
leaders want to seize the opportunities presented to them by 
what they see as a more favorable external situation and 
because they feel the need to bolster their legitimacy and to 
rally domestic support by courting controlled confrontations 
with others whom they can present as hostile foreign forces, 
including Japan and the United States.
    The Chinese actions are not limited to pursuing its claims 
and trying to extend its zone of effective control in the 
maritime domain. Along its land frontiers, Beijing has also 
unveiled a hugely ambitious set of infrastructure development 
plans, the so-called One Belt, One Road initiative, which aims 
to transform the economic and strategic geography of much of 
Eurasia.
    China's leaders have begun to articulate their vision for a 
new Eurasian order, a system of infrastructure networks, 
regional free trade areas, new rules written in Beijing, and 
mechanisms for political consultation, all with China at the 
center and the United States pushed to the periphery, if not 
out of the region altogether. In this vision, United States 
alliances would either be dissolved or drained of their 
significance, maritime democracies would be divided from one 
another and relatively weak, and China, meanwhile, would be 
surrounded on the continent by friendly and subservient 
authoritarian regimes.
    So if in the 20th century, the United States tried to make 
the world safe for democracy, in the 21st, China is trying to 
make the world safe for authoritarianism, or at least it is 
trying to make Asia safe for continued Communist Party rule of 
China.
    They are using and trying to coordinate all the instruments 
of policy to achieve these ends--military domain, building up 
of conventional and so-called anti-access/area denial 
capabilities. They are modernizing their nuclear forces in 
order to deter possible U.S. intervention and to raise 
questions about the continued viability of our security 
guarantees, and also developing other instruments--lawfare, 
little blue men maritime militia, island construction--to 
advance toward their goals, create facts without provoking 
confrontation.
    Economically, they have been using the growing 
gravitational pull of their economy to draw others toward them, 
and also, they have been increasingly open in using economic 
threats and punishments to try to shape the behavior of others 
in the region, including United States allies, as Dr. Cha 
mentioned, Korea, and also the Philippines.
    China has been engaging in what Chinese strategists refer 
to as political warfare, attempts to shape the perceptions of 
both leaders and elites and publics by conveying the message 
that China's growing wealth and power present an opportunity 
rather than a threat to its neighbors, while raising questions 
about the continued reliability and leadership capacity of the 
United States.
    I think it is important to note also that China is waging 
political warfare against us, holding out the prospect of 
cooperation on trade and on North Korea, which I think is now 
going to be again a part of that process, even as they work to 
undermine and weaken our position in the long run.
    Finally, and very briefly, how should the United States 
respond? As I stated at the outset, I think the time has come 
for a fundamental reexamination of our strategy toward China 
and toward the Asia-Pacific and, indeed, the entire Eurasian 
domain more broadly. A serious effort along these lines would 
look at all the various instruments of power, the various 
aspects of our policy, which I think now are largely fragmented 
and dealt with separately, and consider the ways in which they 
might be better integrated. It would also weigh the possible 
costs and benefits and risks of alternative strategies.
    A useful model here would be the so-called Solarium 
Project, a review of possible approaches for dealing with the 
Soviet Union that was undertaken in 1953 during the early 
months of the Eisenhower administration. To my knowledge, in 
the last 25 years, there has been no such exercise regarding 
our policies towards Asia and towards China. So we are 
effectively running on the fumes of a strategy that was put 
into place a quarter century ago.
    Obviously, Congress cannot do such an assessment itself, 
but it might wish to concern mandating such a review as it did 
in requiring a general statement of National Security Strategy 
in 1986 and the Quadrennial Defense Review in 1997.
    I am afraid my clock is not working, so I am sure that I 
have already gone over time. I cannot claim to have conducted 
such an exercise myself, but I would like to close with just a 
few thoughts about some of the issues that it might address and 
perhaps some of the conclusions toward it which might lead.
    The first and most basic is, what is it that we are trying 
to achieve? If an Asia whole and free is out of reach, at least 
for now, and if a region reshaped according to Beijing's vision 
would be threatening to our interests and to our values, as I 
think it would be, how should we define our strategic goals?
    Part of the answer here I think is likely to be that we 
will need to rededicate ourselves to defending those parts of 
the Asian regional system that remain open and liberal, 
including our allies, the rules with which they abide, and the 
commons that connect them.
    It is sometimes said that in order to accommodate China's 
rising power and avoid conflict, we will need to compromise. 
That is certainly true. But there are some issues where it will 
not be possible to split the difference. We need to be clear 
about what those are.
    In the economic domain, if we do not want others to be 
drawn increasingly into a Chinese co-prosperity sphere, we need 
to provide them with the greatest possible opportunity to 
remain engaged in mutually beneficial trade and investment with 
us and with one another.
    Whatever its economic merits, TPP [Trans-Pacific 
Partnership] had significant strategic benefits in this regard. 
It is not clear, at this point, what, if anything, will take 
its place.
    In regard to military strategy, for good reason, a great 
deal of energy has been devoted recently to figuring out how to 
respond to these Chinese initiatives in the so-called gray 
zone. As important as this problem is, it seems to me that it 
is subordinate to the larger question of how we and our allies 
can counter China's evolving anti-access/area denial strategy.
    We are in kind of an odd position now of having raised this 
issue in a very visible way back in 2011, with the creation of 
the Air Sea Battle Office, and then seeming to back away from 
it. While there is obviously a limit to what we can and should 
say in public, we are at a point I think where we need to be 
able to explain to our allies, our possible adversaries, and 
ourselves how would we fight and win a war in Asia, should that 
ever become necessary.
    Finally, there is this delicate issue of political warfare. 
As Senator Reed mentioned, what is our counter to the narrative 
that the Chinese are pushing across much of Asia in which we 
are portrayed as internally divided, as unable to solve our 
domestic problems, as inward-turning, unreliable, and 
potentially dangerous, while China presents itself as the wave 
of the future--economically dynamic, efficient, unthreatening, 
nonjudgmental, loaded with cash, and eager to do business.
    In this regard, it seems to me that it would be a serious 
mistake, strategic as well as moral, to drop the subjects of 
human rights and universal values from our discussions with and 
about China. Our commitment to these values and our 
demonstrated willingness to defend them are still among our 
greatest assets. Being seen to abandon them in the face of 
China's growing wealth and power will embolden Beijing and 
other authoritarian regimes, and discourage our allies and 
demoralize those people in China and around the world who often 
at great personal risk continue to advocate for freedom.
    Thank you very much.
    [The prepared statement of Dr. Friedberg follows:]

                Prepared Statement by Aaron L. Friedberg
    Chairman McCain, Senator Reed, members of the committee: thank you 
very much for inviting me to testify and for giving me the opportunity 
to share my views on issues of great importance to our country.
    In the time available I would like to make three main points:
    First: the United States does not now have a coherent, integrated 
national strategy for the Asia-Pacific region and, in particular, it 
lacks a strategy for dealing with an increasingly powerful and 
assertive China. What we have instead are the remnants of a strategy 
first put into place over two decades ago; some aspirational goals and 
a set of policies and programs intended to achieve them that are now in 
varying states of disrepair and which are, in any event, largely 
disconnected from one another.
    Second: China, for its part, does have a strategy, not only for the 
Asia-Pacific but for all of eastern Eurasia, including the continental 
domain along its land frontiers. That strategy, in turn, is part of its 
larger approach to dealing with the United States, which China's 
leaders continue to regard as the greatest threat to their security, 
and even survival, and the most important obstacle to their ambitions.
    Third: just because Beijing has a strategy does not mean that it 
will necessarily succeed in achieving its objectives. China has many 
vulnerabilities and liabilities and the United States and its allies 
have considerable strengths. But these should not be a cause for 
complacency. We need to reconsider our goals, review our strategy, and 
adjust our policies accordingly. The start of a new administration 
provides a window in which to undertake such a review, but it will not 
remain open indefinitely.
1. U.S. strategy
    Regarding our ``legacy strategy'':

    At the end of the Cold War the United States set out to expand the 
scope of the Western liberal economic and institutional order by 
integrating the constituent parts of the former Soviet Union and the 
former Soviet empire, and by accelerating the integration of China, a 
process that had actually begun with the Nixon and Kissinger 
``opening'' and the completion of the formal process of recognition 
during the 1970s.
    After a brief period of hesitation following the Tiananmen Square 
Massacre of 1989, the United States pressed ahead with efforts to 
broaden and deepen engagement with China across all fronts: diplomatic, 
cultural, scientific and above all economic. The goals of this policy 
of engagement were essentially to ``tame'' and ultimately to transform 
China: to encourage its leaders to see their interests as lying in the 
maintenance and strengthening of the existing international order 
(which happened, not coincidentally, to be built and led by the United 
States) and to encourage processes within China that would lead to the 
liberalization of its political and economic systems and its eventual 
transformation into something resembling a liberal democracy. As in 
Europe, so also in Asia, the ultimate aim of United States policy was 
to build a region ``whole and free:'' filled with democracies, tied 
together by trade, investment, and regional institutions, and 
integrated into a global system built along similar lines: an open, 
liberal region in an open, liberal world.
    In addition to engaging China, from the mid-1990s onwards 
successive Republican and Democratic administrations also worked to 
maintain a favorable balance of power in the Asia-Pacific region. 
Towards this end the United States maintained and strengthened its own 
forward-based forces, bolstered its traditional alliances with Japan, 
South Korea and Australia, among others, and it also built new, quasi-
alliance relationships with nations like Singapore and India to whom it 
did not extend security guarantees but who shared with it a concern 
about the implications for their security of China's growing wealth and 
power.
    Since the turn of the century it has become increasingly apparent 
that this two-part strategy of combining engagement with balancing has 
not worked, at least not yet. China has obviously become far richer and 
stronger, but in recent years its political system has become more, 
rather than less repressive (by some accounts more repressive than at 
any time since the Cultural Revolution). Meanwhile, instead of evolving 
towards a truly market-based economy, China continues to pursue, and in 
certain respects has expanded an array of state-directed, mercantilist 
policies that bend and sometimes break the rules of the international 
trading system and exploit the openness of the Western economies. 
Finally, China's external behavior has become more assertive, and even 
aggressive, especially in the maritime domain, where it is using its 
growing air and naval capabilities to try to assert its territorial 
claims against its neighbors. Along its land borders China has also 
unveiled a hugely ambitious set of infrastructure development plans, 
the so-called One Belt One Road initiative, which aims to transform the 
economic and strategic geography of much of Eurasia.
    Instead of taking its place happily in the region, and world, that 
American policymakers envisioned, China is now trying to build a new 
Eurasian order that better serves its interests and better reflects the 
values of its present, one party authoritarian regime.
    What accounts for the recent shift in Chinese behavior?
2. China's strategy
    The short answer to this question is that Beijing's increased 
assertiveness is driven by a mix of ambition, even arrogance, and deep 
insecurity.
    For roughly the first 15 years after the end of the Cold War (so, 
until the early 2000s) China's rulers followed the wisdom of Deng 
Xiaoping, who in 1991 advised that the nation should ``hide its 
capabilities and bide its time.'' China generally sought to avoid 
confrontation, especially with other major powers, and it embraced the 
opportunity to enter more deeply into the global economy, most notably 
by joining the WTO in 2001.
    Even as China's leaders ``opened the window,'' as Deng put it, they 
took care to deal with any ``flies'' that might enter, in the form of 
dangerous Western ideas about human rights, the virtues of democracy, 
and so on. They did this by refining the techniques of information 
control and targeted repression, but also by promulgating a new, 
nationalist ideology that emphasized the sufferings and indignities 
inflicted on the Chinese people by hostile foreign powers and the 
Communist Party's vital role in defending against them. The aims of 
Chinese strategy were to preserve the CCP's exclusive grip on domestic 
political power, to build up all elements of the nation's 
``comprehensive national power,'' to expand its influence and to move 
it towards the day when it could eventually resume its rightful place 
as the preponderant power in Eastern Eurasia.
    Things began to change in 2008, with the onset of the global 
financial crisis, and those changes accelerated, and became more firmly 
institutionalized, in 2013 with the accession of Xi Jinping to the top 
positions in the party and the state.
    The financial crisis caused Chinese strategists to revise their 
assessment of the relative trajectories of China and the United States. 
Basically, they concluded that the United States was declining more 
rapidly than they had expected, while China was rising more quickly 
than they had hoped. It was time for China to step up, to become 
clearer in defining its ``core interests'' and more assertive in 
pursuing them. At the same time, the financial crisis and its aftermath 
also deepened the Chinese leadership's concerns about the continued 
adequacy of their own investment and export-driven economic growth 
model and thus about their prospects for sustaining rapid material 
progress and preserving social stability.
    China is behaving more assertively both because its leaders want to 
seize the opportunities presented to them by what they see as a more 
favorable external situation and because they feel the need to bolster 
their own legitimacy and to rally domestic support by courting 
controlled confrontations in which they can present themselves as 
standing up to ``hostile foreign forces.''
    The fundamentals of Chinese strategy have not changed, but under 
Xi's leadership there has been a clarification of ends and an 
intensification of means. Xi and his colleagues have begun to 
articulate their vision for a new Eurasian order--a system of 
infrastructure networks, free trade areas, new ``rules'' written in 
Beijing, and mechanisms for political consultation--all with China at 
the center and the United States pushed to the periphery, if not out of 
the region all together. In this new order America's alliances would 
either be dissolved or drained of their substance. Asia's remaining 
maritime democracies would be isolated from one another and, to varying 
degrees, dependent for their continued prosperity and security on 
China. The authoritarian regimes around its land periphery and across 
Eurasia would be stable, reasonably prosperous, and reliably friendly.
    If America's goal in the 20th century was to make the world safe 
for democracy, Beijing's goal in the 21st is to make eastern Eurasia 
safe for continued CCP rule. Towards this end it is attempting to 
coordinate and apply all the instruments of national power (``combining 
hard and soft,'' as Chinese strategists put it):

    <bullet>  The modernization and expansion of China's nuclear 
forces, and the continuing development of its so-called ``anti-access/
area denial'' capabilities are meant to raise the potential costs to 
the United States of projecting power into the Western Pacific, and, in 
the process, to raise questions about its ability to uphold its 
alliances and defend its interests. (Because North Korean nuclear-armed 
ICBMs could have similar effects their development may not be entirely 
unwelcome from Beijing's perspective.)
    <bullet>  As it seeks to strengthen its ability to deter United 
States intervention, Beijing is developing a variety of tools and 
techniques (including the use of ``lawfare,'' island construction and 
its Maritime Marine Forces) in order to assert its territorial claims 
without engaging in major armed conflict. These ``salami-slicing'' 
tactics too are meant to raise questions about American capabilities, 
endurance and resolve.
    <bullet>  On the ``soft'' side of the ledger, China is using the 
growing mass and the sheer gravitational pull of its economy to draw 
others more closely into its orbit. In addition, albeit with mixed 
results to date, it has become increasingly open in its use of economic 
threats and inducements to try to modify the behavior of other regional 
players, including United States allies like the Philippines and South 
Korea.
    <bullet>  Beijing has also become more sophisticated and more 
ambitious in its use of ``political warfare;'' employing a variety of 
techniques to shape the perceptions of both leaders and elites by 
conveying the message that China's growing wealth and power present an 
opportunity rather than a threat to its neighbors, while raising 
questions about the continued reliability and leadership capacity of 
the United States. Of course, Beijing is also waging ``political 
warfare'' against the United States; holding out the prospect of more 
favorable economic relations, or closer cooperation in dealing with 
North Korea, even as it continues to work at weakening the foundations 
of the American position in East Asia.
3. The need for a reassessment
    How should the United States respond to these initiatives?

    As stated at the outset, I think the time has come for a 
fundamental reexamination of our strategy towards China, and towards 
the Asia-Pacific (and the entire eastern Eurasian domain), more 
broadly. A serious effort along these lines would look at all of the 
relevant instruments or areas of policy--economic, military, 
diplomatic, and so on--and would consider the ways in which they might 
be better integrated with one another. It would also weigh the possible 
costs and benefits of alternative strategies. A useful model here would 
be the so-called Solarium Project, a review of possible approaches for 
dealing with the Soviet Union undertaken in 1953 during the opening 
months of the Eisenhower administration. To my knowledge there has 
never been such an exercise regarding our policies towards Asia, and 
China. We are running on the fumes of a strategy put into place over 25 
years ago.
    Without claiming to have engaged in such an exercise myself, I 
would like to close with some thoughts about the questions it ought to 
explore and the conclusions at which it might arrive.

    <bullet>  First, regarding our objectives: if an ``Asia whole and 
free'' is out of reach, at least for now, and if a region reshaped 
according to Beijing's vision would be threatening to our interests and 
our values, as I think it would be, how should we define our strategic 
goals? The answer here is likely to be that we will need, first of all, 
to rededicate ourselves to defending a partial Asian regional system 
that remains open and liberal, including the countries that make it up, 
the rules to which they adhere and the commons that connects them.
    <bullet>  This has implications for our diplomacy: instead of 
simply haranguing our allies about their defense contributions, or 
merely shoring up the bi-lateral ties that comprise our long-standing 
``hub and spokes'' system, we should be looking for ways to promote 
greater cooperation among our regional friends and allies. Various 
links have already been formed, between India and Australia, for 
example, and Japan and India. We should encourage these efforts and 
seek to knit them together more closely. We should also be looking for 
ways to involve those of our European allies who share our concerns, 
including about freedom of navigation. If the democracies pool their 
resources and coordinate their efforts, there is no reason why they 
cannot maintain a favorable balance of power, even as China grows 
stronger.
    <bullet>  In the economic domain, if we don't want others in the 
region to be drawn ever more closely into a Chinese dominated ``co-
prosperity sphere'' we need to provide them with the greatest possible 
opportunity to remain engaged in mutually beneficial trade and 
investment with us and with one another. Whatever its economic merits, 
TPP had significant strategic benefits in this regard. It is not yet 
clear what, if anything, will take its place.
    <bullet>  The time is also right for a reexamination of the 
strategic implications of our bilateral economic relationship with 
China, as well as its impact on jobs and growth. Because of our 
commitment to integrating China into the global economy we continue to 
treat it as a normal trading partner, albeit one with some bad 
mercantilist habits, rather than as a potential military opponent. 
Among other problems, this has made it more difficult to prevent 
Chinese entities, some with close ties to the state, from gaining 
access to technologies that can be used to improve their military 
capabilities and to erode the qualitative advantages that United States 
and allied weapons systems continue to enjoy.
    <bullet>  As regards our military strategy: a great deal of energy 
has been devoted recently to figuring out how best to respond to 
Chinese initiatives in the ``grey zone.'' As important as this problem 
is, it is subordinate to the larger question of how we and our allies 
can counter China's evolving A2/AD capabilities. Having raised the 
issue in a very visible way back in 2011 with the creation of the 
AirSea Battle office, the Defense Department seems now to have backed 
away from it. While there is obviously a limit to what should be said 
in public, we need to be able to explain to our allies, our possible 
adversaries and to ourselves how we fight and win a war in Asia, should 
that ever become necessary.
    <bullet>  Finally, there is the delicate issue of ``political 
warfare.'' What is our counter to the narrative that the Chinese are 
now pushing across much of Asia, in which we are portrayed as 
internally divided, unable to solve our domestic problems, inward-
turning, unreliable and potentially dangerous and they are the wave of 
the future--economically dynamic, efficient, unthreatening, non-
judgmental, loaded with cash, and eager to do business? This is 
obviously a very large and complex topic. Let me close with three 
thoughts. First, no matter what we say, others will judge us in large 
part by what we do and how we are perceived to behave. The more we are, 
in fact, paralyzed by political division and the more we seem to be 
turning our backs on the alliances and the open international economic 
system that we did so much to build, the more effective China's 
political warfare campaign will be and the more its influence will 
grow. Second, despite its undeniable successes, China is, in fact, 
plagued by deep, structural problems--including pervasive corruption 
and an unsustainable economic growth model--that it is extremely 
unlikely to be able to address under its present system of government. 
A third, related point: it would be a serious mistake, strategic as 
well as moral, to drop the subjects of human rights and universal 
values from our discussions with and about China. Our commitment to 
these values and our demonstrated willingness to defend them are still 
among our greatest assets. Being seen to abandon them in the face of 
China's growing wealth and power will embolden Beijing and other 
authoritarian regimes, discourage our allies, and demoralize those, in 
China and around the world, who, often at great personal risk, continue 
to advocate for freedom.

    Chairman McCain. Ms. Magsamen?

    STATEMENT OF KELLY E. MAGSAMEN, FORMER PRINCIPAL DEPUTY 
 ASSISTANT SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC SECURITY 
          AFFAIRS, OFFICE OF THE SECRETARY OF DEFENSE

    Ms. Magsamen. Chairman McCain, Ranking Member Reed, other 
distinguished committee members, thank you for convening this 
important and very timely hearing today.
    I want to commend the committee for its steadfast 
bipartisan leadership on all matters of peace and security in 
the Asia-Pacific, that is extremely important, as well as your 
steadfast commitment to our men and women in uniform and the 
civilians who serve alongside them. So thank you.
    Also, thank you to my fellow panelists here whose counsel I 
drew upon quite a bit while I was in government. I think you 
are going to hear a lot of similarity in our testimony today. 
Let me try to quickly summarize my testimony that I have 
submitted for the record.
    Bottom line, up front, while some may prefer to discard the 
rhetoric of the rebalance, we need to follow through on its 
strategic intent, because if we do not, American primacy in the 
most consequential region in the world is at risk. I will go 
one step further by saying mere continuity of American effort 
is not going to be enough to stem the tide.
    We need to encourage the new administration to present an 
affirmative vision and strategy for the region, as the other 
panelists have discussed, and to avoid ad hoc approaches. This 
needs to start with a clear-eyed view of our interests and the 
necessity of preserving our position through any means 
necessary to advance our interests.
    So with that theme in mind, I would like to highlight what 
I see as the top three challenges and opportunities facing the 
United States in the Asia-Pacific. Of course, the first most 
urgent challenge is North Korea and its relentless pursuit of 
its ballistic missile program and nuclear program, a challenge 
that has vexed multiple administrations, including the Obama 
administration most recently.
    The bottom line here is that we need a new playbook. First, 
we need to increase the pressure on North Korea as a necessary 
predicate to any other option. China is central to that, but we 
cannot rely only on Chinese pressure. We also need to be 
realistic. Kim Jong-un is not going to unilaterally disarm 
because of international pressure. Pressure alone is not going 
to solve the problem.
    Second, military options should remain on the table, but 
they are extremely high-risk and should be a last resort. We 
should not kid ourselves here. A conflict on the peninsula 
would be unlike anything we have seen in decades. North Korea 
is not a Syria. It is not an Iraq. The consequences could be 
extremely high.
    So where does that leave us? After and only after a 
sustained period of significant pressure and deep coordination 
with our allies, we need to ready a diplomatic play.
    For diplomacy to succeed, however, its goal has to be 
achievable. So this will not be popular, but denuclearization 
is unlikely at this point, at least in the near term and at 
least under this regime.
    So we need to have some realism and develop some diplomatic 
creativity. We, in close coordination with our allies, should 
develop a diplomatic road map with outcomes short of 
denuclearization that would still effectively limit the threat 
in a meaningful and verifiable way.
    Finally, we really need to turn up our defense game. We 
need to accelerate improvements in regional missile defense of 
our allies as well as our Homeland so that we are better 
prepared in the event diplomacy fails or even if it succeeds.
    This brings me to the second challenge, and this is the 
most consequential challenge, as others have discussed--China. 
To be clear, China's strategic intent is to chip away at 
decades of American security and economic primacy in Asia. Some 
are going to get squeamish over the idea of United States-China 
great power competition. But to ignore the fact that China is 
already in competition with us would be tantamount to strategic 
malpractice.
    So I agree with Aaron on his comments earlier about the 
need for a big look at our China strategy.
    I do not mean to suggest that we should enter a new cold 
war with China, nor can we cast aside areas of cooperation that 
benefit our interests. But we need to be clear-eyed about our 
long-term interests in preserving the American position, and 
that should be our north star.
    To do so, the United States needs to invest in our 
comparative strengths and, by extension, our credibility. We 
need to get our own house in order to address the pure scale, 
as the chairman mentioned, of this challenge--necessary budget 
investments, human capital investments, which is something that 
is not talked about enough, and overall strategy.
    We need to move to the next phase of increasing U.S. 
presence, posture, and capabilities in the region. That next 
phase is going to be a lot harder.
    In this regard, I would like to thank you, Chairman McCain, 
for your idea and proposal on the Asia-Pacific Stability 
Initiative, which I hope the Trump administration will support. 
It will not only improve our ability to fight and win wars, it 
will improve our ability to keep the peace.
    This brings me to the third challenge, an enduring and 
persistence one, which is terrorism in the region. I think in 
the emergence of ISIL [Islamic State of Iraq and the Levant], 
the terrorist threat in South and Southeast Asia is evolving, 
and bottom line here is we need to get ahead of it. We have 
time to get ahead of it, so we need to take more preventive 
action on terrorism in South and Southeast Asia.
    Let me talk briefly about opportunities, which tend to get 
lost in all of the noise.
    First, I would say the biggest strategic opportunity is 
India. Here, the United States and India increasingly share a 
common strategic outlook on the Asia-Pacific, especially a 
mutual concern over Chinese military modernization and 
adventurism.
    But the question here is, can we reach a new level of 
cooperation to place limits on Chinese ambition? I believe it 
is possible but only if the United States and India together 
persist in overcoming the suspicions of the past and build 
stronger habits of actual cooperation. This is going to require 
the United States and Indian systems, which are not naturally 
compatible, to demonstrate mutual flexibility as well as 
ambition.
    The second opportunity, which is a near-term and high-
reward opportunity, is Southeast Asia. As the chairman knows, 
the demand signal in Southeast Asia for United States defense 
engagement is on the rise, and we need to meet it.
    While we can do more through defense engagement, we also 
need to do more on diplomatic, economic, commercial, private 
sector engagement in Southeast Asia. Whether it is in Vietnam 
or Burma or Sri Lanka, there are countless opportunities for 
the United States to build strategic depth in Southeast Asia.
    ASEAN also needs to be central to our strategy, and I would 
recommend Secretary Mattis continue efforts of his last two 
predecessors to host the ASEAN defense ministers in the United 
States at the earliest opportunity.
    Finally, this committee's leadership on Southeast Asia has 
been essential. Whether it was by your engagement every year at 
the Shangri-La Dialogue, which is an important expression of 
American bipartisan commitment to the Asia-Pacific, or whether 
it is following through with action as in the case of the 
Southeast Asian Maritime Security Initiative, a much-needed, 
timely American effort to fill a critical capacity gap.
    Finally, the big one, the long-term strategy, the real 
opportunity for the United States. To retain our primacy, the 
United States needs to weave together its disparate security 
and economic efforts into a broader strategy. We need to 
fashion a networked security architecture with allies and 
partners to help all of us do more over greater distances with 
greater economy of effort, undergirded by a shared set of 
principles in support of a rules-based order.
    We need to present a vision for an equivalent economic 
architecture that promotes sustainable and inclusive economic 
growth and opportunity for all countries, including the United 
States.
    In the absence of meaningful American economic statecraft 
in the region, China is filling the void. That has dangerous 
implications for our relationships, setting up false choices 
for our allies between their security and their prosperity. 
Besides these strategic implications, the lack of a serious 
United States economic initiative in Asia will leave average 
Americans at a long-term economic disadvantage.
    So in sum, the challenges of opportunities for the United 
States are significant. But without urgent American leadership 
and the requisite whole-of-government investment, the United 
States will not be able to rise to them, and decades of 
relative peace and prosperity that American leadership has 
enabled are at risk.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Magsamen follows:]

                Prepared Statement by Kelly E. Magsamen
    Chairman McCain, Ranking Member Reed, distinguished Committee 
members, thank you for convening this important and timely hearing 
today. It's an honor to appear before you. I also want to commend this 
Committee for its steady and bipartisan leadership on the important 
matters of peace and security in the Asia Pacific, and for your 
steadfast support of our men and women in uniform and the civilians 
that serve alongside them. Thank you also to my fellow panelists, whose 
thoughtful advice and counsel I often drew upon while serving in 
government.
    This hearing is not just timely because the challenges of the Asia 
Pacific have been making the news headlines in recent weeks, but 
because we are on the front edge of major strategic change in the 
region. This change presents both challenges and opportunities for the 
United States in pursuit of our national interests.
    So now let me offer my bottom-line up front: while some may prefer 
to discard the rhetoric of the ``rebalance,'' the United States must 
follow through on its strategic intent or otherwise risk American 
primacy in the most consequential region in the world to our interests. 
Let me go further by noting that mere continuity of effort will not be 
enough to stem the tide of forces seeking to undermine our influence in 
the region. The United States must continue to lead in the Asia Pacific 
region, not just by demonstrating our military might, but also by 
activating all elements of national power and by making the necessary 
strategic investments of both resources and human capital.
    With that underlying theme in mind, today I want to highlight what 
I see as the top three challenges and top three opportunities facing 
the United States in the Asia Pacific.
                               challenges
1) Most Urgent Challenge: North Korea.
    The most urgent challenge facing the United States is North Korea's 
relentless pursuit of its nuclear and ballistic missile programs. 
Clearly this challenge has vexed multiple United States 
Administrations, and despites some stylistic changes, the Trump 
Administration largely appears to be pulling from a well-worn 
playbook--increasing pressure on China to act, reassuring our allies, 
imposing more sanctions, and signaling our resolve to North Korea. Yet 
these same tactics ultimately failed for prior Administrations, 
including the Obama Administration. Simply put, the United States needs 
a new playbook in dealing with North Korea.
    So what could that new playbook contain? First, building and 
sustaining pressure on North Korea is a necessary predicate to 
employing any other options. The challenge with North Korea, however, 
is that the regime has been proven resilient after years of 
international sanctions--including two exceptionally strong UN Security 
Council sanctions resolutions last year. The Trump Administration is 
right to be squeezing China to do more, although I remain skeptical 
that China will place the kind of pressure on the North Korean regime 
necessary to cause a change in their nuclear ambitions. To do so, China 
would need to be convinced that the status quo of a soon-to-be nuclear-
armed North Korea is worse for their interests than uncertainty over 
all other scenarios--a difficult task as China fears nothing more than 
instability or regime collapse and the prospect of a unified and 
democratic Korea on its periphery. To do that, we need to be willing to 
hold Chinese interests at risk. Further, we need to acknowledge that 
Kim Jong Un is not going to suddenly throw his hands up in the air and 
unilaterally disarm. He views nuclear weapons as essential to self-
preservation. So while more pressure is necessary to impose deeper 
costs, it alone will not solve the problem.
    This brings me to military options. While our military is prepared 
for a range of contingencies and ready to ``fight tonight'' alongside 
our allies, we should not kid ourselves: a conflict on the Korean 
Peninsula would be unlike anything the world has experienced in 
decades. North Korea is not Syria. This is not a country where a few 
punitive strikes are possible without potentially dramatic human 
consequences. Thousands if not millions of South Koreans would die, the 
28,500 United States personnel serving in Korea and their families 
would be at extreme risk, the regional and global economic impacts 
would be catastrophic, and the chance for wider regional conflagration 
would be high as countries with competing interests vie to influence 
the final outcome. We may ultimately decide that these are necessary 
costs, but as National Security Advisor LTG H.R. McMaster noted the 
other day, military options should be a last resort.
    So where does that leave us? After--and only after--a sustained 
period of significant pressure and coordination with our allies, we 
need to ready a serious diplomatic play. But for diplomacy to succeed, 
its objective needs to be achievable. For years, the international 
community's diplomatic goal in North Korea has been denuclearization. 
While an important aspiration, it is likely unachievable in the near 
term. In the absence of credible alternatives, it is time for some 
realism. We, in close coordination with our allies, should develop a 
diplomatic road-map with outcomes short of full denuclearization that 
would effectively limit the threat in a meaningful and verifiable way. 
We would simultaneously need to refocus efforts towards deterring North 
Korea from the use or proliferation of nuclear weapons. Needless to 
say, all of this will require serious diplomatic agility and for that 
we need all hands on deck. I would strongly encourage the 
Administration to fill key Asia positions at both the State Department 
and the Defense Department soon.
    This brings me to the final part: our defensive game. We need to 
substantially accelerate improvements in the defenses of our allies as 
well as our Homeland so that we are better prepared to act in the event 
diplomacy fails, or even if it succeeds to improve our deterrence 
posture. The Obama Administration set into motion a systematic 
strengthening of United States regional ballistic missile defenses and 
Homeland defense by positioning of key capabilities in the Republic of 
Korea and Japan and more Ground-Based Interceptors in the western 
United States. The Trump Administration needs to do more and do it 
fast. For example, we need to continue to further operationalize United 
States-ROK-Japan trilateral military cooperation, accelerate the 
operational timeline for THAAD in Korea, and support any official 
Japanese request for THAAD or offensive strike capabilities. We should 
also not dismiss the possibility of rotating dual-capable aircraft to 
the Peninsula to demonstrate our extended deterrence commitment to the 
Republic of Korea. This will have the added benefit of signaling our 
seriousness to China.
2) Most Consequential Challenge: United States-China Competition
    Critical as North Korea is, we can't let it distract us from the 
challenges posed by China's rise. This is the most consequential 
challenge we face. China's strategic intent is to chip away at decades 
of American security and economic primacy in Asia while avoiding a 
complete rupture in the bilateral relationship with the United States 
or direct conflict in the near term. It is challenging international 
law, bullying and coercing its less powerful neighbors, and trying to 
create a wedge between the United States and our allies. Further, China 
has proven so far that it is willing to accept a high level of 
reputational cost to achieve its strategic aims. We face a strategic 
tipping point. The cumulative effect of China's actions, coupled with a 
lack of any real consequences, is that many in the region are beginning 
to feel that the writing is on the wall when it comes to Chinese 
regional hegemony.
    Now many believe that great power competition is a relic of 
history, or that even by speaking in such terms we could generate the 
very conflict we seek to avoid. But to ignore the fact that China is 
already in competition with us would be tantamount to strategic 
malpractice. I do not mean to suggest that we should enter a new Cold 
War with China, nor can we cast aside areas of United States-China 
cooperation that benefit our interests. Rather, we should be clear-eyed 
about our long-term interest in preserving the American position in the 
region. To do so, the United States needs to invest in our comparative 
strengths and, by extension, our own credibility.
    For the Defense Department, that starts with getting our own house 
in order to address the scale of the China challenge. The Department's 
efforts on China are woefully under-resourced and lack strategic 
direction. Deputy Secretary Work has spearheaded essential efforts like 
the Third Offset strategy to correct this, but I would strongly 
recommend the Department go significantly further. Secretary Mattis 
should issue a new DOD-wide strategy that prioritizes the Department's 
efforts with respect to China and aligns both defense budget 
investments and human capital resources.
    Further, the United States must articulate an affirmative policy 
for the region, and from there define United States policy on China--
not the other way around. Our alliances are our most precious strategic 
asset in the region, and we must continue efforts to strengthen and 
modernize them. During the Obama Administration we made some real 
strides in forward-stationing some of our most impressive capabilities 
to the region while also adjusting our force posture to make it more 
distributed, operationally relevant, and politically sustainable. But 
we now need to move to the next phase of that effort.
    In this regard, I would like to thank you, Chairman McCain, for 
proposing an Asia Pacific Stability Initiative, which I hope the Trump 
Administration will support. A multi-year initiative to reinforce our 
own forces will not only improve our ability to fight and win wars, it 
will help us keep the peace. There is a lot to be done. We need to 
expand and diversify our regional access agreements. We need to 
increase our forward-stationed capabilities and rotational forces to 
help us manage the tyranny of distance. We need to upgrade critical 
regional infrastructure and fill munitions shortages. We need to update 
our operational concepts to account for the growing anti-access/area-
denial denial challenges we face.
3) The Enduring Challenge: Terrorism
    Finally, even as we focus threats from state actors like North 
Korea and China, the threat of terrorism in the region is the most 
enduring challenge. It is also the most pressing and tangible challenge 
for many of our friends in South and Southeast Asia. Since 9/11, 
Southeast Asia has seen occasional high-profile terrorist attacks in 
places like Bali, downtown Jakarta, and the Philippines. With the 
emergence of the Islamic State, the threat is now evolving. We are 
seeing more foreign fighter flows to and from the Middle East, ISIS-
inspired groups and individuals emerging, as well as ISIS-inspired 
attacks--although nothing yet on the scale of what we have seen in 
Paris, Brussels or London.
    So, while DOD's priority is rightly fighting ISIS in Syria and 
Iraq, we cannot ignore the global dimensions--whether in Europe or in 
Southeast Asia. While Southeast Asian governments have so far contained 
ISIS's ability to gain a real foothold, we should be mindful of how 
quickly ISIS can gain strategic momentum. Now is the time to blunt that 
possibility in Asia through preventive action in concert with our 
friends and allies.
    As a first step, I recommend DOD conduct a strategic review of 
terrorism threats in Southeast Asia and how it is positioned to address 
them. This review should be informed by a Commander's Estimate from 
U.S. Pacific Command. This effort would help illuminate any regional 
capacity gaps or opportunities for cooperation, and whether the 
Department is appropriately postured and resourced for counterterrorism 
in the region. I believe there is more the Department could be doing--
whether it is increased information sharing, training or even 
operational support to nascent trilateral cooperation among Indonesia, 
Malaysia and the Philippines.
                             opportunities
1) Biggest Strategic Opportunity: India
    The United States and India increasingly share a common strategic 
outlook on the Asia Pacific--especially a mutual concern over Chinese 
military modernization and adventurism. The strategic logic behind 
Prime Minister Modi's ``Act East'' policy is highly compatible with 
that of the U.S. rebalance. But more importantly, we share common 
values as the world's two largest democracies and as well as a culture 
of innovation and entrepreneurship. In many ways, we are natural 
partners. But can the United States and India reach a new level of 
cooperation to place limits on China's adventurism and ambition? I 
believe it is possible but only if we together persist in overcoming 
the suspicions of the past and build stronger habits of cooperation.
    Last year, Secretary Carter designated India a ``Major Defense 
Partner'' of the United States--a status unique to India that allows 
our two countries to cooperate more closely in defense trade and 
technology sharing. I was pleased to see National Security Advisor LTG 
H.R. McMaster recently reaffirm the United States-India Strategic 
Partnership and specifically our defense cooperation with India. It is 
essential that we sustain the momentum. This will require both the 
United States and Indian systems--which are not naturally compatible--
to demonstrate mutual flexibility as well as ambition. For that to 
happen, there has to be leadership driving it from the top lest both 
bureaucracies smother the chance of progress. I found that we often 
stand in our own way.
    But India also has to demonstrate that it is prepared to let go of 
its old fears. The United States does not seek an actual alliance--nor 
should we--but we do seek a meaningful partnership that benefits us 
too. Our strategic partnership will reach its value limits in the 
defense realm, if we can't build practical habits of cooperation. For 
example, we need to operate and exercise more together and with others, 
facilitate more exchanges of our military personnel, and regularize our 
defense dialogues at every level.
2) Near Term, High Reward Opportunity: Southeast Asia
    The United States has the chance to play a more strategic game in 
Southeast Asia, and if we blink, we will miss it. Our relationships in 
Southeast Asia need to be well tended. I was pleased to see Vice 
President Pence's trip to Indonesia last week, and the announcement 
that President Trump will travel to the Philippines and Vietnam later 
this year for the United States-ASEAN Summit, the East Asia Summit, and 
the APEC Leaders Meeting. I hope to see Secretary Mattis attend this 
year's IISS Shangri-La Dialogue.
    The demand signal in Southeast Asia for United States defense 
engagement is on the rise--and we have made progress meeting that 
demand in recent years. Chairman McCain, your tireless efforts to 
strengthen and transform our relationship with Vietnam have not only 
been heroic, they have been strategic. I am also proud of the progress 
we made during the Obama Administration in expanding our strategic 
partnership with Vietnam, including lifting the ban on the sale of 
lethal weapons, addressing legacy of war issues, and expanding U.S. 
Naval and Coast Guard engagement. I hope we are able to sustain this 
positive momentum with Vietnam.
    Whether it's growing our strategic partnership with Vietnam, 
reaffirming our longstanding and high-value alliance with Thailand, 
pursuing newer relationships with countries like Burma and Sri Lanka, 
or expanding our long-standing defense cooperation with Singapore, the 
potential for America in Southeast Asia is not yet exhausted. While we 
can and should do more through defense engagement to seize this 
opportunity, we also need to increase our diplomatic resources and 
personnel in Southeast Asia, expand our International Military 
Education and Training (IMET) funding and Foreign Military Financing 
(FMF) allotments to the region, strengthen our outreach to young 
Southeast Asian leaders, and connect our entrepreneurs. This needs to 
be a comprehensive effort.
    Even as we pursue stronger bilateral relationships in Southeast 
Asia, our engagement with ASEAN needs to be central to our strategy. 
While ASEAN certainly has its challenges, 50 years after its inception, 
it still represents an important multilateral mechanism to advance 
political, economic and security cooperation in the region--cooperation 
undergirded by a collective belief in a rules-based order. I would 
recommend that Secretary Mattis continue the efforts of his last two 
predecessors by hosting ASEAN defense ministers in the United States at 
the earliest opportunity.
    Finally, this Committee's leadership on Southeast Asia has been 
essential. When bipartisan Congressional delegations take the time to 
travel halfway across the world to demonstrate interest in one of the 
world's most dynamic regions, it sends a strong signal. But more than 
just showing up, the Committee deserves applause for initiating the 
Southeast Asia Maritime Security Initiative--a much needed and timely 
inject of American effort to fill a critical maritime capacity gaps in 
Southeast Asia. I would recommend this initiative not only be continued 
but also broadened to allow DOD to help facilitate the U.S. Coast Guard 
engagement and training in the region.
3) Long-Term Opportunity: Networking Asia's Security and Economic 
        Architecture
    To retain the primacy needed to protect our interests in an 
increasingly complex security environment, the United States needs to 
weave together its disparate engagement efforts. Towards the end of the 
Obama Administration, the Department of Defense began to emphasize the 
importance of networking a new type of Asian security architecture--
former Secretary Ash Carter called it a ``principled security 
network.'' This network is essentially a complex set of bilateral, 
trilateral and multilateral relationships that help all of us do more, 
over greater distances, with greater economy of effort. Most 
importantly, this network is based on long-shared principles including 
the peaceful settlement of disputes, freedom of navigation and over-
flight and the right of all countries to make their own security and 
economic choices free from coercion.
    The U.S. has a central role to play in facilitating this network. 
Whether it is sustaining our investments in multilateral constructs 
like ASEAN Defense Ministers Meeting Plus, or building new security 
collaborations among our most capable allies like the increasingly 
valuable United States-Japan-Australia trilateral, we have an 
opportunity to be the glue to this network. We need to be looking for 
more ways to advance this network, such as building better humanitarian 
and disaster relief capabilities region-wide that can be activated in 
crisis, or building a common regional operating picture in the region's 
most important waterways.
    Finally, in addition to facilitating this new security 
architecture, we need to present a vision for an equivalent economic 
architecture that promotes sustainable and inclusive economic growth 
and economic opportunity for all countries--including the United 
States. To do this, we need to pick up the pieces from the Trans-
Pacific Partnership disaster and present a new alternative--and soon. 
We need to show that American economic engagement in Asia is not just 
about renegotiating bilateral trade deals or righting deficits. In the 
absence of meaningful American economic statecraft in the region, China 
is already filling the void. That has dangerous implications for our 
relationships in the region--setting up a false choice for our allies 
between their security and prosperity. Besides these strategic 
implications, the lack of a serious United States economic initiative 
in Asia will leave average Americans at a long-term economic 
disadvantage.
    In summary, both the challenges and opportunities for the United 
States in the Asia Pacific are significant. But without urgent American 
leadership and the requisite whole-of-government investment, the United 
States will not be able to rise to them. Decades of relative peace and 
prosperity that American leadership has enabled in the region are at 
risk, and the primacy of the American position is far from certain. 
Thank you, and I look forward to your questions.

    Chairman McCain. Dr. Tellis?

 STATEMENT OF ASHLEY J. TELLIS, Ph.D., SENIOR FELLOW, CARNEGIE 
               ENDOWMENT FOR INTERNATIONAL PEACE

    Dr. Tellis. Thank you, Senator McCain. Good morning. Thank 
you, Ranking Member Reed, and members of the committee, for 
inviting me to testify this morning on the challenges facing 
the United States in the Indo-Pacific.
    I have submitted a longer statement. I would be grateful if 
that is entered into the record.
    Chairman McCain. Without objection.
    Dr. Tellis. In my opening remarks this morning, I want to 
highlight five themes drawn from my written statement.
    First, the challenges posed by North Korea and China 
obviously remain the most dangerous problems facing the United 
States in the Indo-Pacific. The challenges emanating from North 
Korea and obviously real, dangerous, and in the near term. The 
challenges emanating from China are long-term, enduring, and 
aimed fundamentally at decoupling the United States from its 
Asian partners.
    In my remarks this morning, I want to focus primarily on 
China, and I want to thank my colleagues, Victor Cha and Kelly 
Magsamen, for spending time on speaking about the issues 
relating to North Korea.
    The first point I want to make in this connection is that 
as we think about China as a strategic competitor, it is 
important not to think of China as merely a regional power, but 
increasingly as a global challenger to the United States.
    China is already a great power in Pacific Asia. It is 
increasingly active militarily in the Indian Ocean. It is 
seeking facilities in the Mediterranean and along the African 
coasts. Within a couple of decades, the size of Chinese naval 
capabilities will begin to rival those of our own. It is likely 
that China will begin to maintain a presence both in the 
Atlantic and in the Arctic Oceans as well.
    So we have to think of China in a new way, not just simply 
as an Asian power but as a global power.
    The second point I want to make is that it becomes 
increasingly important for the United States as it deals with 
the emerging Chinese challenge to reaffirm its own commitment 
to maintaining its traditional preeminence both globally and in 
the Indo-Pacific.
    The United States commitment to this preeminence is now 
uncertain in Asia. The Asian states are uncertain about whether 
Washington can be counted on to balance against China's quest 
for regional hegemony, and whether Washington can be lured away 
from the attractions of condominium with China, a condominium 
which might threaten the security of our friends.
    The President, therefore, should use the opportunity 
offered by his appearance at the East Asia summit to clearly 
affirm America's commitment to maintaining its global primacy. 
But words alone are not enough. I think it would be very 
helpful for the administration to support your initiative, 
Senator McCain, with respect to the Asia-Pacific Stability 
Initiative, in fact, urging funding at levels that approximate 
those offered for the European Reassurance Initiative.
    Third, the resources that I believe should be allocated to 
the Indo-Pacific should focus increasingly on restoring the 
effectiveness of United States power projection, because that 
capability has been undermined considerably by China's recent 
investments in anti-access and area denial.
    In the near term, this will require shifting additional 
combat power to the theater, remedying shortfalls in critical 
munitions, expanding logistics capabilities, increasing joint 
exercises in training, and improving force resiliency by 
enabling a more dispersed deployment posture.
    But the longer term is just as crucial, and the demands of 
the longer term cannot be avoided indefinitely. Here I believe 
bipartisan support will be necessary for developing and rapidly 
integrating various revolutionary technologies into the joint 
force, technologies that will emphasize stealth, long-range, 
and unmanned capabilities as well as doubling down on our 
advantages in undersea warfare.
    Fourth, building better capabilities alone will not suffice 
for effective power projection if the United States lacks the 
will to protect the international regime that serves our 
strategic interests. An important element of that regime, 
protecting the freedom of navigation, is now at serious risk 
because of China's activities in the South China Sea.
    It is time for Washington to push back on these efforts by 
undertaking regular freedom of navigation operations in much 
the same way as we do sensitive recognizance operations in the 
Indo-Pacific today. These operations should be regular, 
unpublicized, undertaken at the discretion at PACOM [Pacific 
Command], and should not be constrained by the promise of 
Chinese good behavior on other issues.
    Fifth and finally, we will not be able to tame Chinese 
power in the Indo-Pacific without strengthening our friends and 
alliance partners, a point made quite clearly by Kelly in her 
remarks before me. There are diverse initiatives that are 
required for success on this account. I will just flag a few.
    The United States should first begin to seriously think 
about working with its partners to replicate China's own anti-
access and area denial capabilities, in effect, replicating 
many A2/AD [anti-
access/area-denial] bubbles throughout the Indo-Pacific, to 
constrain China's freedom of maneuver around the littorals.
    The United States cannot afford to put off the aid and 
enhanced training to Taiwan for very much longer, just as we 
ought to urge Taipei to move expeditiously with respect to 
increasing its own military spending and reforming its own 
concepts of military operations. As a matter of national 
policy, we should affirm our strong support for trilateral 
cooperation between Japan, India, and Australia, whether or not 
the United States is party to these activities.
    As Kelly emphasized, we should not give up on the nations 
of Southeast Asia either. They are currently at the receiving 
end of Chinese assertiveness, and, therefore, our theater 
engagement plan is something that we need to reinvest in 
because it gives us the opportunity to provide critical 
reassurance to the smaller Southeast Asian states in ways that 
will limit the potential for Chinese intimidation.
    Finally, we need to reinvigorate the balancing of China by 
doubling down on our strategic partnership with India. This is 
no longer simply a political necessity. It is an urgent 
operational necessity as well. As Chinese military activities 
in the Indian Ocean begin to gather steam. The partnership with 
India becomes even more important because of the limits it can 
impose on China's freedom of action in the Indian Ocean and 
thereby limiting the burdens on United States forward defense 
in other parts of the Indo-Pacific.
    In short, managing the rise of Chinese military power will 
be the most difficult challenge that the United States faces in 
the Indo-Pacific over the longer term. Managing that challenge 
will be demanding, but we have no choice but to be resolute in 
doing so, because our security, our international standing, and 
the wellbeing of our allies is at stake.
    Thank you very much for inviting me this morning, and I 
look forward to answering your questions.
    [The prepared statement of Dr. Tellis follows:]

                 Prepared Statement by Ashley J. Tellis
    Good morning, Chairman McCain, Ranking Member Reed, and 
distinguished members of the Committee on Armed Services. Thank you for 
your kind invitation to testify on the challenges facing the United 
States in the Indo-Pacific region. I respectfully request that my 
statement be entered into the record.
    Although the Indo-Pacific region has clearly benefited from deep 
integration into the liberal international economic order, complex 
security problems, including territorial disputes, nuclear 
proliferation, and transnational terrorism, persist across East, 
Southeast, and South Asia. These threats afflict almost all the major 
states: Russia, North and South Korea, China, Japan, Taiwan, Vietnam, 
the Philippines, India, and Pakistan--and this is by no means an 
exhaustive list. Because the region, despite these hazards, promises to 
become the new center of gravity in global politics, its security 
problems intimately affect the safety, prosperity, and international 
position of the United States, as well as the wellbeing of our allies.
    The challenges posed by two states in particular--North Korea and 
China--are especially consequential in this regard. My testimony will 
focus primarily on the latter because the problems posed by China in 
the Indo-Pacific derive fundamentally from its growing strength, are 
likely to be long-lasting, and if countered inadequately could result 
in a dangerous strategic ``decoupling'' of the United States from the 
Asian rimlands.
           recognizing china as an emerging global competitor
    The rise of China as a major economic power in recent decades is 
owed fundamentally to conscious policy decisions in Beijing aimed at 
fostering industrialization in order to produce a variety of goods for 
export to international markets. The success of this strategy remains a 
testament to the global trading order maintained and protected by the 
United States. Until the mid-1990s, China sought to utilize the gains 
from its early export-led growth strategy to mainly raise its standards 
of living at home rather than seek greater influence abroad. Since the 
March 1996 Taiwan crisis, however, China has made a concerted shift 
toward a strategy of building up its military capabilities with an eye 
to preventing any United States intervention along its maritime 
periphery that might undermine its core interests. Soon thereafter, it 
also began a comprehensive modernization of its land forces to ensure 
that its continental borders--along with any associated claims--are 
adequately protected. This effort has been complemented by the 
upgrading of its nuclear forces to ensure that Beijing possesses an 
effective counter-coercion capability against capable competitors such 
as the United States.
    In addition to the military investments aimed at preserving a 
cordon sanitaire up to the ``first island chain,'' China is steadily 
acquiring various air, naval, and missile capabilities that will allow 
it to project power up to the ``second island chain'' and beyond while 
beginning to establish a permanent naval presence in the Indian Ocean. 
In support of what is likely to be a global military presence by mid-
century, China has embarked on the acquisition of maritime facilities 
in the Persian Gulf and the Mediterranean Sea; it is exploring 
additional acquisitions to support a naval presence along the East and 
West African coasts and would in time acquire the capability to 
maintain some sort of a naval presence in the Western Hemisphere on a 
more or less permanent basis.
    Even a cursory glance at the weapon systems China now has in 
service or in development confirms the proposition that Beijing's 
interests range far beyond the Asian rimlands: these include new 
advanced surface and subsurface platforms (such as aircraft carriers, 
large amphibious vessels, destroyers for long-range anti-surface and 
anti-air warfare, and nuclear submarines), large transport aircraft, 
exotic and advanced missilery, space-based communications, 
intelligence, navigation, and meteorological systems, and rapidly 
expanding information and electronic warfare capabilities. Taken 
together, these suggest that the Chinese leadership now views the 
future of its military operating environment in global terms. Even if 
the Chinese economy slows from its historically high growth rates, 
China will still have the financial resources to deploy significant 
military capabilities, primarily naval, around the Afro-Asian periphery 
to begin with, while maintaining a capability for presence and sea 
denial in the Western Hemisphere by the middle of this century.
    The international financial crisis turned out to be the key moment 
of transition for China's strategic evolution as its decision makers 
seemed to judge that episode as signaling the conclusive end of 
American hegemony. This perception propelled China's own shift from the 
previous ``hide and bide'' strategy to a more ostentatious display of 
its expanding ambitions. Although these aims initially encompassed 
mainly the Indo-Pacific rimlands, China soon began looking farther 
afield. Having already undertaken significant economic initiatives in 
Africa and Latin America in the first decade of this century, China 
unveiled an ambitious effort in 2013, using its economic power, to 
reach across the entire Eurasian landmass through its One Belt, One 
Road (OBOR) plan. Even as this scheme is being feverishly implemented, 
Chinese military power has gradually acquired the capacity to operate 
at greater distances from home--a presence now witnessed in the Indian 
Ocean and the Mediterranean Sea, which in a few decades will extend to 
the Atlantic and the Arctic oceans as well.
    This evolution suggests that China is steadily moving from being 
merely a regional power to an increasingly global one, though the 
intensity of its military objectives diminishes as a function of 
distance from home. For the moment at least, Chinese military power 
seems oriented toward servicing three related objectives: first, 
Beijing seeks to amass sufficient military power to rapidly defeat any 
troublesome neighbors who might either challenge Chinese interests or 
contest its territorial claims before any extra-regional entity could 
come to their assistance; second, China seeks to develop the requisite 
``counter-intervention'' capabilities that would either deter the 
United States from being able to come to the defense of any rimland 
states threatened by Chinese military power or to defeat such an 
intervention if it were undertaken despite the prospect of suffering 
high costs; and, third, China seeks to gradually assemble the 
capabilities for projecting power throughout the Eastern Hemisphere as 
a prelude to operations even beyond both in order to signal its arrival 
as a true great power in world politics and to influence political 
outcomes on diverse issues important to China.
    Even as China continues to invest in the military capabilities 
necessary to satisfy these goals, it will continue to use its deep 
economic and increasingly institutional ties to its Asian neighbors to 
diminish their incentive to challenge Beijing while simultaneously 
exploiting the economic interdependence between China and the United 
States to deter American assistance for its Asian partners in various 
disputes. To advance this goal, China has created new international 
economic institutions that serve as alternatives to their Western 
counterparts. China also remains committed to its efforts to 
delegitimize the United States alliance system in Asia based on its 
judgment that Washington remains the most critical obstacle to 
Beijing's quest for a neutralized and recumbent periphery. Accordingly, 
it contends that America's Asian alliances are anachronisms, argues 
that Asian security should be managed by Asians alone, and promises its 
neighbors a policy of ``non-interference'' as an assurance of China's 
good intentions.
    If this strategy writ large were to succeed, it would result in the 
successful decoupling of the United States from Asia, it would entrench 
Chinese dominance on the continent, and it would ultimately defeat the 
one grand strategic goal singularly pursued by the United States since 
the beginning of the twentieth century: preventing the dominance of the 
Eurasian landmass by any hegemonic power. Yet, it is precisely this 
outcome that will obtain if the United States weakens in economic and 
technological achievement; if it fails to maintain superior military 
capabilities overall; and if it diminishes in capacity and resolve to 
protect its alliances located at both the western and eastern 
extremities of the Eurasian heartland. Such outcomes will not only 
accelerate China's rise in relative power but they will ease China's 
ability to operate militarily in more distant global spaces where the 
United States has long enjoyed unquestioned dominance.
    An effective response to this evolving Chinese challenge must be 
grounded in a clear recognition of the fact--and a willingness to admit 
first and foremost to ourselves-- that China is already a long-term 
military competitor of the United States despite the presence of strong 
bilateral economic ties; that it will be our most significant 
geopolitical rival in an increasingly, yet asymmetrically, bipolar 
international system; and that it will be a challenger not merely along 
the Indo-Pacific rimlands but eventually also in Eurasia, Africa, Latin 
America, and their adjoining waters. To offer just one probative 
illustration, the Chinese navy is likely to surpass the United States 
navy in the number of major combatants sometime in the second quarter 
of this century. With a fleet of such size and arguably comparable 
capabilities, it would be myopic to believe that Chinese military 
interests would be restricted merely to the western Pacific and the 
Indian Oceans. The time has come, therefore, to think more seriously 
about China as an emerging global competitor with widely ranging, and 
often legitimate, economic and institutional interests, rather than 
merely as a local Asian power that will forever be content to subsist 
under the umbrella of unchallenged American global hegemony.
    There are three elements that are essential to coping with this 
emerging Chinese challenge.
  preserving u.s. global primacy and regional preeminence in the indo-
                                pacific
    The first and perhaps most important task facing the United States 
today--a task rendered more urgent because of the recent election of 
President Donald J. Trump-- is the need for a clear and public 
commitment to the preservation of U.S. global primacy and its regional 
preeminence in the Indo-Pacific. The distractions accompanying the 
slogan ``American First'' have created uncertainty in the minds of both 
U.S. allies and competitors about whether Washington still remains 
committed to protecting its position in the international system and 
preserving the international institutions that legitimize its 
leadership worldwide. Since the election, the president has taken 
important and welcome steps to reaffirm the value of key alliances such 
as NATO and those with Japan and South Korea, but there still persist 
lingering doubts in key capitals around the world and especially in the 
Indo-Pacific region about whether the administration will remain 
consistently committed to protecting the core elements of its 
international influence.
    This is not an abstract concern about ``international order'' or 
about some other rarified concept that has little bearing on palpable 
American interests. Instead, it is fundamentally about preserving an 
advantageous balance of power--a meaningful superiority over our 
competitors--so that the United States can successfully parry threats 
to the Homeland at distance and simultaneously uphold international 
norms, rules, and institutions that both legitimize American 
preeminence and economize on the necessity of repeatedly using ``hard 
power'' to attain American objectives. As Senator John McCain has 
stated succinctly, preserving such a favorable balance of power 
requires ``all elements of our national influence--diplomacy, 
alliances, trade, values, and most importantly, a strong U.S. military 
that can project power globally to deter war and, when necessary, 
defeat America's adversaries.'' These resources, in turn, are fielded 
entirely ``for a simple reason: It benefits America most of all. It is 
in our national interest'' (Senator John McCain, Restoring American 
Power, Senate Armed Services Committee, Washington, D.C., January 16, 
2017, 2).
    Precisely because any worthwhile ``America First'' strategy 
requires a propitious global balance of power for its success, 
President Trump should take the first appropriate opportunity to 
formally articulate his administration's commitment to preserving 
America's international primacy--as all his recent predecessors have 
done in different ways. Such a statement is all the more essential 
today because while the domestic entailments of the ``America First'' 
locution have been heavily emphasized, its international predicates are 
still unclear. Vice President Michael Pence, Secretary of Defense James 
Mattis, and National Security Adviser General H. R. McMaster have 
spoken to aspects of this issue when they have reiterated to various 
allies the continuing commitment of the United States to their defense. 
But these assurances, though welcomed throughout the Indo-Pacific 
region, do not yet clarify the administration's larger commitment to 
protecting America's international primacy and the institutions that 
rely on it. Shorn of all subtlety, what United States allies and 
friends in Asia want to hear in this regard is a clear commitment from 
the United States that it will resist both the threats of Chinese 
hegemony and the lures of any United States-China condominium. Because 
both alternatives pose grave dangers to Asian security--and affect the 
calculations of the regional powers in regard to partnership with the 
United States--President Trump ought to take the opportunities offered 
by his appearance at the East Asia summit and the unveiling of his 
administration's national security strategy to clearly articulate the 
U.S. commitment to preserving ``a balance of power that favors 
freedom'' (Condoleezza Rice, ``A Balance of Power That Favors 
Freedom,'' Walter B. Wriston Lecture delivered at the Manhattan 
Institute, New York, October 1, 2002) in its own self-interest.
    Protecting such a balance in the first instance will require more 
resources, especially in the Indo-Pacific where China is already 
advantaged by interior lines of communication, by shorter distances to 
the battle areas of interest, and by its ability to muster substantial 
combat power, if not outright superiority, relative to Japan, Taiwan, 
and the smaller countries in Southeast Asia. The Asia-Pacific Stability 
Initiative (APSI) proposed by Senator McCain is a long overdue step in 
this direction and should be steadily increased to levels similar to 
the $4 to $5 billion annually appropriated for the European Reassurance 
Initiative. This increase in spending levels has to be sustained 
because only a long-term investment in enhancing the combat power of 
United States Forces and those of our Japanese, South Korean, and 
Australian allies will contribute toward containing the operational 
gains that China has made in recent years at United States and allied 
expense.
    The president's support for increased funding for APSI would in 
fact reinforce his commitment to America's Asian alliances in ways far 
more valuable than words: not only would it confirm his 
administration's recognition of the priority of the Indo-Pacific in 
United States strategy more generally, reassure our friends and 
partners in the region about America's resolve, and send a strong 
signal about America's deep commitment to protecting its strategic 
interests, but it would actually enhance United States and allied 
combat capability in ways that would make it more difficult for China 
to count on being able to easily overwhelm our partners or prevent the 
United States from coming to their defense--thereby enhancing the 
larger objective of successful deterrence throughout the Indo-Pacific.
    While providing more resources to Pacific Command (PACOM)--and more 
resources to defense overall when the requirements of other theaters 
are taken into account--will require repealing the Budget Control Act, 
preserving U.S. global primacy and its regional preeminence in the 
Indo-Pacific also requires conscious and deliberate actions to uphold 
critical international norms that do not necessarily entail additional 
spending. A good case in point is countering China's creeping 
militarization in the South China Sea, where since 1995 the reclamation 
of uninhabited reefs has been utilized to construct new military 
facilities. Though the ultimate objectives of this effort have never 
been satisfactorily clarified by China, there is sufficient reason to 
conclude that Beijing seeks to advance its maritime jurisdiction over 
large swaths of the South China Sea by asserting sovereignty over the 
islands and their adjacent waters in order to ultimately either control 
the passage of foreign vessels or permit their movement only under 
Chinese sufferance. This behavior represents a concerted challenge to 
the long-standing principle of mare liberum which the United States has 
defended by force on numerous occasions historically.
    President Trump condemned this Chinese behavior vehemently during 
the presidential campaign and laid down new red lines in regard to 
further Chinese activities in the South China Sea during his recent 
meeting with President Xi Jinping. While the extant Chinese facilities 
in the area cannot be removed short of war, there is no reason why the 
seven-odd reclamations that Beijing has completed and now uses for 
various purposes, including military, should be legitimized. In fact, 
the administration can do much more to vitalize its diplomatic 
rejection of China's strategy of creeping enclosure by: (1) rejecting 
Chinese claims to sovereignty over these maritime features (thereby 
overturning the standing United States policy of taking no position on 
their ownership); (2) initiating an international public diplomacy 
campaign to embarrass China for its egregious expropriation of 
uninhabited maritime features for military expansionism; (3) 
confronting China over its behaviors in all functional organizations 
related to maritime activities; (4) considering the imposition of 
sanctions on those entities involved in the reclamation and 
construction activities on the usurped maritime features; (5) aiding 
the Southeast Asian nations with the requisite technology to monitor 
Chinese activities in the South China Sea and with appropriate military 
capabilities to protect their maritime interests; and (6) clearly 
declaring that U.S. security guarantees would apply to those islands 
that the United States believes are rightly claimed or controlled by 
its allies.
    Even as the administration considers reorienting policy in this 
direction, it should challenge China's excessive maritime claims by 
vigorously pursuing Freedom of Navigation Operations (FONOPS)--air and 
surface--within 12 nautical miles of these Chinese-occupied features. 
Once the president concludes that such operations are necessary to 
uphold the principle of unfettered access to the open ocean, the 
conduct of these operations--their form, timing, and duration--should 
be left to the discretion of the PACOM Commander with the expectation 
that these activities, conducted either unilaterally or in 
collaboration with U.S. allies, will be frequent enough to become 
routine. There is a danger currently that the Trump administration, 
focused as it is on securing Chinese pressure on North Korea, might 
sacrifice United States FONOPS in the South China Sea for fear of 
alienating Beijing. This would be a mistake. The probability that China 
will actually apply ``merciless intimidation . . . to force Mr. Kim 
[Jong-Un] to scrap his nuclear ambitions'' is low to begin with because 
China will continue to avoid any actions that might precipitate chaos 
along its border with North Korea. Moreover, as James Kynge astutely 
noted, ``for Beijing, the priority remains keeping North Korea viable 
enough to forestall the feared specter of United States troops pressed 
up against the Yalu river border between China and North Korea'' (James 
Kynge, ``A Reckless North Korea Remains China's Useful Ally,'' 
Financial Times, April 19, 2017). Consequently, the administration 
should not make regular FONOPS in the South China Sea hostage to its 
hopes for Chinese cooperation on North Korea. To the contrary, FONOPS 
should be managed just as Sensitive Reconnaissance Operations (SRO) 
currently are: they should be regular, unpublicized, undertaken at the 
discretion of the PACOM Commander, and not tied to any specific Chinese 
behaviors elsewhere.
    The key point worth underscoring here is that American pushback in 
the South China Sea is long overdue if Washington is to protect the 
operational rights associated with maritime access and freedom of 
navigation, which are ultimately dependent on the hegemonic power of 
the United States: absent the preservation of U.S. military superiority 
and its willingness to use that capability to protect the global 
commons, the customary rights relating to freedom of navigation that 
Washington has taken for granted--thanks to the inheritance of many 
centuries of Western preeminence--will slowly atrophy to the long-term 
peril of the United States.
                  reinvigorating u.s. power projection
    The second task--and in many ways the operational predicate of the 
first objective--consists of reinvigorating the capacity of the U.S. 
joint force for effective power projection. Where the United States is 
concerned, both global primacy and regional preeminence in Asia 
essentially hinge on its ability to bring power to bear on far-flung 
battlefields, sustain its expeditionary forces at great distances for 
significant periods of time, and defeat its adversaries despite their 
local advantages. Given China's rapid military modernization in recent 
decades, these tasks demand having sufficient high-quality forward-
deployed forces capable of providing effective local deterrence while 
being able to ferry additional reinforcements across the vast Pacific 
without being either defeated en route or at their terminus offshore.
    China's anti-access/area denial capabilities--utilizing a mixed 
force of short-and medium-range land-based ballistic missiles, tactical 
air power, and missile-equipped surface and subsurface vessels--were 
initially oriented toward mainly defeating U.S. Forces that either 
operated or appeared off its coastline. As China's operational reach 
has increased, however, it is increasingly focused on targeting United 
States Forces well into the rear, long before they get into the 
littorals, in order to thin the components that are actually capable of 
reaching China's maritime peripheries. The capabilities China is 
developing and deploying for this purpose include intermediate-range 
ballistic missiles with precision payloads capable of reaching targets 
as far as Guam, bombers and strike-fighters with long-range cruise 
missiles, and new generation nuclear submarines armed with both 
advanced torpedoes and long-range cruise missiles.
    Parenthetically, it is worth noting that most of the Chinese land-
based ballistic and cruise missiles developed for this rear targeting 
mission--weapons with ranges between 500 to 5,500 kilometers--cannot be 
matched by the United States because of the limitations imposed by the 
Intermediate-Range Nuclear Forces (INF) Treaty, which binds Washington 
but not Beijing. As a result, United States Forces have to generate 
firepower primarily through expensive air and maritime platforms, while 
China can produce equivalent effects through myriad land-based systems 
that are relatively inexpensive. Whether continued compliance with the 
INF Treaty in regard to conventional missiles remains in United States 
interest, given evolving developments in the Indo-Pacific and Russia's 
own compliance problems with this agreement, is something that deserves 
fresh scrutiny.
    In any event, the emerging Chinese capacity to interdict United 
States targets deep in the rear implies that if American preeminence in 
the Indo-Pacific is to be sustained, the United States joint force will 
have to win both the power projection fight in close proximity to the 
Chinese mainland and the sea and air control contest that will play out 
en route to its final theater objectives. There are myriad 
complications on both counts. Some of the more significant and oft-
cited challenges include but are not limited to: the prevalence of 
relatively short-legged tactical aircraft in the United States joint 
force when a much larger stealthy bomber force is required; the range 
limitations of the best United States air-to-air missiles in comparison 
to new Russian and Chinese weapons; the increased risks to United 
States and allied air and naval bases in close proximity to China; the 
new hazards to major United States surface combatants emanating from 
Chinese anti-ship ballistic missiles; the growing dangers to both 
United States space systems and high-value combat support aircraft from 
Chinese counterspace technologies and Chinese offensive counterair 
platforms operating in the vicinity of its frontiers respectively; the 
shortages of advanced munitions in the U.S. inventory; the range, 
speed, and lethality limitations of U.S. anti-ship missiles in most 
scenarios where organic naval aviation is unavailable; and the cost-
effectiveness of current ballistic missile defenses in the face of the 
burgeoning Chinese missile threat.
    Beyond these technical challenges, the United States military also 
has to relearn the art of securing sea and air control from a 
formidable adversary that can now contest the maritime and air domains 
for the first time since the heyday of the Soviet Union. Until the rise 
of China as a military power, the United States could concentrate 
effortlessly on power projection because most of its adversaries were 
unable to contest American dominance of the seas and the skies. China's 
renewed ability to mount serious challenges in these realms through, 
for example, open ocean submarine warfare, counterspace operations, and 
sophisticated air defense and airborne strike warfare operations, 
implies that the United States joint force has to now retake control of 
the surface, air, and electronic media even as it concentrates on how 
best to close in and defeat the adversary at its own frontiers.
    All these challenges are well understood by the U.S. military, 
which has focused much attention on developing the technological and 
operational antidotes for dealing with them. What is needed, however, 
are the resources to support both critical near-term investments aimed 
at mitigating the threat and revolutionary long-term investments to 
reinvigorate American capacity for effective power projection. The 
near-term efforts relating to mitigation, which should receive both 
administration support and congressional funding, would focus on 
improving force resiliency by enabling a more dispersed deployment 
posture (e.g., increasing the number of runways, fuel and munitions 
storage facilities, and maintenance capabilities at new operating sites 
throughout the region and at varying distances from China); remedying 
shortfalls in critical munitions (such as the MK-48 torpedo, the Long 
Range Anti-Ship Missile, and the SM-6 missile for air and missile 
defense and surface warfare); increasing logistics agility so as to 
improve interoperability in combined operations as well as to swing 
U.S. Forces more effectively; increasing joint training and exercises 
(including logistics exercises to enhance PACOM's ability to surge 
forces into its area of responsibility); and increasing the forces 
deployed in the theater (such as relocating additional attack 
submarines to Guam, more fifth-generation fighters to Alaska and/or to 
Japan, and deploying more amphibious ships forward to Sasebo and/or 
Guam). In sum, the near-term solutions must focus simultaneously on 
increasing close-in United States combat power without compromising its 
survivability, while also developing more distant infrastructure in 
order to complicate Chinese targeting in wartime.
    Beyond the near-term fixes, however, protecting the viability of 
U.S. power projection capabilities over the longer term will require 
more dramatic innovations. Simply attempting to do what is done today 
with more of the same technologies and concepts--even if these are 
incrementally improved-- is insufficient. This approach will leave the 
United States at the wrong end of the cost-effectiveness equation, will 
not substantially improve the prospects of operational success, and as 
a result will finally consign power projection to military--and, more 
significantly, to political-- irrelevance with grave consequences for 
the U.S. ability to maintain its global primacy.
    The long-term solutions to restoring the credibility of U.S. power 
projection require involved discussion that cannot be undertaken here, 
but Robert Martinage's persuasive work on this subject (Robert 
Martinage, Toward A New Offset Strategy, Center for Strategic and 
Budgetary Assessments, Washington, D.C., 2014) suggests avenues that 
are worth exploring. On the assumption that the United States will 
continue in the immediate future to enjoy significant advantages in the 
areas of unmanned operations, long-range air operations, low-observable 
air operations, undersea warfare, and complex systems engineering and 
integration, Martinage has argued that the United States should recast 
its power projection force--or at least that component that will bear 
the brunt of early forcible entry operations--to emphasize long-range, 
stealthy, unmanned platforms capable of carrying heavy payloads 
(supported by organic electronic warfare capabilities and the global 
sensor network), along with substantially expanded undersea strike 
capabilities. These platforms would permit the joint force to 
dramatically turn the tables on the counter-intervention investments 
now being made by America's adversaries: if stealthy, unmanned, long-
range platforms could undertake the tasks of surveillance, 
communications, refueling, and attack, they would permit the United 
States to more effectively project power where required at far lower 
risk. Exploring and implementing such transformational solutions, which 
the ``Third Offset'' initiative initially intended, should be an urgent 
priority for the Congress, the Department of Defense, and the armed 
services. Support for this initiative should remain bipartisan and the 
program should be accelerated by the Trump administration with a view 
to rapidly integrating revolutionary technologies into the joint force.
       strengthening alliances and building partner capabilities
    The third task in regard to protecting United States regional 
preeminence in the face of China's rise consists of strengthening U.S. 
alliances and building up the capabilities of friendly partners 
throughout the Indo-Pacific. If there is any region of the world where 
no proof of the value of America's allies is needed, the Asian rimlands 
would be it.
    To begin, the simple facts of geography: whatever China's oceanic 
ambitions may be, its maritime frontiers are enclosed by island chains 
that are controlled by significant powers either allied with or 
friendly to the United States. Their territories, which often host a 
United States military presence, can therefore be utilized by the 
United States to hem in Chinese military power if Washington pursues 
appropriate polices toward that end.
    Moreover, the major allies or friends in Northeast Asia (Japan and 
South Korea), in Oceania (Australia), and in South Asia (India), are 
all powerful entities in their own right--they carry their own weight 
and cannot be considered financial burdens on the United States, given 
Washington's own larger interests in Asia.
    Finally, most of America's allies and friends in the region, 
including the smaller states of Southeast Asia, desire to protect their 
own strategic autonomy vis-a-vis China. They often lack the critical 
military capabilities necessary to produce that outcome independently; 
however, they are open to working with the United States to balance the 
rise of Chinese power so long as Washington is seen to be consistently 
engaged and temperate in its policies. The stronger regional states, 
such as Japan and India, will in fact balance China independently of 
the United States but could use a helping hand to ensure their success.
    The upshot of these realities, therefore, is that Washington faces 
a fundamentally congenial geopolitical environment in maritime Asia as 
far as its grand strategic objective of preserving regional preeminence 
is concerned: most nations in the Indo-Pacific region want the United 
States to remain the dominant Asian power and are willing to 
collaborate with Washington toward that end so long as they are assured 
that the United States will both protect them and behave responsibly. 
Ever since the end of the Second World War, however, the security 
partnership between the United States and the various Asian states has 
been entirely unidirectional: Washington guarantees their security 
without their having any obligations toward directly enhancing U.S. 
security in return. One key alliance, however, that with Japan, has now 
evolved in a direction where Tokyo is actively seeking ways to assist 
the United States in crisis contingencies. This evolution is entirely 
positive and should in time become the model for America's other 
partnerships in the wider region.
    The Committee is already well aware of the many distinct and 
complex challenges faced by the United States in each of the three 
major sub-regions of the IndoPacific--Northeast Asia, Southeast Asia, 
and South Asia and the Indian Ocean. I would like to highlight six 
major issues that must be addressed if the task of strengthening 
alliances and building partner capabilities is to be satisfactorily 
realized.
    First, the vexing question of how best to aid Taiwan through 
military sales and training--as mandated by the Taiwan Relations Act--
cannot be put off much longer. The Obama administration did not fulfill 
its obligations adequately in this respect; neither did Taiwan in 
regard to maintaining its defense budget at at least three percent of 
its gross domestic product. As a result, Taiwan's capacity to blunt 
Chinese aggression, already weak to begin with, has further atrophied. 
If the objectives of aiding Taiwan's defense, however, are to raise the 
costs of Chinese aggression and to buy time for United States 
diplomatic or military intervention, the cause is by no means lost. But 
it will require an expeditious transfer of advanced military equipment, 
such as strike-fighter aircraft, air-to-air and anti-ship missiles, 
mobile surface-to-air missile systems, naval mines, and tactical 
surveillance capabilities, among other things. Taiwan will also have to 
accelerate its own investments in passive defenses so as to improve its 
resiliency, and increased training as well as enhanced strategic and 
operational coordination with the United States as just as imperative. 
The object of all these investments, obviously, is to strengthen 
deterrence and prevent the island from being forced to make choices 
regarding unification under coercion or the threat of force. Advancing 
that aim today however requires integrating Taiwan more closely into 
United States intelligence collection efforts vis-a-vis China, 
increasing interoperability between Taiwanese forces and the United 
States military components designated for cooperative military 
operations, and encouraging the United States defense industry to more 
actively participate in Taiwan's military development and acquisition 
programs.
    Second, the United States must now respond to China's anti-access 
and area denial investments not simply by developing programs to 
neutralize them--which are well underway--but also by seizing the 
initiative to complicate China's own freedom of action within and 
around the ``first island chain.'' There is no better way to do this 
than by encouraging and assisting U.S. allies and friends to develop 
anti-access and area denial ``bubbles'' of their own in areas that are 
especially conducive to such strategies. The geography of the Indo-
Pacific rimlands not only makes such a strategy feasible but actually 
attractive as U.S. partners could with modest external assistance 
develop the surveillance, targeting, and command and control 
infrastructure required to support mobile land-based anti-ship cruise 
missile batteries--all of which are readily available on the 
international market--that could be deployed athwart all the 
chokepoints in and around the ``first island chain.'' Thus, Japan and 
South Korea could constrain Chinese movements through the Korea 
Straits; Japan, with missiles based in Kyushu, Okinawa, and the Ryukyu 
Islands, could bottle Chinese vessels in the East China Sea--a mission 
that would be further enhanced if Taiwan were added into the mix; the 
Philippines and Taiwan could similarly constrain movement through the 
Luzon Straits, just as the Philippines and Indonesia could control 
access to the Sulu and Celebes seas; finally, Indonesia could control 
access through the Lombok, Sunda, and Malacca Straits, with India 
joining in the last mission as well. More ambitious denial strategies 
would involve surface-to-air missile deployments or naval mining, 
depending on the intensity of the effort desired. As the real 
inhibitions to such efforts will be more political than technical, 
exploration of these efforts with various U.S. partners is long 
overdue. Even if (or when) these can be overcome, such local denial 
efforts will not be a substitute for the United States' own investments 
in developing interdiction capabilities designed to exploit the 
region's favorable geography, which is far more advantageous to the 
United States than the GreenlandIceland-United Kingdom gap ever was 
during the Cold War.
    Third, partly because the regional states are uncertain about the 
robustness of the U.S. commitment and partly because they seek to 
preserve a certain measure of autonomy, the key regional actors such as 
Japan, Australia, and India have embarked on a deliberate effort at 
balancing by increased security cooperation among themselves. 
Washington should strongly support these efforts even when it is not 
actively involved. Although a permanent ``quadrilateral'' engagement 
involving the United States is desirable, it may take some time to 
materialize because Indian-Australian relations have not yet reached 
the level of comfort and intimacy now visible in Japanese-Indian ties. 
This fact notwithstanding, the United States should actively encourage 
consultations, exercises, liaison relationships, and even defense 
procurement among any combination of partners within this ``quad.'' 
Should these regional states end up conducting cooperative military 
operations, even if only for constabulary missions to begin with, 
Washington should be prepared to offer tangible operational support in 
order to ensure success for all concerned. The key objective here is to 
increase the levels of comfort enjoyed by each state with all others in 
the ``quad,'' and to encourage deeper security cooperation that 
strengthens the larger United States objective of balancing Chinese 
power in Asia.
    Fourth, although the Southeast Asian states represent the weakest 
node along the Indo-Pacific rimlands where China is concerned, they 
should not be neglected by the United States. Instead, Washington 
should make special efforts to strengthen the key regional players in 
their efforts to preserve their security and autonomy in the face of 
significant Chinese blandishments and pressure. PACOM's theater 
engagement plan is highly sensible in this regard, focusing as it does 
on assisting the regional constituents with their own immediate 
security problems such as terrorism, maritime security, humanitarian 
assistance, and training and proficiency building. The United States is 
already fortunate to have deep levels of defense cooperation with 
Australia and Singapore. Although difficulties with the Philippines 
persist, there are limits to President Rodrigo Duterte's accommodation 
with China--and the United States should be present when Manila is 
ready to take a different course. Deepening bilateral ties to include 
arms sales are important for states such as Vietnam and Indonesia, but 
staying engaged with the increasingly divided ASEAN--and other 
multilateral organizations in the Indo-Pacific--is vital because it 
limits the potential for Chinese intimidation. At a time when there are 
frequent low-level confrontations between the Southeast Asian states 
and Chinese maritime power, a consistent level of United States naval 
activity in the region--especially in the South China Sea--is also 
especially important.
    Fifth, the Trump administration must continue the transformation of 
United States-India relations undertaken by its two immediate 
predecessors because India is a vital element in the Asian balance of 
power and, along with Japan, remains one of the key bookends for 
managing the rise of China. The importance of strong United States-
India ties goes beyond merely abstract geopolitical balancing today and 
is in fact increasingly an operational imperative. With the increasing 
Chinese naval presence in the Indian Ocean since at least 2008 and the 
likelihood of its acquiring ``logistical facilities'' in Djibouti and 
Gwader, Chinese naval operations--which are likely to be eventually 
supported by new anti-access and area denial capabilities based out of 
southwestern China and oriented toward aiding interdiction activities 
in the northern Indian Ocean--could one day interfere with United 
States naval movements from the Persian Gulf or from Diego Garcia into 
the Pacific; as such, closer United States-Indian cooperation in regard 
to surveillance of Chinese naval actions in the Indian Ocean is highly 
desirable. Both Washington and New Delhi have now agreed to cooperate 
in tracking Chinese submarine operations in the area, and both nations 
should discuss the possibilities of enhanced mutual access for 
transitory rotations of maritime patrol aircraft. In general, United 
States policy should move toward confirming a commitment to building up 
India's military capabilities so as to enable it to independently 
defeat any coercive stratagems China may pursue along New Delhi's 
landward and maritime frontiers, thereby easing the burdens on 
Washington's ``forward defense'' posture in other parts of the Indo-
Pacific.
    Sixth, the United States must take more seriously the strategic 
challenges posed by China's OBOR initiative. To date, Washington has 
addressed this effort only absentmindedly, given its preoccupation 
until recently with the Trans-Pacific Partnership. The scale of the 
OBOR program is indeed mindboggling: the China Development Bank alone 
is expected to underwrite some 900 components of the initiative at a 
cost of close to a trillion dollars; other funders, such as the China 
Development Bank and the Export-Import Bank of China will commit 
additional resources, with the anticipated cumulative investment 
eventually reaching anywhere from $4 to $8 trillion. Even if the 
project ultimately falls short of these ambitions, there is little 
doubt that the enhanced connectivity it proposes--linking China with 
greater Eurasia through new road, rail, and shipping connections--has 
significant strategic implications for Beijing's power projection in 
the widest sense. Thus far, the economic dimensions--and the political 
daring--underlying this effort have received great attention to the 
relative neglect of its geostrategic consequences for China's rise as a 
global power, political competition within Asia, the impact on 
America's regional friends and allies, and United States military 
operations in and around Eurasia. The United States Congress should 
remedy this lacuna by tasking the Department of Defense to undertake a 
comprehensive examination of China's OBOR initiative with an eye to 
examining its impact on the economies and politics of key participating 
states, China's ability to expand the reach of its military operations, 
and China's capacity to deepen its foreign relations and strategic ties 
in critical areas of the Indo-Pacific. Even as this understanding is 
developed, the United States should look for ways to provide the Asian 
states with alternative options to China's OBOR, even if initially only 
on a smaller scale. The United States-Japan Initiative for Quality 
Infrastructure in Southeast Asia is one such idea that deserves serious 
support because it marries Japanese finance and manufacturing 
technology with American design and engineering expertise to provide 
the smaller Asian states with high quality infrastructure while 
building capacity in the recipient nations--unlike China's OBOR scheme 
which is mainly intended to support China's indigenous industry abroad 
as economic growth slows at home.
                               conclusion
    As the United States considers various issues connected to the 
adequacy of its defense posture in the Indo-Pacific, it should view 
China not merely as a regional but as an emerging global strategic 
competitor. To be sure, the region is rife with other challenges, but 
besides the nuclear threats posed by North Korea only the emergence of 
China as a major military rival falls into the category of ``clear and 
present dangers'' where American interests in Asia are concerned. 
Moreover, unlike the challenges posed by North Korea and even Russia--
which are ultimately rooted in weakness-- the dangers emerging from 
China's coercive capabilities are problematic precisely because they 
arise from strength and are hence likely to be far more enduring. 
Coping with this challenge will require the United States to build up 
its military capabilities. It specifically obliges the United States to 
revitalize its capacity for power projection in different ways, while 
deepening security cooperation with both its established allies and 
other friendly powers in Asia. Despite the recent increases in Chinese 
military power, the United States enjoys enormous advantages--economic, 
technological, geographic, and coalitional--in regard to preserving its 
global and regional primacy, but it needs to focus on these goals with 
deliberation and resolution. The security of the United States and that 
of its allies ultimately depends on it.

    Chairman McCain. Thank you very much, Dr. Tellis.
    Would the witnesses agree that the abandonment of TPP was 
one of the biggest mistakes we have made?
    Dr. Cha?
    Dr. Cha. Yes, I saw TPP as not just being a trade agreement 
but having broader strategic implications. It is one of the 
three legs that United States stands on in Asia, in addition to 
our military presence and our values. So it is quite 
unfortunate, yes.
    Chairman McCain. Dr. Friedberg?
    Dr. Friedberg. I agree. In addition to the harmful effects 
of not going forward with the agreement, the signal that it 
sent I think was deeply damaging. So the fact that we placed 
such emphasis on it, talked about it, tried to persuade others 
to do it, encouraged others, including I think in particular 
our friends and allies in Japan to go out on limbs themselves 
to try to persuade their legislatures to accept this agreement, 
and then pulled the rug out, it really was a perfect storm, it 
seems to me, and very damaging. It is going to take a while, I 
think, to work our way back from that setback.
    Ms. Magsamen. Yes, because a Sinocentric economic order in 
Asia is not in our interests, so, yes, I agree it was a 
disaster.
    It is also, actually, having practical effects on our 
security. It is making it harder for us to engage with 
countries about access agreements, because the Chinese are in 
there essentially lining pockets and promising lots of 
investments in infrastructure, et cetera. So it is making our 
job on the defense side a lot harder.
    Dr. Tellis. I agree completely with my fellow panelists. 
Withdrawal from TPP was both unfortunate and dangerous. I would 
flag three reasons for this.
    First, the business of Asia is business. If we cannot 
engage in matters that are really important the to Asian 
states, enhancing their own prosperity, our inability to 
enhance their security will also be diminished. That is point 
number one.
    Point number two, we really cannot cede to the Chinese the 
ability to create new rules for trade in Asia. TPP offered us 
the opportunity to create gold standard rules, and we have now 
divested ourselves of that opportunity.
    Three, between TPP and TTIP [Transatlantic Trade and 
Investment Partnership], there was every promise that we could 
add close to 1 percent to U.S. GDP growth through trade. Even 
if you believe in America first, you do need to find ways of 
enhancing our global growth, and trade offers a great 
opportunity.
    Chairman McCain. Right now, we have increasing tensions, as 
we all know, between us and North Korea, with the most unstable 
ruler that they have had. The testing of nuclear weapons, I 
think as Dr. Cha pointed out, and missile capability, has 
dramatically escalated.
    Yet, at the same time, we have North Korean artillery in 
place, at a degree where at least they could launch one attack 
that would strike Seoul, a city of 25 million people, as I 
recall. Obviously, the key to some of this is China. China had 
taken some very small steps as far as coal is concerned, but 
they have never taken any real steps to restrain North Korean 
activity.
    So it seems to me that we are probably in one of the most 
challenging situations since the Cuban Missile Crisis, in some 
respects, certainly not exact parallels, but maybe it rhymes a 
bit.
    Dr. Cha?
    Dr. Cha. I think that is a very accurate assessment of the 
situation. There is nothing that I see that suggests that North 
Korea is going to slow down the pace of its testing. In fact, I 
think it is going to increase, given the elections in South 
Korea.
    China still subsidizes, even if they cut coal, they still 
subsidize 85 percent of North Korea's external trade. So China 
is definitely part of the solution in trying to stop North 
Korea, but it is also part of the problem, as you suggest, in 
that they are not willing to really put the sort of pressure 
that will impose economic costs on North Korea for going down 
this path.
    Dr. Friedberg. China has been playing a game with us for at 
least 15 years on this issue. When we get especially concerned 
about what the North Koreans are doing, and we go to the 
Chinese and we ask them for their help, what they have done in 
the past is to apply limited increments of pressure. They did 
it in 2003 to get the North Koreans to agree to sit down in 
what became the Six Party talks. But at the same time, almost 
simultaneously, as Victor suggests, they are enabling the North 
Korean regime to continue by allowing continued economic 
exchange across their border.
    The Chinese have also allowed--or the Chinese authorities 
have at least looked aside as Chinese-based companies have 
exported to North Korea components that were essential to the 
development of their ballistic missiles and probably other 
parts of their special weapons programs.
    I am not at all optimistic that the Chinese are going to 
play a different game with us now than they did in the past.
    One thing I would add, though, aside from military 
pressure, which for reasons that you suggest, Senator McCain, 
are I think of questionable plausibility, there are ways in 
which we could increase economic pressure on the North Korea 
regime, particularly by imposing further economic sanctions and 
especially financial sanctions. We did that in the Bush 
administration. I think it was actually something that caused a 
good deal of pain. We backed away from it for various reasons. 
I think it was a mistake to have done that.
    One of the reasons, in my understanding, that we have not 
been willing to push on this harder is that it probably would 
involve sanctioning entities that are based in China. I think 
we have been reluctant to do that because of our concerns about 
upsetting the relationship with China.
    I think if we are going to be serious about this, we 
probably are going to have to go down that road.
    Chairman McCain. The military option being extremely 
challenging.
    Dr. Friedberg. Yes. I was in government in 2003-2005. At 
that time, my understanding was it really was not--there was no 
way of dealing with the conventional counter-deterrent that the 
North Koreans had. I do not have any reason to think that it 
has gotten better. Moreover, the nuclear targets themselves 
have become more numerous.
    North Koreans are starting to develop mobile ballistic 
missiles. The problem of preempting or attacking in a 
preventive way and destroying North Korean nuclear capability 
is only getting worse, I would think. Nothing really has been 
done to deal with the conventional threat to South Korea.
    Chairman McCain. Ms. Magsamen?
    Ms. Magsamen. I agree on the China front. I think there are 
going to be limits to what they are going to be willing to do. 
Their biggest fear, of course, is destabilizing the peninsula.
    Now is the time to try to make China understand that the 
status quo is worse for them than all other scenarios. To do 
that, I think we need to hold their interests at risk. What I 
mean by that is somewhat of what Dr. Friedberg said, which is 
we really need to think hard about secondary sanctions on 
Chinese banks.
    I actually think we should to go out and do it now. I do 
not think we should actually wait. I do not think that holding 
it in abeyance is actually going to induce Chinese cooperation. 
So now is the time to demonstrate to China that we are serious 
in that regard.
    Chairman McCain. By the way, I agree with the witnesses 
about the importance of the United States-India relationship, 
which is something that I think has enormous potential as well.
    Dr. Tellis?
    Dr. Tellis. I concur with what has been said before on the 
challenges with North Korea. I think China has to make a 
strategic decision. If the current status quo serves its 
interests, and it seems to, because it immunizes China from the 
threat of chaos, it provides a buffer between the United States 
military presence and the Chinese border, so if this status quo 
continues to advance Chinese interests, there is a small 
likelihood that they will be more helpful to us with respect to 
managing North Korea.
    So the issue for decision in China is whether the Trump 
administration's increased pressure might change the game 
sufficiently that the threat of war becomes real enough for 
China to move. To that degree, I think creating this head of 
steam, which the administration seems to be making an effort 
toward, would actually be helpful, because it might motivate 
the Chinese to cross lines they have not crossed before.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you for your excellent testimony.
    Dr. Cha, just a quick point. You suggest that, at the 
conclusion of the election, whoever emerges victorious will 
take a harder line on the North Koreans. They will not open up 
the facility across the border, et cetera. Is that matched by 
the rhetoric? Some impressions we are getting are that it is a 
race to who is the most sensitive to the issues, not the most 
bellicose.
    Dr. Cha. Thank you for the question.
    I think certainly the political spectrum has shifted in 
Korea during this 7-month impeachment crisis further to the 
left, or left of center, if you will. The leading candidates 
all seem to espouse views that call for more engagement with 
North Korea.
    But I think that often what is said in campaigns is very 
different from when the individual takes office on the first 
day.
    Senator Reed. You have noticed?
    Dr. Cha. I think in the case of South Korea, they will find 
that they will be in a position where their primary ally, the 
United States, is not of similar mind, neither is the partner 
across the sea, Japan. Arguably, China is not in that position 
as well.
    So while I do not think engagement is necessarily 
completely wrong with North Korea, but now is not the time. 
When I was in government, we were dealing with a progressive 
government in South Korea. We fully respected the fact that 
they were interested in engaging North Korea, but there was a 
right time for it, and a wrong time for it, not just by United 
States policy preference but by what would be deemed effective 
engagement. I think the previous government understood that, I 
would imagine that the next government in South Korea would as 
well.
    Senator Reed. Let me ask you all a question, beginning with 
Dr. Tellis. There is deep skepticism that the Chinese will 
apply economic pressure of a significant degree to compel 
changes in behavior. A variation on that is that, even if they 
did, do you believe that the North Korean regime would abandon 
their missile programs and their nuclear programs?
    Dr. Tellis. I do not believe that to be the case. I believe 
the North Korean regime will continue to persist with its 
nuclear program because it sees that as indispensable to its 
own survival. I also do not believe that China will exert the 
kind of pressure required to force the North Korean regime to 
make those kinds of fundamental changes.
    Senator Reed. So that leaves us at what point in the 
future?
    Dr. Tellis. We essentially have to prepare for a North 
Korean capability that will ultimately reach the United States, 
and if it comes to that point, we have only one of two choices. 
We continue to hope in the reliability of deterrence, which is 
dangerous because of the unpredictability of this regime, or we 
will be forced into military actions, which will be extremely 
costly and painful.
    Senator Reed. Ms. Magsamen?
    Ms. Magsamen. No, I do not think Kim Jong-un is going to 
voluntarily give up his nuclear weapons, even with significant 
Chinese pressure. I also agree that the Chinese are not going 
to go as far as we need them to go to make that strategic 
choice.
    Where that leaves us is essentially what I said earlier, 
which is, after increasing the pressure, running the China 
play, we do need to think carefully about whether or not we 
should proceed with a diplomatic effort to limit the program as 
best we can, because I think we are going to face a very stark 
choice at some point in the future, probably in the next 5 
years, about an ICBM [intercontinental ballastic missile] 
reaching the United States.
    That is going to present some pretty stark choices, so I 
think our challenge now is to find a way to avoid having to 
make that choice at the end.
    Senator Reed. Dr. Friedberg, please?
    Dr. Friedberg. I do not think, first, that the Chinese will 
apply all the pressure that they could conceivably apply. In 
part, for that reason, I do not think that it is likely that 
the North Korean regime would agree to give up their programs. 
It seems to me that some years ago, it might have been possible 
to put the leadership in a position where we could make them an 
offer where they could not refuse, where they really felt that 
their own personal survival was at stake. I think we are past 
that point.
    So I agree with both my colleagues on two points. One, the 
question now it seems to me is, are there things we can do, 
working with China, perhaps, to try to slow down the progress 
of the North Korean program? So if they do not test as often as 
they have tested, presumably that will make it more difficult 
for them, eventually, to field reliable capability, testing 
both weapons and missiles.
    It is not inconceivable, I think, that the Chinese might 
join with us in applying sufficient pressure to try to slow 
that down. I think that is the best we can hope for.
    Then the question is, how do we prepare to defend against 
this? There is, in the long run, I hesitate to use this term 
because it has fallen into disfavor for good and bad reasons, 
but the ultimate solution to this problem is regime change.
    Unless and until there is a change in the character in the 
North Korean regime, and certainly the identity of the current 
leadership, there is absolutely no prospect that I can see that 
this problem will get better. I do not think there is any 
active way in which we can promote that, but we ought to think 
about what conditions might lead, eventually, to that kind of 
change.
    Senator Reed. Dr. Cha, finally.
    Dr. Cha. I agree with my colleagues. I do not think Chinese 
pressure will necessarily stop North Korea's program. But I 
think what Chinese pressure can do is force the North Koreans 
back to the negotiating table.
    The theory of the case of that that is, I think in 2003, 
when China temporarily cut off oil, the North Koreans agreed to 
the Six Party talks, and then again in 2007, when the Treasury 
Department undertook actions that led to a seizure of North 
Korean assets in a bank in China, that clearly put a lot of 
pressure on the regime, and they came back to implement an 
agreement. So I think there is precedent there.
    I entirely agree with my colleagues that I am not sure how 
much China is willing to put that kind of pressure on North 
Korea, but one could argue that the situation is a little bit 
different now because the Chinese are desperate for some sort 
of diplomacy to take place. They really do not understand what 
President Trump might do, and they feel they have no control 
over North Korea, so they may be more receptive than they were 
in the past.
    Senator Reed. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, these hearings are very significant. We get 
people like you, and there is no more qualified panel we could 
have to advise us and to reflect on it. But also, these are 
public meetings, and I see the other value is informing the 
public of things that we assume up here they already know 
about. I would like to concentrate on just North Korea, because 
I have always had this bias that this is really where the 
serious problem is.
    We are talking about two things here. We are talking about 
their development and the technology over a period of time, 
developing a bomb, a weapon, and then secondly, a delivery 
system. Just real quickly, let me run over that.
    In the delivery system, North Korea, it goes all the way 
back to the 1970s. In the 1970s, they had the Scud B, and 
everybody remembers that. They forgot that for a couple 
decades.
    Along came 1990, their first No-dong missile. The test fire 
range 1,300 kilometers. Then a few years later, in 2006, the 
Taepodong-2 long-range missile had the capability of traveling 
1,500 miles. Then firing of the Taepodong missile, which they 
said was satellite-launched.
    December 2012, North Korea launches a rocket that puts 
their first satellite into space. We have watched their 
progress all the way through to 2016, when North Korea launches 
a solid fuel ballistic missile from a submarine.
    Then lastly, Kim Jong-un declares that North Korea is in 
its final stage in preparation to test an intercontinental 
ballistic missile.
    You see what they have done in that period of time. I have 
to almost conclude that the guy really means it when he comes 
out with a statement.
    But then going back to the bomb, in 2006, we had one, an 
explosion, that was 1 kiloton. In 2009, that was up to 2 
kilotons. In 2013, it went to a third nuclear test. It was an 
atomic bomb with an estimated explosion of 6.27 kilotons. Then, 
finally, September 9, 2016, is the fifth and latest nuclear 
test. It registered 5.3 in magnitude, with an explosive yield 
estimated between 10 and 30 kilotons, which is about the same 
as it was in Hiroshima, in Nagasaki, and 10 times stronger than 
what North Korea was able to do 10 years before.
    So you have gone, over that period of time--when we talk to 
the military, and we will have them in on Thursday, I 
understand, I know that they will say that the two big problems 
that distinguish the threat that comes from North Korea from 
other threats is that, first of all, you are talking about a 
mentally deranged guy who is making the decisions, and, 
secondly, this country has been more consistent in both 
developing its weapon and the delivery system. You come to the 
conclusion that, as I have come to, that I believe that there 
is an argument that it can pose the greatest threat to the 
United States.
    I would like to get a response, if you would, Dr. Cha, to, 
first of all, are we accurate in terms of that technological 
development over that period of time? Does that relate to the 
threat?
    Dr. Cha. Thank you, Senator.
    I think what you just described is entirely accurate in 
terms of a systematic plan by the North Koreans over the past 
decades to develop a capability that seeks to threaten the 
United States Homeland. I think there is no doubt about it, 
that that is what they are after.
    As I mentioned earlier, they have done 71 of these tests 
since 2009, which is a step increase from what we have seen in 
the past. They have done seven tests since the election of our 
current President. They have over 700 Scud missiles, 200 to 300 
No-dong missiles. The pace of their development and history of 
their development shows that they want to be able not to just 
field one missile that can potentially range the United States, 
but a whole slew of them.
    So this is a very proximate threat. You are absolutely 
right, Senator.
    Senator Inhofe. Any other comments on that?
    Is it completely unreasonable that, as a result of this, we 
can consider North Korea as the greatest threat facing the 
United States?
    Dr. Friedberg?
    Dr. Friedberg. I think it certainly is the most imminent. I 
do not know that it is the greatest in terms of its magnitude 
in the long run, as Dr. Tellis said. I think China presents a 
greater challenge. But, certainly, it is the most imminent.
    One thing to add, just to make the picture even worse, it 
is conceivable that the North Korean leadership may believe not 
only as they acquire these capabilities that they are going to 
be able to extort more economic goods from the world, and not 
only that they are going to deter action against them, but that 
they might believe at some point they really had an option for 
reuniting the peninsula. They might believe that Japan would be 
deterred by the threat of attack on bases on its soil from 
allowing the United States to use it as their rear area to 
support operations on the peninsula. They might believe that 
the United States would be deterred from coming to the----
    Senator Inhofe. My time has expired, but the military also 
says that it is the unpredictability that we have there. 
Everything else is pretty predictable. We all look back 
wistfully at the days, some do, anyway, I do, at the Cold War 
when things were predictable. We knew what they had. They knew 
what we had. Mutually assured destruction meant something. It 
does not mean anything anymore.
    Unpredictability is what the military is going to tell us 
on Thursday is the major problem that they have with North 
Korea.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    So given all of that discussion, and given that the 
neighboring problem, China, continues to be very aggressive, so 
you are advising us as policymakers, as people who pass 
appropriations bills, what to do, so what to do to deter North 
Korea and further Chinese aggressiveness?
    Ms. Magsamen. So this gets back to a point earlier. We 
really need to double down on our regional ballistic missiles 
defense. THAAD on the peninsula was an important step, but 
there is more to be done. I think, for example, we can consider 
putting THAAD in Japan. I think there are additional 
deterrents, things we can also do with the Japanese and the 
Koreans together, whether it is more operational cooperation in 
the air and on the sea. We should consider a whole range of 
options, even including potentially strengthening our extended 
deterrence commitments to the Koreans by potentially rotating 
dual-capable aircraft to the peninsula, which would be a big 
move.
    So there are additional things I think we can do on the 
deterrence side and the posture side that would be particularly 
relevant and applicable to the threat.
    Senator Nelson. But you do not think that that would deter 
the North Korean leader, do you, from continuing this 
development of nuclear weapons, missiles, and then marrying a 
nuclear weapon to a long-range ICBM?
    Ms. Magsamen. No, Senator, I do not, but I do think it 
would help reassure our allies and also put us in a better 
position in the event diplomacy fails.
    Senator Nelson. Do any of you have any reason to think that 
diplomacy would succeed with this North Korean leader?
    Dr. Tellis. Even if it does not, we cannot do anything else 
without exhausting the alternatives offered by diplomacy, 
because dealing with North Korea, at the end of the day, will 
require a coalition effort, and we have to satisfy the 
expectations of our coalition partners that we have made every 
effort in the interim to deal with the challenge. So we have to 
think of it in terms of a multistep game.
    As Dr. Cha highlighted, the immediate objective should be 
to get the North Korean regime back to the negotiation table. 
The ultimate objective must be to hope that there will be 
evolutionary change in the regime. But between those two 
bookends, we have to think seriously about what is required for 
deterrence, what is required for defense, and what is required 
for denial.
    Senator Nelson. Anybody else?
    Dr. Cha. Senator, the only thing I would add to the list 
that Kelly enumerated is that I think those sorts of posture 
moves and strengthening of deterrence in defense, they are good 
for our allies. They certainly increase the cost for China of 
allowing the situation to continue as it is and might make them 
more receptive to putting pressure on the regime.
    In the end, the problem we have is that North Korea feels 
no pain for the direction they are going. Their people are 
feeling pain, but they do not care about their people. So the 
immediate tactical effort is to try to get the regime to feel 
the pain, and that requires China to stop subsidizing 85 
percent of North Korea's external trade as well as some of 
their leadership funding.
    So that is the proximate tactical goal to try to at least 
get some leverage on the issue, because, right now, we have 
none.
    Senator Nelson. Describe the aftermath if we saw that he 
was readying an ICBM that could reach the U.S., Alaska, Hawaii, 
and we decided to preemptively take out the assets that we knew 
where they were, which is more difficult because they are now 
moveable. Describe the aftermath of what would happen. What 
would be their retaliation?
    Dr. Friedberg. Well, we do not know for sure, but I think 
the assumption for several decades has been that they would 
begin with a massive artillery barrage against Seoul, which is 
within range across the demilitarized zone. The North Koreans 
have for years exercised and tested special operations forces, 
chemical and biological weapons.
    The fear would be that they would unleash all of this. I do 
not know that they would, necessarily, because the next step 
would be the annihilation of the North Korean regime. But the 
fear is that that is their capability and they might.
    Just a note on that, I am not a psychiatrist, so I would 
not want to judge the current leader's sanity or lack of 
sanity, but it does seem to me that North Korean leaders have 
been rational in their behavior. It sometimes appears odd, and 
it is very threatening, but is purposeful, and it has been 
consistent.
    I think for that reason, it is important also to remain 
focused on what it is that would probably deter them, which is 
the threat of personal annihilation. So the threat of we and 
our South Korean allies would, if we needed to, and could 
destroy the regime and destroy the leadership. I think that is 
a message that they understand.
    Ms. Magsamen. Just to add to the question on the aftermath, 
we have 28,500 U.S. troops on the peninsula. That is just the 
troops. That is not their families. So there are thousands, 
hundreds of thousands of dependents, in addition to the 
Koreans. Japan is within range, so I think Japan would take a 
hit, potentially.
    There would be significant economic impact, frankly, to war 
on the peninsula, which I do not think anyone is talking about.
    The regional actors, like the Chinese, would move in. They 
would not sit on the sidelines and watch the United States try 
to rearrange the peninsula in their favor. They would certainly 
try to intervene at some point. That could also have 
catastrophic consequences.
    So in terms of the aftermath of a U.S. strike, there are 
particularly high costs.
    Dr. Tellis. If I may just add to that, obviously, the most 
confident thing we can say is that we do not know how the 
regime would respond. But I think it would depend on whether 
they saw the strike as a discrete effort made at resolving a 
specific problem or whether that is a leading edge of a larger 
effort at replacing the regime itself.
    If it was seen as a discrete effort aimed at resolving a 
specific program, one can hope that their response would be 
more restrained. But if it is seen as the leading edge of an 
effort to replace the regime, then I think all hell breaks 
loose.
    At this point, whichever the choices are, I agree with Ms. 
Magsamen completely, the Chinese cannot afford to sit on the 
sidelines, because it undermines their core interests of 
preventing the rise of chaos on their frontiers and keeping the 
United States and its military forces as far away as possible 
from their borders.
    Those two variables change dramatically if the United 
States engages in military action in the peninsula.
    Dr. Cha. Senator, just to add to this very quickly, all I 
will say is that I think it is absolutely true that the North 
Korean dictator's number one goal is survival. If the United 
States were to carry out a strike, the North Koreans may feel 
like the only way to survive is to respond, retaliate, as my 
colleagues have suggested, what would follow from that.
    The other way to think about it is that if they do not 
respond, that could also threaten the survival of the 
leadership and the regime.
    I am still looking for the intelligence analysts who can 
tell me which of these things the North Korean leader will do, 
because I have not been able to find one yet.
    Chairman McCain. Senator Wicker?
    Senator Wicker. But Senator Nelson described a situation in 
which our government is almost certain that a strike is 
imminent. In that case, and I will start with Dr. Tellis, if 
our response was a discrete strike to prevent that, might it 
not be worth it?
    Dr. Tellis. First, I do not know the basis for the judgment 
that there is a danger that is imminent. But if we assume the 
premise of your question, it may be worth it if we can be 
assured two things. One, that the North Korean response will be 
limited and that the effects of our strikes will be permanent. 
That is, we will be able to cap the North Korean capability at 
some level and not go beyond, and, two, that the Chinese will 
actually intervene in ways to force the North Koreans to reach 
some sort of a diplomatic understanding.
    I am not confident that either of those two conditions 
would actually be obtained.
    Senator Wicker. Rather than have all of you respond to 
that, I will take that answer.
    Dr. Friedberg, you say the United States does not have a 
coherent integrated national strategy for the Asia-Pacific. 
Instead, all we have are the remnants of a 2-decades-old 
strategy. Yet, the Defense Department's 2012 strategic guidance 
says we will, out of necessity, rebalance toward the Asia-
Pacific region, and the QDR [Quadrennial Defense Review] 2 
years earlier said essentially the same thing.
    Was rebalance to Asia-Pacific words only?
    Dr. Friedberg. Well, with deference to my colleague who 
worked hard on making it happen, I do not think it was words 
only, but the ratio of words to deeds I think was not what it 
should have been. We talked a lot. We did some things. We did 
not do nearly enough for a variety of reasons.
    I think the previous administration was preoccupied, it 
became preoccupied with other problems in the Middle East, with 
Russia, continuing constraints on defense spending.
    Senator Wicker. Some issues arose outside Asia-Pacific.
    Dr. Friedberg. Yes.
    Senator Wicker. To our surprise.
    Dr. Friedberg. Yes. This continuing budget constraint.
    So I think, for a variety of reasons, not enough was done.
    I agree that the general concept, the idea that we need to 
focus more of our resources on the Asia-Pacific, was the right 
one. Many of the things that the previous administration 
started I think were worthy. But for various reasons, they did 
not or were not able to follow through adequately.
    Senator Wicker. Let me shift, then, back to North Korea. 
There has been mention of regime change. I would like any of 
you to comment about the scenario in which that might happen.
    Also, Dr. Tellis mentioned evolutionary change within the 
regime. I suppose you could say at the end of the Cold War, 
there was certainly an evolutionary change in Moscow, which 
gave us hope for a little while.
    But what do we know about the decision-making process 
within the regime in North Korea? Who has a good understanding, 
if not the United States, about the decision-making team 
surrounding Kim Jong-un?
    I will start with you, Dr. Friedberg.
    Dr. Friedberg. I do not think our knowledge is very good. I 
think the assumption of most people is that the decision-making 
is concentrated very heavily in the hands of the current leader 
and maybe a small circle around of people around him.
    As far as this evolutionary versus revolutionary, in the 
latter part of the Kim Jong-il regime, and I think at the very 
beginning of the Kim Jong-un regime, there were people who 
hoped that there might be a greater willingness to open up. The 
Chinese I think had some hopes that they might be able to 
persuade the North Korean leadership to follow a path more 
similar to their own, retaining tight political control, but 
opening up economically.
    I think the Chinese may also have had some hopes that there 
were people around the new leader who they could influence. 
Many of those people have been executed by Kim Jong-un, I think 
precisely because he feared that they were Chinese agents of 
influence.
    So the prospects for evolutionary change seem grim, in part 
for the reason that Dr. Cha mentioned. I think this has been a 
mistaken assumption at times that people in the outside world 
have made, that if we offered the right kind of inducements to 
the regime, in particular if we offered economic inducements, 
the opportunity to join the world, to improve the livelihood of 
North Korean citizens, and so on, we could somehow influence 
their policies.
    The problem is the leadership does not care about those 
things and does not value those things and sees openings as 
threatening.
    So I do not see much prospect for evolutionary change of 
this particular leader.
    Senator Wicker. Any other panelists have observations about 
the decision-making team?
    Dr. Cha. I think right now it is almost wholly in the hands 
of this one individual. I think there were others in the past 
who were around him, but, as Aaron said, they have been 
systematically executed.
    The level of purging inside the system is unprecedented, 
not just at the highest levels but also at the military army 
chief of staff, deputy chief of staff level. There has been 
unprecedented fluidity there as well.
    So all of this suggests that there is significant churn 
inside the system and that the leadership is facing certain 
challenges, and he is dealing with them in one way, which is 
just to purge everybody.
    The Chinese would have had the best insight into what is 
going on inside of North Korea, but I think that after the 
leader executed his uncle, the Chinese have lost really all 
windows into North Korea.
    I think it is a mistake. I mean, we often hear in the press 
about how the Chinese are upset with the North Koreans; that is 
why there are no high-level meetings. We actually did a study 
on this, looking at all Chinese-North Korean exchanges going 
back to Kim il-sung and Mao. The difference today is that there 
are no exchanges, but it is because the North Koreans do not 
want to talk to the Chinese. They are not interested in talking 
to the Chinese, to the United States, or to anybody else. That 
is what is so worrying about the current situation.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all very much for being here.
    You have all pointed out that China does not want to see 
instability on the Korean Peninsula, that it is not in their 
interest.
    Dr. Cha, you pointed out that China is not willing to take 
action--I think maybe everybody has made that point--against 
North Korea. Do you then agree with Dr. Tellis that the more 
uncertain they are about the potential for President Trump and 
the United States to engage in war on the peninsula, the more 
likely they would be to weigh in and to try to help address the 
North Korean situation?
    Dr. Cha. Yes, Senator. I mean, an argument could be made, I 
think, that in terms of what is a decades-old United States 
entreaties for China to do more, that there may be marginally 
more leverage today than there has been in the past, largely 
because I think the Chinese feel the situation is getting out 
of control, and I think they feel like they do not have any 
ability to manage either side, the United States or North 
Korea. I think Xi Jinping wants a good relationship with the 
United States President, and this United States President does 
seem to signal at least some unpredictability when it comes to 
North Korea.
    So in that sense, I think we might have marginally more 
leverage than in the past. But again, it is all tactical. It is 
not a strategy yet, where we are right now.
    Senator Shaheen. I think I would probably feel better if I 
thought what we were doing right now was part of a strategy 
toward North Korea and Asia.
    In that context, what does a mess-up like we had with the 
Carl Vinson carrier strike group do in terms of the signals 
that we might be trying to be send to China and to our allies 
and to everybody in Asia about what our intentions are?
    Ms. Magsamen?
    Ms. Magsamen. I will say that was a pretty big screw-up. I 
also think it really undermined our credibility among our 
allies, the fact that you are seeing South Korean commentators 
and politicians commenting about that, about how it shows the 
United States is not reliable.
    I think it is an unfortunate incident. I do not know how it 
happened and how it occurred. I would be curious to hear what 
Admiral Harris has to say about that on Thursday. But it had a 
serious effect.
    It was kind of, you know, in Texas, we have a saying, all 
hat, no cattle. So you do not want to show up with all hat and 
no cattle.
    Senator Shaheen. Everybody I assume agrees with that?
    Along those lines of how we can better send signals about 
what our intents are, what does it say to both our allies and 
our adversaries in Asia that right now we are not able to get a 
budget agreement here domestically, that we have divisions in 
Congress about how we are going to fund defense in the next 
year? What kind of messages does that send to those people for 
whom we want to project strength?
    Dr. Friedberg, I think you mentioned that, when you were 
talking about what our allies are looking at in the United 
States versus China.
    Dr. Friedberg. Yes. Well, it does not help. On the other 
hand, it is not entirely new, so people have been watching us 
and the unfolding of our political process for a while.
    I think there is an undercurrent of concern, which has been 
present for some time, about our reliability and our staying 
power and our capacity to mobilize the necessary resources to 
do the things that we have been talking about doing.
    I do think that those concerns have grown since our 
election or during the course of our election campaign and 
since the election, because, at least in terms of rhetoric, the 
current administration, or candidate Trump before he became 
President, raised questions about all of the essential aspects 
of our global posture, our alliances, our commitment to free 
trade, our commitment to universal values and so on.
    Now it may be in the long run that the policies that he 
follows will not deviate as much as the rhetoric seems to 
suggest. But all of that I think has added to the sense of 
anxiety about where the United States is going that many in the 
region feel.
    On the other hand, there is this growing concern about 
China.
    Senator Shaheen. Along the lines of escalated rhetoric, to 
what extent does that escalation of rhetoric against North 
Korea then produce a response in North Korea that not only 
heightens the situation but provides attention that Kim Jong-un 
may be interested in having from the world?
    Dr. Friedberg. I think there is a window. There is only so 
much unpredictability that you can pull off. There is some 
leverage that may come from appearing to be willing to do 
things that perhaps seemed unlikely before.
    That is I think one of the reasons why, in 2003, the 
Chinese did step in. It was right at the time of the run-up to 
the war in Iraq. We were still hurting from 9/11. There was a 
perception that the United States might do all kinds of things 
to reduce the threat.
    Similarly, now, because of the rhetoric and behavior of the 
new administration, I think there is a moment at which there is 
a lot of uncertainty. The Chinese are not sure. The North 
Koreans are not.
    I suspect that has a half-life. It is going to diminish 
over time. I think that is what the Chinese are playing for, 
waiting to see. I am not sure that they really believe, at the 
end of the day, that for all of the tough talk, we are actually 
going to do something as risky as launch an attack on the North 
Koreans in the near term.
    Whether the North Koreans believe that or not is another 
question.
    Senator Shaheen. Thank you.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    I appreciate the panel's wise counsel on a lot of these 
very important issues. Let me talk about the issue I know a 
number of you brought up, about the importance of our allies in 
the region and globally, but particularly in this region.
    Would you all agree that one of the most important 
strategic advantages that we have as a Nation is that we are an 
ally-rich country and that our adversaries or potential 
adversaries, whether it is China or Russia or North Korea or 
Iran, are ally-poor? Would you all agree with that?
    Ms. Magsamen. Yes, absolutely. On the strategic balance 
sheet of assets and liabilities, our alliances are certainly on 
the asset column.
    Senator Sullivan. That the countries that do not have all 
the allies are consistently trying to undermine our alliances, 
whether it is China or Russia? Would you agree with that?
    Let me ask a kind of broad-based question. A number of us 
try to get out to the region a lot. We go to the Shangri-La 
Dialogue on a regular basis. There is always this discussion 
about how China has this great long-term strategic vision, and 
they have the ability to see around the corners of history, and 
we do not that capability.
    But when you are in the region, it certainly seems that 
their aggressive actions in the South China Sea are actually 
driving countries away from them toward us. This is not just 
our traditional allies, but it is countries like Vietnam, 
countries like India.
    So I think initially, I certainly and I think some of our 
colleagues here had some concerns about whether the Trump 
administration fully understood this strategic advantage when 
you watched the campaign. But now that they are in office, 
whether it is General Mattis' first trip as SECDEF [Secretary 
of Defense] to the region or the Vice President's trip that he 
is finishing up here to the Asia-Pacific, it certainly seems 
like they are focused on it.
    But are we doing enough? What more can we be doing to 
bolster this very, very important strategic advantage we have 
with regard to our deep network of allies, deepening it, 
expanding it, and making sure the Chinese do not try to 
fracture it? What more can we be doing?
    I will open that up to anybody.
    Dr. Tellis. I think we need to be doing at least two things 
to start.
    First, we need to publicly commit to protecting the regime 
that we have built in Asia over the last 60 years, that this 
regime is not open for negotiations, that the United States 
will not walk away.
    Senator Sullivan. So we need to put out red lines. The 
Chinese put out red lines on Taiwan, on Tibet. But yet, we do 
not seem to put out our own strategic red lines in the region. 
So you are saying, with regard to our alliances, we should make 
that a strategic red line.
    Dr. Tellis. Absolutely. The second thing we need to do is 
we need to think of our alliances in exactly the way you 
described, as assets, not liabilities.
    The third thing that I would emphasize is that the U.S. 
needs to avoid appearing wobbly. To the degree that we create 
uncertainties about our commitments to the region, it only 
opens the door for the Chinese to do exactly what you 
described.
    Senator Sullivan. Any other thoughts on allies, real quick 
before I turn to my next subject?
    Ms. Magsamen. Certainly, consistency is key. Clarity of 
message from the United States is key. Bipartisanship on Asia 
policy is important.
    Senator Sullivan. I think you have it, for the most part.
    Ms. Magsamen. I think it is actually pretty good, 
initiatives like the Maritime Security Initiative that this 
committee initiated the last couple of years, those kinds of 
physical demonstrations of American commitment and interest in 
the region.
    But also, really, the United States needs to present an 
actual vision and a strategy. I think at the heart of that, our 
goal needs to be that we want to ensure that the region is able 
to make choices on the economic side and on the security side 
independent of coercion. That, for a lot of countries in the 
region, is the key.
    Senator Sullivan. Dr. Cha, I will let you address this 
first.
    But speaking of coercion and allies, the issue of China's 
actions in the South China Sea have been a concern of many of 
us on this committee. Secretary Carter put forward a good 
policy. We will fly, sail, operate anywhere international law 
allows. The problem was the execution, in my view, was weak. It 
was inconsistent. It undermined credibility.
    This committee seemingly had to push, push, and push. When 
they actually did do their first FONOP [Freedome of Navigation 
Operations], they seemed embarrassed about it. The Secretary of 
Defense was right here. He would not even admit it to the 
chairman.
    So what do we need to do with regard to FONOPs? My view is 
they should be regular, so they are not newsworthy, and they 
should be done, as possible, in coordination with our allies. 
They not be done in terms of the way the Obama administration 
did them with regard to innocent passage. We are nothing asking 
for innocent passage. We do not recognize these built-up land 
masses.
    So what should we be doing to make sure we do not fall in 
the trap--good policy, bad execution, undermine our 
credibility, in my view. With the new administration, what 
should we be doing on our policy with regard to FONOPs?
    Dr. Cha, we will start with you, sir.
    Dr. Cha. Well, I think, Senator, you provided the solution 
right there, which is that we need to approach these things as 
standard, as nonpolitical, as not big statements of policy. We 
should just do them quietly and----
    Senator Sullivan. We have been doing them for 70 years, 
right?
    Dr. Cha.--on a consistent basis. Absolutely.
    If I could say, on your other question, I think I just 
finished writing a book on the history of the United States 
alliances in Asia. They are very unique, historical assets, as 
Dr. Friedberg said.
    The only thing I would add to everything my colleagues 
mentioned is that we need to network better our alliances. 
These are largely bilateral hub and spokes, and we need to 
build a tire around that hub and spokes, whether it is in terms 
of missile defense or collective security statements. Things of 
that nature would be great value added for our alliances.
    Senator Sullivan. Great. Anyone else on the FONOPs?
    I look forward to reading your book, by the way.
    Dr. Cha. I will send you a copy.
    Ms. Magsamen. So just quickly, on the FONOPs, I completely 
agree. They need to be more regular. If we make them more 
regular, then they become a little less piqued every time we do 
them. But they cannot be the measure of our strategy in the 
South China Sea.
    Freedom of navigation and overflight are important to 
preserve, but it cannot be the entire strategy that we have. So 
we need to think about the long game. That goes back to the 
maritime security capacity-building initiatives that we have.
    It also means we need a real regional diplomatic strategy 
on the South China Sea, so that the Arbitral Tribunal ruling 
actually has effect. That is where we actually missed a huge 
opportunity last year was with the ruling and not really 
pursuing a real diplomatic effort at the regional level. We 
kind backed off from it, tried to calm the waters, which was 
important at the time. But we never really followed through 
with an actual diplomatic game.
    Dr. Tellis. I think we need to do three other things.
    The first is, we need to conduct FONOP operations at the 
discretion of the PACOM commander. I do not think they should 
be centrally controlled from Washington. That gets you to where 
you want, which is regular, unpublicized, so on and so forth.
    The second is we need to stay away from innocent passage, 
because the moment you talk about innocent passage, you are 
actually reaffirming a particular Chinese view of its rights 
under UNCLOS [United Nations Convention on the Law of the Sea], 
which we have never accepted and which the Western world, in 
terms of the freedom of the seas, has never accepted. So we 
need to stay away from that like the plague.
    The third is, as part of the strategy, we need to provide 
tangible reassurance to our partners, which means actually 
building up their capacity to stand up to coercion, which might 
mean enhanced training, which might mean providing them with 
weapons required, and ultimately backing it up with a constant 
U.S. naval presence in the area. Now, it does not have to be 
every day, but it has to be regular enough that the regional 
states begin to feel comfortable that the U.S. is at least 
always around the corner.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. [Presiding.] On behalf of Chairman McCain, 
Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I would like to focus on our chairman's focus on this part 
of the world. He has proposed a budget, an appropriation 
amount. So this has to do with APSI [Asian-Pacific Stability 
Initiative]. So $7.5 billion of new military funding for U.S. 
Forces.
    Perhaps this is a question for Ms. Magsamen and possibly 
one for Dr. Cha.
    So United States Forces and their allies in the Asia-
Pacific, and these funds could be used, as the chairman noted 
in his opening, to boost operational military construction, 
increase munition procurement, enhance capacity-building with 
allies and partners, and expand military exercises and other 
training activities to help combat the movement toward 
basically Chinese influence throughout the Asia-Pacific region.
    So, Ms. Magsamen, how can this fund, this money and this 
initiative, impact the U.S. role in the region? How can we 
incorporate this initiative into a larger, more holistic Asia 
strategy that includes maintaining regional stability and 
improving diplomatic ties?
    Ms. Magsamen. Certainly. I am supportive of the initiative 
in part because we need to stem the bleeding. We are woefully 
behind in terms of what we need to be doing in the Pacific in 
terms of our presence and our capabilities, our ability to fill 
critical munition gaps, prepare runways that are going to be 
necessary in the event of a conflict. I mean, it is stuff like 
that. This initiative I actually think is hugely valuable and 
fills a very important budgetary gap for the Pacific. So I 
would be supportive of it.
    But I think it goes back to the larger point of the United 
States needs to be seen strategically as investing in this part 
of the world. There is signaling value. Beyond just the regular 
value, the actual value of the initiative, there is signaling 
value to the initiative as well, in terms of our commitment to 
peace and security in the region, and our willingness to make 
the actual investments to make that possible.
    I think the region would perceive it very well. I think our 
allies, if we were able to use that kind of funding to do more 
work, to network the allies and partners, as Victor was 
suggesting, in this principled security network, is what we 
called it in the Obama administration. But the reality is we 
need more funding. We need more presence and capability.
    Dr. Cha. Senator?
    Senator Hirono. Dr. Cha, you are a Korea expert. How 
important is it to utilize a whole-of-government approach to 
maintaining stability in the region, recognizing full well that 
we do not have very much information about what goes on in Kim 
Jong-un's mind, and it is hard enough, it is challenging enough 
regarding our complicated relationship with China.
    So in terms of stability in this part of the world, would 
you also support this initiative, by the way, APSI, and how we 
can do a more whole-of-government approach?
    Dr. Cha. I think those two questions are completely 
connected to each other in the sense that our effectiveness in 
being able to get China to do more, or to signal to North Korea 
the credibility of our deterrence, or any of our policies, 
greatly depends on whether the region sees us as committing to 
it and having staying power.
    As Aaron mentioned in his testimony, there is a grand game 
taking place in Asia today where the Chinese are trying to 
erode United States credibility, reliability, and resiliency in 
the region, and replacing it with the fact that they are there, 
they are big, and they have a lot of money in their pocket.
    Senator Hirono. They really do engage in a whole-of-
government approach in this area.
    Dr. Cha. Yes. So there could not be a single, more 
important signal of United States staying power in the region 
than something like APSI that is investing in the things that 
constitute the United States security presence in Asia.
    I think that will then redound positively in terms of the 
credibility of our North Korean policy, the credibility of what 
we say to China.
    Senator Hirono. Would all of you agree that maybe our 
staying power is really continuing to show up? So I think it 
was important for Secretary Mattis to visit Japan and South 
Korea as his first official secretarial duties. But the 
continual emphasis and showing up part of the message that we 
have a commitment to this part of the world is an important 
aspect, as well as the practical parts about funding and 
resources? Would you agree, all of you?
    Ms. Magsamen, you mentioned the Carl Vinson issue, that 
that was a big screw-up. So how is the United States viewed 
right now in this part of the world? You can respond as well as 
the other panelists, very briefly.
    Ms. Magsamen. Well, I would not say the Vinson issue should 
be determinative of how we are viewed in the region. But our 
credibility is our currency. So the minute you undertake 
actions that undermine credibility, that has a profound effect 
in the region in terms of how we are perceived.
    The Vinson was just one incident. I am sure there are very 
good reasons for why it happened. But the reality is it created 
a perception of lack of credibility.
    Senator Hirono. So if we have a range--I hope you do not 
mind, Mr. Chairman--a range that we are viewed credibly of 1 to 
5, 5 being we are viewed credibly, where would you put the 
United States for how that part of the world views us, 
including the Philippines, South Korea, Japan, Australia? Where 
would we fall in terms of our credibility, 1 to 5, 5 being the 
highest credibility?
    Ms. Magsamen. I think that is a question for them.
    Senator Hirono. Well, give me a number.
    Ms. Magsamen. I think the United States has been a credible 
power in the Pacific. The question now is, can we continue to 
be one?
    Senator Hirono. Anyone want to weigh in very briefly? Just 
give me a number.
    Dr. Cha. I would say that we were probably below 3. But 
then we have seen a series of trips by the administration with 
Secretaries Mattis and Tillerson, the Vice President. I think 
that helped to send a very positive signal to the region, 
taking us over that threshold.
    Senator Hirono. All right. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. [Presiding.] Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Thank you to each of the witnesses for being here. I think 
the importance of the Asia-Pacific region has been well-
highlighted by this testimony and also by the well-justified 
public focus on the threat of North Korea.
    I want to start by focusing on North Korea specifically and 
ask the panel to assess the following hypothetical, which is, 
if tensions were to escalate to the point of a targeted 
military strike against North Korea's nuclear facilities, how 
would the witnesses assess the probabilities of four potential 
outcomes: one, a retaliatory strike with North Korean nuclear 
weapons; two, a retaliatory strike with North Korean 
conventional weapons; three, the attack precipitating a 
collapse of the North Korean regime; and, four, the attack 
precipitating direct Chinese military intervention?
    I would ask it to any of the witnesses on the panel.
    Dr. Friedberg. I think it would depend I guess in part on 
exactly the character of the strike. We had talked a little bit 
about that earlier, whether the regime would perceive it as 
something that was intended to be surgical or as the forerunner 
for an attempt to overthrow it. Obviously, the more the regime 
worries that the United States and South Koreans are coming to 
get them, the more likely it is that they will let loose and--
--
    Senator Cruz. Let's assume the strike was targeted at 
taking out nuclear facilities.
    Dr. Friedberg. I do not think the prospect in the near term 
of collapse would be very great because there would not be 
anything directly that had been done to weaken the regime. I 
would think the likelihood of conventional response would be 
very high. I would put the likelihood of a nuclear response 
somewhat lower, because then all bets would be off.
    As far as Chinese intervention, I would think that that 
would be unlikely unless and until the Chinese leadership 
believed that the regime was about to collapse and North Korea 
was about to fragment, and South Korea and the United States 
were moving forces toward their border. I do not think they 
would do it unless those conditions had been met.
    Dr. Cha. Senator, I used to think that the response would 
be conventional, that they have 10,000 artillery pieces, that 
they would use those.
    But these days, looking at the character of North Korean 
missile testing, my guess is that the response would actually 
be on Japan to try to split the United States-Korea alliance 
from the United States-Japan alliance, because at least the 
character of their testing recently has been focused on 
demonstrating an ability to target with ballistic missiles all 
United States bases in Japan, flying missiles within 200 
kilometers of the Japanese shoreline.
    So that is what I think they would do. I am not clear if 
the attack itself, as you describe it, would be able to 
eliminate all of their nuclear facilities, because I do not 
think we know where they all are.
    Ms. Magsamen. I would agree with Victor. I think they would 
definitely go after Japan.
    I disagree a little bit about Aaron on the Chinese 
intervention point. I actually do think the Chinese could 
potentially try to intervene just to preserve stability on 
their flank. What that looks like and how that materializes, I 
do not know. But I do not think that the Chinese would sit 
back, even if it was a targeted strike.
    Now the thing that would change that might be whether or 
not, in advance, we could get the Chinese to hold back. But I 
still have extreme doubts that they would do that.
    Dr. Tellis. I suspect the likelihood of a nuclear 
retaliatory response is relatively low, because we would still 
have the capacity to have escalation dominance in that 
scenario.
    I think a conventional retaliation is inevitable. It would 
be aimed both at South Korea and Japan in order to communicate 
the credibility of the North Korean leadership and its 
determination to protect its survival as well as to split the 
alliance.
    The key question about China really hinges on whether the 
Chinese see the targeted attack as really being the first phase 
of air-ground action to follow. If they perceive air-ground 
action to follow, then it is almost certain that they would 
intervene to try and prevent this from escalating further.
    Senator Cruz. In your assessment, short of military action, 
how much positive impact could China have in reining in North 
Korean hostilities? What would it take for China to exercise 
its influence and end power?
    Dr. Cha. Well, I think we are talking about China going 
someplace it has never been before. Unfortunately, I think the 
only way that is going to happen is if they think that the 
United States is going to go someplace it has never been 
before.
    I think, based on my experience as a negotiator on this 
issue in previous administrations, I feel that the only time 
China ever responds is not in response to anything North Korea 
does because they just assume that is a constant. It is the 
variation in United States behavior is what they take notice 
of, and what I think the current administration is trying to 
leverage right now.
    Senator Cruz. So what United States behavior do you see as 
maximizing China's beneficial influence on North Korea?
    Dr. Cha. I think the United States right now is trying to 
signal a combination of muscularity, unpredictability, and 
decisiveness all at the same time, largely because they feel 
like the past administration was 8 years of predictability and 
indecisiveness. That is a hard thing to manage. I think it is 
hard to manage all those things, because they are conflicting 
signals. But they seem to be trying to walk that line right 
now.
    Dr. Friedberg. If you ask what would be the outer limit of 
what China could do, assuming that it was willing to do almost 
anything, it could bring the North Korean economy to its knees. 
It is pretty close to that already. It could cut off the flows 
of funds that go across the border into North Korea partly from 
the so-called elicit activities North Koreans engage in. It 
could interdict components that flow into North Korea through 
China that support the special weapons programs. It could do a 
lot.
    Now the question is what might induce them to do that. It 
seems there are a number of possibilities. One is the prospect 
that the United States was, as Victor suggests, going to do 
something really drastic that could have catastrophic 
consequences. They would have to believe that. I do not think 
at this point they do.
    Another possibility would be somehow to persuade them that 
the entire relationship with the United States was on the line, 
including, in particular, the economic relationship, and we 
were willing to do things that imposed costs and pain on China 
that would be so great that it would be a danger to the Chinese 
regime, and, therefore, they might do something that we would 
want them to do to pressure North Korea.
    I do not think we are willing to do that, but it is 
theoretically possible.
    Senator Cruz. Thank you very much.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you to our panelists for a very interesting 
discussion here.
    Actually, I want to pick up on the comment about the 
economic relations between these two countries. It seems to me, 
between us and China, that this is a new paradigm when it comes 
to international relations, in that we are dealing with a 
country that we actually have very close economic relations 
with, and it is not a situation where you can impose sanctions 
on China and not have some of that blow back on the United 
States. We are not talking about unequal partners here in the 
equation.
    When you think about the conflict with the Soviet Union 
back in those days, we had a closed economy, not really tied to 
the United States That was a completely different dynamic.
    I think some of the thinking, and I heard about a change in 
strategy from each of the panelists, that in the past, we 
thought about engaging in trade and engagement, that would 
actually liberalize the Chinese culture or the society. That 
has not been the case. That theory did not play out.
    Also the theory is, if you are more engaged in trade and 
more engaged in engagement, you are less likely to have an 
armed conflict. Is that theory not going to play out in China 
as well?
    Maybe if the panelists could talk a little bit about how we 
have this mutual dependence between China and the United 
States, and how that limits some of the tools that we have in 
order to engage with the Chinese with some of these behaviors 
that are becoming quite troublesome to our national security?
    Dr. Friedberg. I think you are right that it is a new 
paradigm but it is not unique historically. In fact, what is 
usual was the situation that prevailed during the Cold War 
where we engaged with strategic competition with the Soviet 
Union but traded very little with them.
    Historically, it has been more typical for countries to 
have both economic relations and strategic interactions, and it 
has not always prevented war. Before the First World War, 
Britain and Germany were one another's leading or close to 
leading trading and investment partners. But in the end, 
geopolitics overwhelmed economics.
    The other thing I would say is that the economic 
relationship between the United States and China is not 
entirely equal. In certain respects, it appears that China has 
been getting the better side of that deal. The Chinese have 
also been exploiting the relationship to promote not only the 
growth of their economy but the development of their military 
capabilities.
    The last thing I would say is that I think, in the long 
run, the Chinese hope to diminish their dependence on economic 
interaction with the United States so as to increase their 
strategic independence. They cannot entirely eliminate it, but 
I think they believe they passed through a period when, in 
fact, they were so dependent on American capital and American 
markets that they were constrained strategically. They would 
like to move away from that in the long run.
    Ms. Magsamen. I would just add a couple points.
    I think it would be a mistake to set the bilateral 
relationship with China above our interests. We cannot make the 
preservation of that relationship our objective. So that is the 
first point, which I think it has created complications for 
American policy on China for quite some time now.
    The second thing I would say is that we should avoid issue 
linkage in the relationship. I think that is very dangerous. 
For example, getting the Chinese to put pressure on North 
Korea, therefore, we back off on the South China Sea or pick 
another issue like Taiwan. That would be a tremendous mistake, 
because the region is watching that and they are looking for 
signs the Americans are going to sacrifice their interests.
    So in the context of the broader relationship, I think your 
point is right. It is a big relationship that has a lot 
elements of competition and cooperation. But we have to be 
clear-eyed about what our actual interests are in the context 
of that.
    Dr. Tellis. Let me just add one other point to that.
    Security competition is complicated in the context of 
economic interdependence. There is no getting away from that. 
The fact is the balance of risks that North Korea poses to the 
United States and China are different. The risks to the United 
States as a result of North Korean behavior are far greater.
    Where the balance of interests are concerned, they are 
parallel. China has an interest in avoiding an explosion on the 
peninsula. The United States has a comparable interest.
    So because the balance of risks are greater for us, I think 
it really behooves China to do whatever they can to push the 
North Koreans at least in the near term to the negotiating 
table, and then give diplomacy a chance to figure out what can 
be put in place to at least buy some time until we can get our 
hands around more permanent sorts of solutions.
    Dr. Cha. Senator, the only thing I would add to these very 
good comments is that you mentioned in your question the role 
that potentially greater economic independence could have in 
mollifying state policies in the region. I think while many of 
us teach those theories in the classroom, what has been very 
clear in Asia is that China's growing economic interaction in 
the region has not had a mollifying impact on their foreign 
policy. It has actually made them leverage economic tools to 
their benefit in very draconian ways. Whether it is economic 
sanctions against South Korea over THAAD [Terminal High 
Altitude Areal Defense] or it is tropical fruits from the 
Philippines or it is rare earth minerals to Japan, there is a 
very clear pattern of how China uses economic leverage, uses 
economic interdependence in ways that one would not consider 
very productive for overall peace and security in the region.
    Senator Peters. Thank you very much.
    Chairman McCain. Senator Graham?
    Senator Graham. Dr. Cha, if nothing changes, is it just a 
matter of time until North Korea has an ICBM that can hit 
America with a nuclear weapon on top?
    Dr. Cha. Yes, sir, I think that is true. It is just a 
matter of time, if nothing changes.
    Senator Graham. Why do they want to achieve that goal?
    Dr. Cha. I think there are a couple of reasons. One is a 
desire for their own domestic narrative. This current leader 
has none of the mythology of his father or grandfather, so he 
needs some big thing that he can point to because he does not 
have the economy or anything else to point to.
    The other is that it is part of a military strategy to be 
able to deter the United States from flowing forces and aiding 
allies in the region.
    Senator Graham. Do all of you agree with that assessment?
    Let the record reflect a positive response.
    So in many ways, the Korean War is not over for North Korea 
in their own minds? Is that fair to say?
    Dr. Cha. I think that is right, sir.
    Senator Graham. I mean, they literally believe that we are 
going to come in on any given day and take their country away 
from them? Is that fair to say?
    Dr. Cha. I certainly think that is the justification to 
their own audience of what they are pursuing, yes.
    Senator Graham. How would you say the regime treats its own 
people on a scale of 1 to 10, 10 being very bad?
    Dr. Cha. One hundred. I think it is about the worst human 
rights violator in the world today.
    Senator Graham. So here is the dilemma for the United 
States. We have the worst human rights violator in the world 
about to acquire a missile to hit the American Homeland. Do you 
trust North Korea not to use it one day?
    Dr. Cha. I think there is always hope that deterrence 
works, as it had worked during the Cold War. But that assumes 
rationality on the part of all actors, and we cannot assume 
that in North Korea's case.
    Senator Graham. In terms of threats to the United States 
coming from Asia, what would be greater than North Korea with a 
missile and a nuclear weapon that could hit the Homeland?
    Dr. Cha. I cannot think of a more proximate threat to our 
security, at this point.
    Senator Graham. Do you believe that if the North Koreans 
believe that military force is not an option to stop their 
missile program, they will most certainly move forward?
    Dr. Cha. I will be happy to give my colleagues a chance to 
answer, but I think that----
    Senator Graham. Dr. Tellis, is that true?
    Dr. Tellis. I believe that is true, sir.
    Senator Graham. Everybody believe that?
    I believe that is true too, because if I were them, why 
would you? Because if you get there, you have an insurance 
policy, I guess, for regime survivability.
    All of you agree that China has the most leverage of 
anybody in the world regarding North Korea. Is that a fair 
statement?
    Is it fair to say they have not fully utilized that 
leverage up to this point?
    Do you believe that if China believed we would use military 
force to stop their missile program from maturing, they may use 
more leverage?
    Affirmative answer.
    What do you believe North Korea's view of the Trump 
administration and China's view of the Trump administration is 
regarding the use of force? Is it too early to tell? What are 
your initial impressions?
    Dr. Friedberg. I think it is too early to tell.
    From the point of view of China, this is part of a larger 
set of questions that they pose for themselves about which 
direction the new administration is going to go. They have, I 
think, two views of it.
    One is it is a reckless administration that is bound to get 
into conflict, and even conflict with themselves. On the other 
hand, there are those, and I think this is now a prevalent 
view, who believe that the President of the United States is a 
dealmaker, he is interested in business, and it is possible to 
get along with him. But they have to get there, and they are 
concerned and uncertain.
    Dr. Cha. I would also add that I think, I hope, that the 
Chinese also understand that the structure of the situation is 
very different now. North Korea, as you said, Senator, is now 
approaching a capability that compels the United States to make 
choices it has never had to make before, and that whether it is 
President Trump or anybody else who is President, they would 
all be forced into a situation today when they are making 
choices they never had to make before because there is a 
Homeland security threat.
    My hope is that the Chinese understand that the structure 
of the situation is very different regardless of who is 
President.
    Senator Graham. Do you believe that North Korea's missile 
technology, if not changed, will mature by the time of 2020? 
They will have a missile, if nothing changes?
    Affirmative response.
    All right, so we are all going to the White House tomorrow 
night to be briefed. No good choices when it comes to North 
Korea. Do you all agree with that? Would you agree that if 
there was a war between North Korea and the United States, we 
would win? Do you think North Korea understands that?
    Dr. Tellis. We would win ultimately, but it would be 
extremely costly in the near term.
    Senator Graham. More costly to them than us?
    Dr. Tellis. Not where regime survival is concerned, 
obviously. More costly for them where regime survival is 
concerned, yes.
    Senator Graham. So I will end with this thought. No good 
choices left, but if there is a war today, it is over there. In 
the future if there is a war and they get a missile, it comes 
here.
    Thank you for your time.
    Dr. Tellis. May I add one other thought, Senator?
    Senator Graham. Absolutely.
    Dr. Tellis. We ought not to forget the prospects of further 
North Korean outward proliferation beyond just issues of----
    Senator Graham. I did not even get there because that 
bothers me as much as the missile, because they could give it 
to somebody to use it in a different way.
    So on that cheery note, we will end.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    I would like to thank all of you for being here today and 
for your very helpful and informative testimony.
    Right now, we have a nuclear submarine at South Korea.
    Dr. Friedberg, how persuasive to the North Koreans are that 
kind of gesture or show of force, for lack of a better term, 
along with the Carl Vinson being in the area? Do they matter? 
Are they simply more provocative because it provides a larger 
platform and more visible show on their part?
    Dr. Friedberg. I think the North Koreans have shown a great 
deal of sensitivity to our military activity in conjunction 
with the South Koreans around the peninsula. They get very 
upset with military exercises and so on.
    So they are paying close attention, and they notice what we 
do. The question is, how do they interpret that, and does it 
cause them to change their behavior? I think in the short term, 
probably these gestures have caused them to pull back a little 
bit. Maybe they would have gone ahead with the test a week ago 
if not for all the talk of U.S. forces flowing into the region.
    But in the long run, I am not so sure that they actually 
believe that we are going to use those capabilities.
    Ms. Magsamen. I think they do have an effect on the North 
Koreans, certainly. This morning, you saw that they had a big 
artillery exercise, live artillery exercise. So they are 
reactive to some of what we do.
    I do think, though, that the accumulation of it over time 
can have kind of a numbing effect, frankly, on the dynamics.
    So they do react. It does get their attention. But they 
have also gotten a little bit used to some of these moves.
    Senator Blumenthal. Dr. Friedberg, you made the point that 
the Chinese have played us, I think, to paraphrase what you 
said before, to quote you, for at least the last 15 years. Is 
there any prospect of these military exercises changing China's 
view?
    Dr. Friedberg. I think if the Chinese became persuaded, 
convinced that we actually were on the verge of initiating 
military action against North Korea, then they might behave 
differently. They might apply greater economic pressure, for 
example, to North Korea.
    But I do not think they are convinced of that. They are 
uncertain.
    Ms. Magsamen. I also think that if it is perceived that we 
are making a big bluff, that has really serious credibility 
impacts for our strategy.
    Senator Blumenthal. Sending our fleet to exercises with 
Australia rather than to the area where we said they were going 
might undermine our credibility, correct?
    Ms. Magsamen. It was not a shining moment, Senator.
    Dr. Friedberg. Could I say, there is another aspect to 
this? Dr. Cha would be an expert on this.
    But that is how our actions are perceived in South Korea 
and the extent to which people there become fearful that, in 
fact, we might do things that would cause a war that would 
produce great suffering in South Korea.
    We have to be very careful that we are communicating our 
intentions, and the people in the South Korea, the leadership 
but also the public, perceive that accurately. Otherwise, we 
are going to do damage to our long-term relationship with one 
of our most important allies.
    Senator Blumenthal. Dr. Cha?
    Dr. Cha. Yes, I agree with that. I think for many in South 
Korea, it is sort of a dual-edged sword. On the one hand, they 
would like to see a stronger United States posture with regard 
to the North Korean threat, but then they do not want too 
strong a posture, because then it looks like you are preparing 
for something else and not just deterrence.
    I would agree with what Kelly said as well. I think, 
whether it is a submarine or the Vinson strike group, these 
things either as part of or related to the two sets of 
exercises, the major exercises the United States does with the 
ROK [Republic of Korea] in the region, are good. They show must 
muscularity. But they do sort of have a numbing effect, and 
then you are compelled to think of other things that would sort 
of negate that or create more of a sense that there is more 
than just posturing here.
    One of the things that I have heard talked about is flowing 
more forces to the peninsula. But as I said, that could be a 
dual-edged sword. It could be seen as strengthening deterrence. 
It could also be seen as preparing for something else.
    So there are a lot of very difficult angles to the problem 
that I think the current administration must deal with.
    Senator Blumenthal. Behind all of it, there is the danger 
of miscalculation, which is perhaps most frightening, because 
it means that any kind of military conflict would not be on the 
terms that wanted, not consistent with the plan that we may 
prepare. It is precipitous and unexpected, and, therefore, even 
more dangerous than military conflict would be otherwise.
    Dr. Cha. I entirely agree with that.
    Senator Blumenthal. Thank you.
    Senator Reed. [Presiding.] On behalf of Chairman McCain, 
Senator Warren, please.
    Senator Warren. Thank you.
    Thank you all for being here and for this detailed and very 
helpful hearing. I just want to probe a couple other points in 
a little more detail, if I can.
    Dr. Tellis, the United States-India relationship has 
evolved over the past decade from one of distance to a close 
strategic partnership. In just the past few years alone, the 
Department of Defense has named India a major defense partner 
and established the Defense Technology Trade Initiative.
    But India famously values its nonalignment in foreign 
policy, and it has a longstanding relationship with Russia. 
Even today, Russia is India's primary arms supplier. Whereas 
the United States emphasizes restrictions on the use of force, 
Russian arms come with very few strings attached.
    Dr. Tellis, some have recently suggested that India is 
playing the United States and Russia against each other for its 
own benefit. Do you think that is true? Do you believe that 
this is something the United States should be concerned about?
    Dr. Tellis. I think India will always have a relationship 
with Russia independent of the United States for a very simple 
reason, that the Russians have been far more willing to provide 
India with strategic capabilities and strategic technologies of 
the kind that we would not, either for reasons of policy or 
law.
    But our objective with India has been more subtle than I 
think has been expressed often in the public commentary. The 
United States has approached India with a view to building its 
own capabilities, rather than seeking to forge an alliance. The 
reason we have done that is because we believe a strong India 
aids in the preservation of a balance of power in Asia that 
serves our interests.
    So our calculation has been that, if India can stand on its 
own feet and if India can help balance China independently, 
then that is a good thing for us irrespective of what they do 
with us bilaterally. I think that policy is a sensible and we 
ought to pursue it.
    Let me say one other thing about Russia. The Indians have 
come around to the recognition that Russia today no longer has 
the kind of cutting-edge capabilities that it did during the 
days of the Soviet Union, and, too, that the Russians are not 
particularly reliable with respect to providing advanced 
conventional technologies of the kind that the United States 
has.
    So while they want to keep the relationship with Russia in 
good repair, because they have a substantial military capital 
stock from Russia, they want to diversify. The United States is 
number one in the diversification plan.
    Senator Warren. That is very helpful. I very much 
appreciate your perspective on this.
    India is the largest democracy in the world and an 
important partner for us in the region. I think it is 
incredibly important to continue to grow the relationship in 
the years to come. Thank you.
    I have one other question, if I can, and that is, Ms. 
Magsamen, earlier, you mentioned the missile defense when we 
were talking about Korea.
    THAAD is clearly a critical part of our layered missile 
defenses. But what are the additional military measures 
specifically that we should be taking with our allies in South 
Korea and Japan in order to deal with the North Korean threat?
    Ms. Magsamen. Actually, I think the most important thing we 
can do is encourage trilateral cooperation, especially in the 
maritime space and the regional missile defense space.
    We have been doing some of that over the last year. We have 
made a lot of progress. Of course, South Korea and Japan still 
have historic concerns with each other that have inhibited a 
lot of progress. I think that is changing, though.
    I think the more the United States can get South Korea and 
Japan operating together, getting our systems talking to each 
other, it is only going to improve our ability to defend 
ourselves. So I think that is the most important thing that we 
can be doing right now.
    You saw the Carl Vinson is doing exercises with the 
Japanese. They are getting ready to hand off to the Koreans I 
think today. There is sequencing there that is important. But 
we need to move past just a sequenced set of cooperation, and 
we need to actually be doing more together on the water, in 
particular.
    Senator Warren. That is very helpful.
    I have a few seconds left. Would anyone like to add to 
that? Dr. Friedberg? Dr. Cha?
    Dr. Cha. The only thing I would add is I think we need 
another THAAD battery on the Korean Peninsula. North Korea can 
angle their missiles in a certain way they can avoid one 
battery, so I think we need more than one.
    Senator Warren. I see lots of nodding heads. I take it that 
is a consensus position. All right, that is very helpful.
    I think we need to signal to our allies that our commitment 
is firm, that it is unshakeable, and that we are going to 
pursue appropriate ways to demonstrate that.
    Thank you.
    Senator Reed. On behalf of Chairman McCain, Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    I want to follow up on Senator Warren's questions about the 
United States-India relationship. Two of you mentioned in your 
opening testimony the importance of the relationship. Senator 
McCain echoed that.
    One of you only talked about the Indo-Pacific, not the 
Asia-Pacific. Dr. Tellis, I thought that was interesting. The 
title of the hearing is about the Asia-Pacific, but you used 
the phrase Indo-Pacific. About 2 years ago, virtually all of 
our DOD [Department of Defense] witnesses switched over to 
using Indo-Pacific largely in their testimony.
    The Indian military does more joint exercises with the 
United States than they do with any other Nation. That is an 
important trend. That is a recent trend. I view probably Prime 
Minister Modi being a BJP [Bharatiya Janata Party]--the 
Congress Party has had that traditional nonalliance. This is a 
little bit of an evolution for them.
    Talk about what we should be doing to deepen that 
relationship, not only militarily, but it seems that a 
similarity between China and Russia is they both would like the 
United States less involved in the region, and they both seem 
to have an interest in undermining the brand of democracies 
generally and suggesting that authoritarian nations are just as 
good.
    We are the oldest democracy in the world. India is the 
largest democracy in the world. Both of our nations have some 
motive to demonstrate the strength of democracies.
    There does not seem to be an institution in the world now 
that is effectively promoting the strength of the democratic 
model. I am curious to have you talk about what the United 
States and India might do together, either security issues in 
the region or more generally, to promote the democratic model 
against this assault from authoritarian nations to suggest it 
is losing its vigor.
    Thanks.
    Ms. Magsamen. I would say, practically speaking, with the 
Indians, we could be doing a lot more in Southeast Asia 
together, and South Asia, in particular on building capacity of 
our partners.
    The Indians have taken a recent interest in getting more 
engaged in the Asia-Pacific as part of Modi's Act East.
    But I actually think there is more coordination that the 
United States and India can do at the strategic level in terms 
of finding ways to build capacity of the Southeast Asian 
partners and South Asia as a way to check Chinese ambitions a 
little bit.
    Also more cooperation in the Indian Ocean region for sure, 
historically, that has been India's space. But I think there is 
more the United States and India could do together in that area 
as well.
    We have a very successful exercise called Malabar that we 
do with India, that we invite the Japanese to. I think, going 
back to the point I made earlier about networking our security 
relationships, we should really try to press the Indians to 
also include allies like Australia into that exercise. The more 
that we and India can work together to expand this hub-and-
spoke approach to the region, I think the better.
    In terms of your question on democracy, the United States 
and India share a strategic view on the importance of a rules-
based order. It is what drives our cooperation at the strategic 
level. I think the more that the United States and India are 
seen partnering together in initiatives in the region, the more 
it kind of has a bank shot on the democratic aspects. There are 
more ways that we can speak together with a common voice about 
the importance of the rules-based order together.
    Dr. Tellis. Senator, let me start by giving you a sense of 
what I think the fears and the uncertainties in Delhi are right 
now.
    They are concerned that the United States will not make the 
investments required to protect its preeminence in Asia. If 
that concern grows roots, then their willingness to bet on the 
U.S. relationship diminishes.
    They are also concerned that the United States, for 
tactical reasons, might reach a condominium with the Chinese. 
If that happens, then India will find itself in a sense losing 
out.
    So the immediate challenge that we have with India is to 
reassure it that the United States will continue to remain the 
security guarantor of the Asian space, writ large. By that, I 
include both the Indian Ocean and the Asia-Pacific.
    The second point I would make is that they see the 
strategic challenges immediately as arising from China, so 
whatever we can do to help them cope with those emerging 
strategic challenges are the things that advance our common 
interests.
    I endorse everything that Kelly said in this regard. So the 
Indian Ocean area becomes an immediate point of focus. 
Southeast Asia becomes an immediate point of focus.
    I would also say Central Asia and the Persian Gulf, because 
India has interests in Afghanistan, in particular. It has 
interests in the Gulf. There are millions of Indians who work 
in the Gulf. It is an important source of foreign exchange, so 
on and so forth.
    So those are three areas where we continue to do work in 
terms of broader defense cooperation.
    Senator Warren already eluded to the defense technology 
initiative that was started by Secretary Carter. I think we 
ought to pursue that, because it really meets an important 
need. I hope the new administration doubles down on support.
    The final point I would make with respect to democracy 
promotion, the Indians are actually very eager to work with the 
United States on democracy promotion, but not at the high end, 
at the low end. They are more interested in working with us in 
building institutions as opposed to changing regimes. They know 
they cannot affect our choices with respect to how we deal with 
regimes.
    But getting the mechanics of democracy right, so helping 
countries conduct elections, having training programs for civil 
servants, helping them put together the institutional 
capacities to man democracy, that is where India has in the 
past been quite willing to work with us. During the Bush 
administration they worked with us on the Global Democracy 
Initiative.
    It would be really unfortunate if we lost our appetite for 
democracy promotion at this point when you have a Prime 
Minister in India who is actually quite eager to work with us 
on democracy promotion collaboratively around the world.
    Senator Reed. On behalf of the chairman, Senator King, 
please.
    Senator King. Thank you very much.
    There are eight other countries in the world other than 
North Korea that have nuclear weapons, and many of them have 
had them for many years. They have never been used, principally 
because of the principle of deterrence.
    So the question, based upon your testimony today, which is 
that a continued pursuit of nuclear weapons by North Korea is 
virtually inevitable, it will be very difficult to derail with 
anything short of devastating military confrontation, which we 
can discuss in a moment, will deterrence work with North Korea 
just as it has worked with the rest of the world to keep us 
away from nuclear confrontation?
    Dr. Cha?
    Dr. Cha. So I think the hopeful answer is that it will. 
North Korea has been deterred from invading the Korean 
Peninsula again with armored divisions, so the United States-
ROK alliance in terms of conventional deterrence has worked, so 
one hopes to assign some rationality to North Korean 
calculations because of that outcome.
    But there are two things that are different. One is that we 
are talking about nuclear weapons now. Two, we are talking 
about a different leader.
    Even if we assume that deterrence holds, nuclear deterrence 
holds, we still have two other problems. One is, as Senator 
Graham and Ashley mentioned, outward proliferation. North Korea 
is a serial proliferator. Every weapons system they have ever 
developed, they have sold.
    Senator King. The real nightmare is nonstate actors 
obtaining nuclear weapons for whom deterrence would not work.
    Dr. Cha. That is absolutely right. That is absolutely 
correct.
    Then the second concern is that, because if deterrence 
holds at the nuclear rung of the ladder, there is also the 
possibility that North Korea will feel the United States has 
deterred. Therefore, it can actually coerce more at the 
conventional level, something that is known as the 
stability?instability paradox.
    So I think there is a lot of concern that North Korea, even 
if it is deterred, will actually feel that it has more license 
to take actions at the conventional level to coerce others.
    Senator King. You all have testified about the consequences 
of some kind of preemptive strike, in terms of--and I think it 
is important to realize that Seoul is about as far from the DMZ 
[Demiliterized Zone] as we are from Baltimore. We are not 
talking about nuclear strike. We are talking about artillery.
    But let me ask the question another way. Perhaps this is 
best addressed to the intelligence community, but you may have 
views.
    Could we take out their nuclear capacity with a preemptive 
strike? Or would there simply be enough left? You cannot bomb 
knowledge. There would be enough left to reconstitute it, and 
they would be even more determined at that point?
    Ms. Magsamen?
    Ms. Magsamen. I mean, the short answer is, I do not know. 
But I do think that the question of permanence is important, 
and what the objective of the strike would be, if it was to 
take out the program.
    There is, as you mentioned, the knowledge issue.
    Senator King. During our debate on the JCPOA [Joint 
Comprehensive Plan of Action], the intelligence community 
informed us that an all-out strike on the nuclear capacity of 
Iran would delay their program 2 years. That was a very 
important part of the debate, because that really makes that 
alternative less appealing, particularly when you layer on the 
response and the danger of confrontation with China.
    Any other of you have views on the feasibility of how far a 
military strike could go in terms of eliminating the capacity?
    Dr. Tellis, do you?
    Dr. Tellis. I do not believe we have the capacity to 
eliminate the program in its entirety, which essentially means 
that there will be both the residual assets and the capacity 
for reconstitution.
    Senator King. Certainly the will, based upon having been 
struck.
    Dr. Tellis. Correct.
    Senator King. To change the subject slightly, one of the 
things that really concerns me about the situation that we are 
in now, which is one of the most dangerous I can remember in my 
adult life, is accidental escalation, misperception. We move 
the carrier group. We believe that is a message. They believe 
it is preparation for an invasion, and you get a response.
    You are all nodding. The record will not show nods.
    Dr. Friedberg, your thoughts?
    Dr. Friedberg. Yes, I think that is an additional danger. 
Even if you assume a certain level of rationality on the part 
of the North Korean leadership, they are not insane, there is a 
real problem of misperception and miscalculation. The view 
that, as nearly as we can tell, the current North Korean 
leadership has of the rest of the world, of the United States, 
is extremely distorted. I think they do believe that we are out 
to get them, and there are possibilities for interaction 
between things that we do and things that they do that could 
have unintended consequences.
    Senator King. Do we have any direct communication with 
North Korea?
    Dr. Cha. The channel that the U.S. Government usually uses 
is through the Permanent Mission to the U.N. [United Nations] 
in New York. But it is largely a messaging channel.
    Senator King. It strikes me that that would be an important 
issue when you are in a situation where you do not want 
misunderstandings. That is when wars start, is 
misunderstanding, misperception of each side's moves.
    Dr. Cha. I agree, and to add to what Aaron said, it could 
also be miscalculation that comes from someplace completely 
different.
    In other words, we have data that suggests North Korea 
likes to target both United States and South Korean elections 
with provocations, and we have an election in South Korea May 
9th. So it is entirely plausible the North Koreans could carry 
out something that is non-ballistic missile, non-nuclear 
directed at South Korea that can also spin out of control. So 
miscalculation can come from a variety of different places.
    Senator King. I appreciate your testimony. Needless to say, 
we focused a great deal on North Korea. We did not really talk 
as much about China.
    Graham Allison has a new book, ``Destined for War.'' I 
think we all need to study the Thucydides Trap with regard to 
China. We could have an entire hearing on that.
    Thank you very much for your testimony.
    Senator Reed. Thank you.
    Let me thank the panel for very compelling testimony. Thank 
you very, very much.
    On behalf of Chairman McCain, declare that the hearing is 
adjourned.
    Thank you.
    [Whereupon, at 11:58 a.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
